<html>
<title> - HOW WOULD MILLIONS OF GUEST WORKERS IMPACT WORKING AMERICANS AND AMERICANS SEEKING EMPLOYMENT?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



   HOW WOULD MILLIONS OF GUEST WORKERS IMPACT WORKING AMERICANS AND 
                     AMERICANS SEEKING EMPLOYMENT?

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2004

                               __________

                             Serial No. 78

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

92-672              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel
                            C O N T E N T S

                              ----------                              

                             MARCH 24, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Howard L. Berman, a Representative in Congress From 
  the State of California........................................     3
The Honorable Jeff Flake, a Representative in Congress From the 
  State of Arizona...............................................     4
The Honorable John Conyers, Jr., a Representative in Congress 
  From the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5
The Honorable Chris Cannon, a Representative in Congress From the 
  State of Utah..................................................     6
The Honorable Steve King, a Representative in Congress From the 
  State of Iowa..................................................     7
The Honorable Linda T. Sanchez, a Representative in Congress From 
  the State of California........................................     9
The Honorable Lamar Smith, a Representative in Congress From the 
  State of Texas.................................................    10
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    42

                               WITNESSES

Mr. Mark Krikorian, Executive Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    12
  Prepared Statement.............................................    15
Dr. Frank Morris, Chairman of the Board, Diversity Alliance for a 
  Sustainable America
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Mr. Roy Beck, Executive Director, NumbersUSA Education and 
  Research Foundation
  Oral Testimony.................................................    28
  Prepared Statement.............................................    30
Mr. Muzaffar Chishti, Director, Migration Policy Institute, New 
  York University School of Law
  Oral Testimony.................................................    35
  Prepared Statement.............................................    36

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Chris Cannon, a 
  Representative in Congress From the State of Utah
  Letter of Support for S. 1645 and H.R. 3142....................    69
  Prepared Statement of Bob Stallman, President, American Farm 
    Bureau Federation (AFBF).....................................    78
  Americans for Tax Reform (ATR) Legislative Alert...............    79
  Letter from Robert Guenther, Vice President, Public Policy, the 
    United Fresh Fruit & Vegetable Association...................    80
  Release from the U.S. Chamber of Commerce......................    81
  The Weekly Standard Article....................................    82
  Release from the Essential Worker Immigration Coalition (EWIC).    86
  Prepared Statement of Dr. James Holt, on behalf of the 
    Agricultural Coalition for Immigration Reform and the 
    National Council of Agricultural Employers...................    87
  Wall Street Journal Article....................................    98
  National Foundation for American Policy Report.................    99
  Wall Street Journal Article....................................   122
  Release from the U.S. Chamber of Commerce......................   123
  Letter from J.R. Gonzales, Chairman of the Board, the U.S. 
    Hispanic Chamber of Commerce.................................   124
Material submitted by the Honorable Linda T. Sanchez, a 
  Representative in Congress From the State of California
  Letter from Vibiana Andrade, Acting President, the Mexican 
    American Legal Defense and Educational Fund (MALDEF).........   125
  Letter from Manuel Mirabal, Chair, the National Hispanic 
    Leadership Agenda (NHLA).....................................   128
Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress From the State of California........   130
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............   130
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress From the State of Virginia..........   131

 
   HOW WOULD MILLIONS OF GUEST WORKERS IMPACT WORKING AMERICANS AND 
                     AMERICANS SEEKING EMPLOYMENT?

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    There has recently been much discussion of the creation of 
an expansive new guest worker program to meet the needs of 
employers for low-skilled workers. A number of plans have been 
proposed that would allow the employers of the estimated 5.7 
million illegal aliens working in the U.S. to sponsor the 
aliens for guest worker status. In addition, the plans would 
allow employers to import, as guest workers, an unlimited 
number of aliens living outside the U.S. who could work in any 
occupation as long as they were paid at least the minimum wage.
    This hearing will consider the impact that such mass guest 
worker programs could have on American workers and unemployed 
Americans. We already have evidence of the impact that low-
skilled immigration has had on American workers. Harvard's 
George Borjas estimates that the immigrant influx since 1980 
has decreased the wages of the average native worker by 3.2 
percent and the average native worker without a high school 
degree by 8.9 percent. Steve Camarota from the Center for 
Immigration Studies estimates that current immigration policy 
has resulted in a reduction of the average wage of a native 
worker in a low-skilled occupation by 12 percent or a little 
over $1,900 a year.
    Think just of teenagers. The Boston Globe recently ran an 
article finding that, quote, for people of all ages, the 
current U.S. job market is a tough one. For teenagers, it is 
brutal. The weak economy has forced adults to seek the low-
skill, low-wage jobs that teens usually occupy. On top of that, 
a continuing inflow of immigrants has created still more 
competition at the bottom of the job market. The net result? 
Teenagers are being elbowed aside.
    The youth labor market is in a depression, said Neil 
Sullivan, president of the Boston Private Industry Council, a 
group that finds jobs for young people. According to a new 
study by Andrew Sum, a professor at the Center for Labor Market 
Studies at Northeastern University in Boston, the percentage of 
16- to 19-year-olds holding jobs in the United States is the 
lowest it has been since the Government began tracking 
statistics in 1948. For middle class youth, having no job may 
mean there is less money for clothes and cars. For poor 
teenagers, the loss is more serious, end quote.
    One could say that wages for American workers have already 
been depressed as a result of competition with millions of 
illegal alien workers and that legalizing the illegal aliens 
would have no further negative effect. This would be a 
plausible argument if one has forever given up on returning 
these illegal aliens to their homes.
    Of course, we have an untried alternative: simply to 
enforce employer sanctions that would, year-by-year, brighten 
the prospects for American workers. But put amnesty aside, for 
example. A guest worker program would accomplish much more than 
legalizing illegal aliens. It would also allow employers to 
fill literally every job vacancy in America with aliens as long 
as they could find prospects abroad who would accept the 
minimum wage, while American workers refuse to work for such a 
sum.
    And it would allow those same employers to dismiss any 
American worker who was unwilling to work for $5.15 an hour. 
Suddenly, American workers would be faced with the prospect of 
hundreds of millions of new potential replacements. Most 
threatened are the almost 12 million native-born workers who do 
not have high school degrees plus the millions of such 
Americans who are unemployed or who have abandoned the work 
force altogether.
    But many more are at risk. Although we are told that native 
born Americans won't work in service jobs, 79 percent of the 23 
million workers in such jobs are native-born Americans. 
Although we are told that native born Americans won't work in 
construction jobs, 81 percent of the 6 million workers in such 
jobs are native-born Americans. Although we are told that 
native-born Americans won't work in production jobs, 77 percent 
of the 10 million workers in such jobs are native-born 
Americans.
    How many of these native born workers will lose their jobs 
to recruits from abroad if we create a massive guest worker 
program? Currently, 90 percent of workers in service jobs, 99 
percent of workers in construction jobs and 99 percent of 
workers in production jobs earn more than the minimum wage. How 
many of these workers will lose their jobs to recruits from 
abroad or be forced to accept drastically lowered wages if we 
create a mass guest worker program?
    We might see more and more occupations suffer the fate of 
meat packing. A few decades ago, meat packing jobs were some of 
the highest-paying blue collar jobs around. I think we can all 
remember Sylvester Stallone working in a Philadelphia meat 
packing plant as he trained to take on Apollo Creed. But today, 
meat packing jobs are not only low-paying but they are also 
some of the most dangerous jobs in America. Not coincidentally, 
this has been accompanied by a large flow of immigrant workers.
    Can we at least be sure that in times of recession, guest 
workers will have to go home before American workers will lose 
their jobs? Not if we rely on the experience of the economic 
downturn that started in 2000. From 2000 to 2003, the number of 
employed native-born workers dropped by 769,000, while the 
number of employed foreign born workers increased by over 1.6 
million. American workers, it seems, bore the brunt of the 
recession.
    Before we embark on the journey toward a mass guest worker 
program, let us view the destination through the eyes of those 
it is our job to protect.
    At this time, I would like to recognize that the Ranking 
Member, Sheila Jackson Lee, is actually going to be managing a 
bill on the floor of the House very shortly, and that is why 
she was absent, but the Chair will recognize her when she 
returns for her opening statement.
    At this time, the Chair recognizes, on the minority side, 
Ms. Sanchez or Mr. Berman for an opening statement.
    Mr. Berman. Well, I don't have a prepared opening 
statement, but as I heard the Chairman's opening statement, 
there are certain ironies that I can't help myself but pointing 
out.
    I'm not a big fan of guest worker programs. But as I 
listened to the Chairman cite the statistics regarding the 
displacement of U.S. workers, the thing I did not hear him say 
was this had nothing to do with guest worker programs. I find 
it interesting when the people who are most--where you start 
sort of shapes how you define this issue. People who oppose 
increases in the minimum wage law, extension of unemployment 
insurance benefits, stripping overtime pay from large numbers 
of people, have generally been hostile to efforts to reform and 
strengthen our labor laws to enhance the power of workers to 
attain better wages bemoan the role that guest worker programs 
play in depressing wages and displacing U.S. workers from jobs, 
notwithstanding their opposition to all of the legislative 
efforts that I just mentioned.
    On the same--and the other irony is that some of the people 
who are most strongly supporting guest worker programs never 
want to acknowledge the potential that it has not simply for 
filling urgent labor needs where there are shortages but in 
actually displacing and deterring people in the United States 
from taking those jobs, even as they advocate those programs on 
behalf of workers generally.
    The fact is, if you have meaningful enforcement, one could 
structure guest worker programs very readily to deal with 
situations where there are key labor shortages and provide the 
kinds of protections that ensured that employers were not 
incentivized to go to guest workers before they exhausted the 
supply of U.S. workers, but the people who oppose guest worker 
programs never entertain the idea of supporting meaningful 
protections in the guest worker programs that exist now.
    And the fact is that a relatively small number of workers 
in the U.S. come from legal guest worker programs. The issue of 
job displacement has essentially hardly anything to do with the 
existing guest worker programs, and I just find it interesting 
to hear the concern about the plight of U.S. workers expressed 
by people opposed to the Administration's proposal and others--
and I have my own very strong concerns about what I view as the 
ineffectiveness of the Administration's proposals, but and then 
are so hostile to any efforts to try and protect U.S. workers.
    And with those comments, I'll yield back.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Flake, for an opening statement.
    Mr. Flake. I thank the Chairman.
    I just want to register my objection, to begin with, with 
the structure of this hearing. We have hearing after hearing on 
the immigration issue, and unless the minority party is able to 
get somebody who has a different opinion, those of us in the 
majority party who have a differing view aren't really 
represented or don't have witnesses to actually speak to other 
parts of the issue.
    And so, I feel that we're not going to hear a 
representative view today; the title of the hearing, ``How 
would millions of guest workers impact working Americans and 
Americans seeking employment,'' sounds like an ominous kind of 
warning about what's going to come. And I have to tell you, 
it's already here. Those who worry about the Bush plan and 
those who call it an amnesty, which it is not, are not 
recognizing that we have a de facto amnesty at present. Once 
you get past the border, and I can say that from an Arizona 
perspective, you are home free.
    We have a situation where the border leaks heavily still, 
but it only leaks one way. It used to be that the average stay 
of a migrant worker in Arizona was about 2 years; now, it's 
about 10, because it is tough to cross that border. It is 
expensive. It is dangerous. And they figure I only want to do 
it once, and they come and stay, and they typically now bring 
their families, which imposes huge costs on the State of 
Arizona and its taxpayers in health care and education and 
criminal justice.
    We will never enforce the law like we need to do unless we 
recognize that we have the need for labor. I just want to take 
issue with a few things said. We were told that native-born 
Americans will not take work in construction or in the 
hospitality industry or in agriculture. I don't think we've 
ever been told that. I mean, I grew up in agriculture. I took 
that job when it was forced upon me, at least.
    But there are a lot of native-born Americans. The problem 
is there aren't a sufficient number of them. And anybody who 
speaks to contractors and others in Arizona will find that out 
very quickly: the restaurant association and the construction 
trades, there simply aren't a sufficient number of Americans 
willing to take those jobs. And it's not because they're 
minimum wage jobs. Few of them are. In fact, some of them are 
paying much higher, double, triple the minimum wage and still 
have difficulty filling those jobs.
    Under the guest worker plan, the temporary worker plan that 
myself and Congressman Kolbe and Senator McCain have offered, 
it would protect American workers in that in order to have 
somebody come in on what we call an H-4A visa, the employer 
would have to pay a $500 fee in order to be able to import 
somebody. That is a pretty good deterrent against importing 
somebody, I would believe, and the employers that I talked to 
would all much rather have a native-born American fill those 
jobs if they can do it.
    So there is plenty of deterrent there from doing it. I just 
do not accept the premise that there are some people will say, 
well, there are 10 million unemployed, and there are 10 million 
foreign workers in the country. Do the math; just replace one 
with the other. That assumes that it is the Federal 
Government's job to say to an unemployed school teacher in 
Maine, you have got to go roof houses in Arizona or an 
unemployed mill worker in Ohio to say you've got to go pick 
lettuce in Yuma.
    It is just--unless you accept that that is the Federal 
Government's role, then, you are going to have pockets with 
labor shortages at different times, and we ought to have a 
program, and I believe the President's plan is a step forward 
in the right direction in actually addressing that, to actually 
recognize that we're not going to enforce the law until we 
recognize we need a law that can be reasonably enforced.
    Enforcing employer sanctions at the moment is like trying 
to enforce a 20 mile an hour speed limit on a freeway. You're 
simply not going to do it. We do not have the political will or 
wherewithal to do it. And unless we get a law reasonable enough 
to enforce, we're not going to enforce the law, and so, that's 
why I say let's recognize that we have a need, and that's what 
I want to hear from the witnesses today: is there a recognition 
that there is a need, or are we just simply going to dismiss 
that and say hey, we're going to deport everybody who's here?
    Some worker who has been in the country for a couple of 
years who has kids that are born here who can legally stay, are 
we going to send them back to Guatemala or El Salvador or 
Mexico? And with the child here, are we really going to do 
that? Absent that, what is the solution? What can we do?
    So I would like to hear some real solutions and not just 
explanations of the problem; believe me, coming from Arizona, 
we know the problem. We're paying for it disproportionately. 
Our citizens are taxed heavily to do so. So we have got to find 
a solution, and that is what we are looking for, and with that, 
I would yield back.
    Mr. Hostettler. The gentleman's time has expired.
    In response to the gentleman, I have spoken about the issue 
of this hearing and the perspective of the majority witnesses; 
however, I will note that it is my observation of the other 
chamber's proceedings and the emanations from the 
Administration that I am not sure that the other perspective is 
not represented in the debate today, and so, it is my desire 
here to potentially be a voice crying out in the wilderness 
with another point of view.
    That being said, the Chair now recognizes the gentleman 
from Utah. Oh, I am sorry; the gentleman from Michigan, the 
Ranking Member of the full Committee wish to be recognized?
    Mr. Conyers. Thank you, Mr. Chairman.
    I won't delay the witnesses. I've been told there have been 
some very excellent opening statements. And I've never done 
this before, but I'd like to associate myself with the remarks 
of Mr. Flake. I hope it does not---- [Laughter.]
    Mr. Cannon. Would the gentleman yield? Because I would like 
to associate myself with the remarks of Mr. Flake as well, and 
it is good company; thank you.
    Mr. Conyers. Right, because this is an issue that smashes 
together some very important and different considerations, and 
it's an enormous task, and I think that he's looking at it from 
the point of view of the importance of separating them out, and 
that's what I'm trying to do as well.
    Immigration, our domestic economy, where this new plan of 
letting everybody in for 3 years and seriously expect them to 
leave is a real test on our powers of belief. And so, I come to 
this with this one consideration to the witnesses: You know, we 
have an agricultural system that calls for everybody in the 
world doing the dirty work but us. We don't want to pay them. 
We don't want them, sure, to stay in town. Please leave as soon 
as you've done the stoop labor.
    And of course, we're not really that happy to make you 
citizens. And we have an agriculture, one of the biggest 
subsets of our economy, that's dependent on all, mostly, 
immigrant labor. And it presents several different kinds of 
problems that you can't solve by one quick happy bill to fit 
everybody. And I hope the distinguished witnesses will keep 
this in mind as we go forward.
    And I thank the Chairman for allowing this intervention.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentleman from Utah, Mr. 
Cannon, for 5 minutes for an opening statement.
    Mr. Cannon. Thank you, Mr. Chairman.
    May I inquire, do we expect to do a couple of rounds of 
questioning today?
    Mr. Hostettler. Yes.
    Mr. Cannon. Great; thank you.
    Let me just point out that the Chairman talked about a lot 
of statistics relating to jobs, and I'd like to share an 
anecdote from my district to point out that we do not live in a 
statistical world; that individuals make individual decisions 
with individual opportunities, and so we actually sort of live 
in an anecdotal world as opposed to a statistical world.
    I have a dairy that was in my district before it was 
redistricted, but I still stay in touch with these folks, and I 
was visited the other day by--in fact this is several months 
ago--by the owner of the dairy who told me that he is--
actually, I raised the topic, because I wondered what was going 
on in our labor markets in Utah, and I asked him how much he 
paid, and he said, well, we pay $12 cash, but with benefits and 
housing, our cost per employee is about $18 an hour.
    That was a pretty stunning number. And so, I have been 
accosted at least three times by mothers who are complaining 
about their sons not being able to get jobs. I suppose 
daughters are not part of the equation when it comes to 
immigration. But in any event, I have pointed out to all three 
of these women that there is a job nearby that pays essentially 
$18 an hour.
    I have not had one of them respond that--in fact, I know 
that none of their sons have tried to get a job there. I 
suspect that's because working in a dairy is actually hard 
work. We have about 650,000 farms in the United States that 
hired labor, and $1 of every $8 of farm production expenses is 
spent on hired labor. We have approximately 2.5 million people 
working in the United States who are engaged in hired 
agricultural work, and conservative estimates are that 65 to 75 
percent of them are in the U.S. illegally.
    We have a legal program, the H-2A program, for admitting 
and employing aliens in seasonal agricultural jobs in the 
United States, and it's currently employing about 30,000 
workers. There is something radically wrong with this picture. 
We have an illegal guest worker program that is providing 
nearly three-quarters of the agricultural labor employed in 
this country and a dysfunctional legal guest worker program 
that is providing less than 2 percent, or fewer than 2 percent, 
of the agricultural labor that is employed in the country.
    There are more than three times as many Americans with good 
jobs in agriculture and in the up and downstream jobs, food 
processing, transportation, farm credit, et cetera, supported 
by American agriculture than there are illegal aliens employed 
in U.S. agriculture. These are the working Americans and 
Americans seeking employment who will be adversely affected by 
the failure of this Congress to enact the agricultural labor 
and guest worker reform.
    Their jobs or the prospect of getting jobs are dependent on 
our fixing this broken system and preserving agricultural 
production in this country. I will submit for the record a 
statement that discusses in detail the impact of guest workers 
on agriculture and American agricultural jobs and why it is 
essential that we enact H.R. 3142, Ag Jobs, the agricultural 
immigration reform legislation that I have introduced.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes for an opening statement.
    Mr. King. Thank you, Mr. Chairman.
    I sincerely appreciate your holding this hearing today, and 
I want to tell you that I support an immigration policy that 
are designed to enhance the economic, the social, and the 
cultural wellbeing of the United States of America. That should 
be the purpose for immigration policies. And I cannot and will 
not support a guest worker program that gives mass amnesty to 
people who violate our immigration laws.
    Immigrants have made and will continue to make valuable 
contributions to our nation. I will work to develop an 
immigration policy that aids in the assimilation of newcomers 
by ensuring that the United States does not admit more 
immigrants than it can reasonably accommodate and assimilate.
    Assimilation is valuable to immigrants as much as it is to 
the native-born Americans. Immigrants benefit from our shared 
American culture of personal responsibility, freedom and 
patriotism. The values shared by our civilization, founded on a 
heritage of Western civilization, religious freedom and free 
enterprise capitalism serve immigrants and native born alike. 
I'm concerned that the recent rise in immigration levels in 
this country will make it difficult for newcomers to assimilate 
and to find jobs, but we must assure cultural continuity for 
our great nation. That's the key word is cultural continuity.
    I believe we must enforce immigration laws currently on our 
books rather than hold out the prospect of legal status or 
citizenship to immigrant lawbreakers. We must increase 
immigration law enforcement not only at our borders but in our 
interior, and we must make it more costly for lawbreakers to 
disregard our immigration laws. It is unjust to reward people 
who break our immigration laws and while many potential 
immigrants outside the United States are waiting to be admitted 
to the United States lawfully.
    If we allow people who break rules by entering the United 
States illegally to go to the front of the immigration line, 
it's a slap in the face to law-abiding immigrants and potential 
guest workers. I owned and operated a construction business for 
over 28 years and met payroll for over 1,400 consecutive 
months, and I empathize with the plight of employers who do all 
they can to comply with the laws but must compete with 
businesses who do not obey the laws, businesses who hire 
illegals and thus gain an additional competitive advantage.
    We've got to give employers the tools they need to find out 
whether a potential employee is allowed to work in the United 
States, and we must make sure that any temporary guest worker 
program is effective. Finally, we must give some relief to 
employers who comply with our immigration laws but are 
constantly disadvantaged by competitors who do not.
    Now, in the construction industry, in the agricultural 
industry, I look, too, and I see that there are jobs, as Mr. 
Flake said, that there's hardly you can describe that some 
Member of Congress has not done; not always by choice but some 
by assignment. And there is a preference by employers for 
illegals, because illegals aren't going to cause you the 
problems. They're not going to go and file a lawsuit, and they 
are not going to raise an employment problem, and they are not 
going to have a bad back on certain days.
    They're not going to take those days off and game the 
system. And so not only are they cheaper to hire, but they're 
cheaper to maintain. And that is an advantage that is just a 
common calculus. This is a free enterprise economy. That's why 
it is that way. I'm not blaming the employers. I am blaming the 
policy that we have out here and our unwillingness to enforce 
the policy. So it's the market's job to attract employees. I 
remember a situation, a story written in Milwaukee some years 
ago, about six blocks by six blocks, 36 square blocks, where 
there was not a single employed male head of household. Those 
people had moved up from the South, and 30, 40, 50 years ago to 
take the brewery jobs in Milwaukee, and when those jobs 
disappear, they find themselves unemployed and living there.
    But because we have a system that funds people who stay in 
those homes, they did not migrate then and take the next wave 
and go where the jobs were. The market has got to attract 
people, and we should not be attracting them at a cheaper rate 
from a foreign country and ignoring our laws.
    And by the way, where I come from, we had 11 illegals who 
died tragically in a train car that arrived at Denison, Iowa. 
And that affected our entire community and our entire State in 
the Midwest, and it affects the policy in the United States. 
And the people who go out and move illegals into this country 
and profit from it are the most despicable variety of criminal. 
And we have a circumstances, when we deal with coyotes, where I 
come from, we just skin them.
    So, thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The chair now recognizes the gentlelady from California, 
Ms. Sanchez, for an opening statement.
    Ms. Sanchez. Thank you.
    And I thank the Chairman and the Ranking Member for 
convening another Subcommittee hearing to examine an important 
issue that is related to immigration. Today, we are going to be 
looking at the issue of how guest workers impact American 
workers and Americans looking for jobs. And it is interesting 
because this hearing brings together two issues that are 
extremely important to me, immigration and labor.
    I believe that hardworking law-abiding people who immigrate 
to this country should have every opportunity to work so that 
they can provide for their families, and if they choose to, to 
America their new home. I also feel that undocumented 
immigrants who have been in this country for years contributing 
to American businesses and to our economy should have a chance 
to earn legal status and a stake in this country so that they 
can contribute to the United States permanently.
    I just want to remind everybody here that we should not 
forget that immigrant labor is what helped to build this 
country and what continues to help build our economy. 
Obviously, however, American workers helped build and sustain 
this country as well. You will not find a stronger advocate for 
American workers than myself. I'm a proud member of the 
International Brotherhood of Electrical Workers, and I'm a co-
chair and founding member of the Congressional Labor and 
Working Families Caucus.
    Simply put, I fully support American workers and want their 
jobs and their families to be protected. I am confident that we 
can create a guest worker program that makes sure that American 
jobs are secure and also lets law-abiding immigrants work 
toward earned legalization in this country. As this 
Subcommittee and this Congress work on immigration reform and 
specifically guest worker reform, we have to take the rights 
and the needs of both immigrant workers and American workers 
into consideration.
    The enhanced temporary worker program that is part of the 
Democratic principles on immigration reform accomplishes these 
goals. The Democratic principles create a guest worker program 
that lets immigrant workers move back and forth between their 
home country and the United States so they can fill open job 
opportunities and provide for their families. The Democratic 
guest worker program will also protect the immigrant workers 
from abusive employers, exploitation and unfair wages, and this 
is extremely important because if shady employers can abuse 
immigrant workers, it undermines the labor conditions for 
American workers as well and makes it easier for employers to 
demand that they accept lower wages and poor working 
conditions.
    Another way to protect American workers is to make the 
guest worker program market-focused so that U.S. workers do not 
lose their jobs. All of these concerns must be addressed to 
have a guest worker program that benefits immigrants and 
protects American workers. We must remember that the guest 
worker program has to be part of the comprehensive immigration 
reform plan that lets immigrants work their way to legal status 
and also lets immigrant families stay together.
    We need to completely overhaul our immigration system and 
guest worker laws to improve the labor market system so that it 
can help foster growth in jobs and the economy. I look forward 
to hearing from the witnesses today, and I thank them for 
taking the time to come to testify before the Subcommittee and 
answer our questions. I hope they can find ways to create a 
workable, enhanced guest worker program that benefits both 
immigrants and American workers. And I yield back the balance 
of my time.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes that Members of the Judiciary 
Committee are managing bills, managing legislation on the floor 
of the House of Representatives. As a result of the rules of 
the Committee, the Subcommittee must, for the time being, 
recess subject to the call of the chair until such time as the 
Judiciary Committee has ended its management of legislation on 
the floor of the House.
    I apologize to members of the panel and Members of the 
Subcommittee. My understanding is that this will not be a very 
long recess, but we will have to recess for the time being. And 
we will contact all of you when we will reconvene.
    The Subcommittee is in recess.
    [Recess.]
    Mr. Hostettler. The Subcommittee will come to order.
    At this time, the Chair recognizes the gentleman from 
Texas, Mr. Smith, for 5 minutes for an opening statement.
    Mr. Smith. Thank you, Mr. Chairman.
    I ought to say at the outset that earlier in the day, 
before we started the hearing, you were discouraging opening 
statements. But it is sort of like the border: once you start 
crossing that threshold, there is almost no stopping all the 
Members of Congress. [Laughter.]
    Mr. Chairman, what I'd like to do is to thank you for 
having this hearing, which I consider to be one of the most 
important we've ever held, and I say that because it involves 
not only immigration policy, but it involves American workers' 
jobs and the wages that they receive, and I think nothing could 
be more important than that subject.
    While the hearing itself is not specifically on the 
Administration's guest worker program, clearly, that is 
inferred by the subject of the hearing. So I just wanted to say 
briefly again what the Administration guest worker program 
involves that so concerns many of us. First of all, the 
Administration has proposed a guest worker plan that opens up 
every job in America, not just ag jobs, not just low-skilled 
jobs, but opens up every job in America to foreign workers, 
foreign guest workers. Everything from a high tech job to an ag 
worker job only has to be paid the minimum wage in order for 
them to be eligible for any job in America.
    And I find that a little scary. An employer, supposedly, 
has to make an effort to try to find an American worker, but we 
do not know what is required by that effort. We don't know if 
it's a bona fide effort or not, but we do know that it would be 
very easy for an employer to say, well, I cannot find anybody 
here, so I am going to take the other route, which is cheap 
foreign labor, and I think that's the great temptation.
    Another aspect of the Administration's plan concerns me, 
and it is this: that they have said in a briefing, after the 
Administration unveiled their guest worker program, that if you 
already are hiring illegal immigrants, you don't have to make 
an effort to find an American for those jobs. That is also 
scary when it comes to worrying about American jobs and 
American wages.
    It seems to me that given that any job is now eligible; 
that you only have to pay the minimum wage; that unless we 
repeal common sense and the law of supply and demand, you are 
inevitably going to displace American workers and depress 
American wages, and that should be unacceptable to any policy 
maker in America.
    We really have two choices, Mr. Chairman. We can either 
give up, surrender, or we can enforce the law. And the analogy 
that I like best is that if we were living in a house that was 
regularly burglarized; say, every month, our house is broken 
into, well, we can leave the front door unlocked, or we can 
pass out keys to the would-be burglars or we can get better 
locks and ask the police to patrol the neighborhood a little 
bit more frequently.
    I think we should do the latter. I think we should enforce 
the law, not give up, not surrender and, in effect, open up 
every job in America to anybody who is willing to work for a 
minimum wage.
    Lastly, Mr. Chairman, I find it interesting if not ironic 
that many of the individuals who support guest worker programs 
otherwise often profess to be on the side of low-income workers 
and minorities. And yet, almost every study that I am aware of 
by conservative or liberal think tanks have said that it is 
exactly those workers, the minorities and the low-skilled 
workers, who are disproportionately and adversely impacted by 
guest workers. So I am surprised by the position that some 
individuals take in support of the guest worker programs when, 
in effect, the people that they profess to care the most about 
are the ones that are most often hurt.
    Mr. Chairman, that is enough said; and I'll yield back the 
balance of my time.
    Mr. Hostettler. I thank the gentleman.
    The Chair will now introduce members of the panel before 
us.
    Mark Krikorian is currently the executive director of the 
Center for Immigration Studies, a nonpartisan research 
organization devoted exclusively to research and policy 
analysis of the economic, social and other impacts of 
immigration on the United States. Mr. Krikorian frequently 
testifies before Congress and has published articles in the 
Washington Post, the New York Times, Commentary, National 
Review and other publications.
    He has also appeared on 60 Minutes, Nightline, the News 
Hour with Jim Lehrer, CNN, National Public Radio and many other 
television and radio programs. Mr. Krikorian holds a master's 
degree from the Fletcher School of Law and Diplomacy and a 
bachelor's degree from Georgetown University. Before joining 
CIS in 1995, Mr. Krikorian worked in the editorial and writing 
fields.
    Dr. Frank Morris presently serves as the chairman of the 
board for the Diversity Alliance for a Sustainable America. Dr. 
Morris had a distinguished career in academia and was most 
recently a visiting professor of social sciences at the 
University of Texas at Dallas. In 1995, Dr. Morris retired as 
the dean of graduate studies and research at Morgan State 
University in Baltimore, Maryland. He was involved in 
development for historically black colleges and universities' 
graduate programs.
    Dr. Morris has also worked in various nonacademic 
capacities, including experience as executive director of the 
Congressional Black Caucus Foundation and as a senior foreign 
service officer at the U.S. Agency for International 
Development. Dr. Morris received his B.A. with high honors from 
Colgate University, a master's in public administration from 
the Maxwell School at Syracuse University, and a Ph.D. in 
political science from the Massachusetts Institute of 
Technology.
    Roy Beck is the executive director of the NumbersUSA 
Education and Research Foundation. Mr. Beck is founder of the 
NumbersUSA Foundation and was labeled as, quote, one of the 
five leading thinkers in the national immigration debate, end 
quote, by the Houston Chronicle. He has authored four public 
policy books and has contributed to many major newspapers. Mr. 
Beck's career in journalism spanned three decades and won him 
nearly two dozen awards, including a citation from the 
Encyclopedia Britannica for one of the five most important 
writings of 1994 with his investigative report, Ordeal of 
Immigration in Wausau.
    Roy Beck was formerly chief Washington correspondent for 
Booth Newspapers. Mr. Beck received a Bachelor of Journalism 
from the University of Missouri School of Journalism.
    Muzaffar Chishti is director of the Migration Policy 
Institute or MPI, offices at New York University School of Law. 
He focuses on U.S. immigration policy and its relation to labor 
and immigration laws, civil liberties and immigrant 
integration. Prior to joining MPI, Mr. Chishti was director of 
the Immigration Project of the Union of Needle Traders, 
Industrial and Textile Employees. Mr. Chishti has testified 
extensively on immigration and refugee legislation and, in 
1992, assisted the Russian parliament as part of a U.S. team in 
drafting Russian legislation on immigrants and refugees.
    For his efforts, he was awarded the New York State 
Governor's Award for Outstanding Americans in 1994, and he is 
also a 1995 recipient of the Ellis Island Medal of Honor. Mr. 
Chishti studied at St. Stephen's College in Delhi, the School 
of Law at the University of Delhi, Cornell Law School and the 
Columbia School of International Affairs.
    Gentlemen, thank you for your appearance today. Without 
objection, all of your written statements will be entered into 
the record, and Mr. Krikorian, you are recognized for 5 minutes 
for an opening statement.

  STATEMENT OF MARK KRIKORIAN, EXECUTIVE DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Krikorian. Thank you for the opportunity to appear 
before the Committee.
    I want to address some of the assumptions that underlie 
guest worker programs, not any specific legislative proposal. 
And I am going to examine three assumptions, but let me first 
start with one that I'm not going to examine and that is that 
guest workers will actually go home. Nothing in human history 
contradicts the insight that there is nothing more permanent 
than a temporary worker, and this is why none of the guest 
worker programs before Congress really even pretends to be a 
temporary worker program; rather, they are simply avenues for 
permanent immigration.
    The three assumptions I want to examine briefly are these: 
first, that immigration is an unstoppable force that we have to 
accommodate one way or another. The second assumption that 
underlies support for guest worker programs is that foreign 
workers are essential, because there is work that won't be done 
without them. And third is the assumption that the Federal 
Government actually has the capacity to properly manage 
whatever kind of guest worker program we put into effect.
    Let me begin with the first one: Is immigration inevitable? 
Is it really like the weather or the tides that we have to 
accommodate, either ignoring it, and it will come in illegally, 
or deal with it in a legal way and turn it into a guest worker 
program. The fact is that immigration is not like the weather. 
It is not an inevitable force. People usually discuss 
immigration in terms of pushes and pulls, poverty in the 
sending country, prosperity and liberty in our country.
    But the fact is that something has to connect those two 
countries. There have to be networks. Nobody wakes up in 
Timbuktu and says this morning, I will move to Buffalo. People 
go where they have relatives, where they have friends, where 
they have connections, and Government policy creates those 
connections. Specifically with regard to Mexico, the Bracero 
Program, which was the guest worker program we ran for about 20 
years starting in World War II set in motion, created the 
networks and set in motion the illegal immigration that we have 
been dealing with ever since. The IRCA amnesty of 1986 
refreshed and expanded those networks, and the Federal 
Government's abandonment of interior immigration enforcement 
has again further strengthened those networks that cause 
immigration.
    And the result is that the Mexican immigrant population has 
grown from 800,000 in 1970 to 10 million today. And in dealing 
with that, I will be happy to elaborate on in questions, we can 
in fact control this through attrition, through ordinary law 
enforcement causing the illegal population to shrink over time 
rather than look at only the two options of amnesty or mass 
roundups.
    The second assumption is that immigrants do jobs that 
Americans won't do is the way it is usually put, although I 
appreciate Congressman Flake's insight that there in fact is no 
such thing as a job that an American won't do; that there are 
some 17 million Americans of working age who have less than a 
high school education.
    But the fact remains, as Mr. Flake said, that a teacher in 
Maine is probably not going to be doing roofing in Arizona, if 
that's what happens. So the question is what happens if we 
don't have a guest worker program and we do enforce the 
immigration laws? And employers would respond in two ways: one, 
they would increase wages, benefits and change working 
conditions to get more people to work for them, and that would 
have a significant effect. The other thing they would do is 
find ways of making their existing workers more productive, so 
that a smaller number of workers would be able to do more work.
    I would commend to you a story in the New York Times, the 
front page of the New York Times Monday which described this 
process in agriculture, and the reverse of this is very 
important to keep in mind, and that is that immigration, high 
levels of immigration, whether it is illegal immigration or 
guest worker programs, actually slow the process of 
productivity improvements, such that a guest worker program, 
whether it's illegal immigration, which is a kind of de facto 
program, or a formal guest worker program is actually a threat 
to the long-term viability, the long-term competitive position 
of American business, and this is not merely in agriculture.
    In garment manufacturing, for instance, Southern California 
Edison did a report about how apparel manufacturers in Southern 
California had become inordinately dependent on cheap labor. 
And this had caused them to ignore investments in technology 
that even their low cost competitors overseas were making. So a 
guest worker program is potentially a serious threat to 
American business.
    And the third assumption is administrative feasibility, 
that the Federal Government, regardless of the economic and 
other arguments, that the Federal Government actually has the 
ability to manage a guest worker program properly, and this 
clearly does not exist. The immigration authorities have a 
backlog of more than 6 million applications of various kinds 
they have to deal with. This backlog has increased by some 60 
percent just in 2 years. The immigration service is being 
instructed by this body, and appropriately so, to implement 
vast new tracking systems for foreign visitors and foreign 
students.
    There is a reorganization process where the new Homeland 
Security Department is still being put together. And the Labor 
Department would have to manage any worker protections or wage 
protections which would end up in any guest worker program, 
which would inevitably be there in anything that was passed.
    The fact is that none of those things could be managed 
properly by an overwhelmed agency, and the result would be 
massive fraud, as we saw with a similar vast program managed by 
an overwhelmed agency, the INS, in the amnesty in 1986, which 
gave legal status to Mahmud Abouhalima, an illegal alien in New 
York who applied for and got a green card, something the 
immigration service was not really able to vet and prevent 
because it was overwhelmed.
    And the result was not just Mr. Abouhalima but dozens of 
terrorists have used our overwhelmed immigration system to 
enter the country. Now, the existence of an illegal alien 
terrorist does not delegitimize immigration as such, but what 
it tells us is that our mechanism for controlling and screening 
immigration simply is not up to the job, and a guest worker 
program would, and I say this as a certainty, and please quote 
me, it is guaranteed to admit terrorists into the United States 
because of our administrative incapacity.
    I've gone over time. I will be happy to take questions.
    [The prepared statement of Mr. Krikorian follows:]

                  Prepared Statement of Mark Krikorian

    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to speak before you. Rather than discuss the many specific 
guestworker proposals that have been introduced in this Congress, I'd 
like to take this opportunity to examine some of the premises 
underlying guestworker programs in general. In other words, what things 
must be true in order for a guestworker program to be advisable? If 
those things are not true, then the adoption of a guestworker program 
would be a mistake.
    There are many premises or assumptions behind support for a 
guestworker program, but I will examine only three of the more 
important ones. I will not examine the assumption that guestworkers 
will actually return home; every example in human history has shown 
that to be false, because there is nothing more permanent than a 
temporary worker. It is perhaps for that reason that none of the 
guestworker programs before Congress even pretends to be a temporary 
worker program; instead, all of them provide for permanent immigration.
    The assumptions I will examine are three: 1) Immigration is an 
unstoppable force that we have to accommodate one way or another; 2) 
Foreign workers are essential because there is work that simply cannot 
be done without them; and 3) The federal government has the capacity to 
manage a guestworker program properly.

                       IS IMMIGRATION INEVITABLE?

    The bedrock assumption underlying the debate of the last several 
years over guestworker programs is that the flow of workers from Mexico 
and elsewhere is unstoppable--a natural phenomenon like the weather or 
the tides, which we are powerless to stop. Therefore, it is said, 
managing the flow in an orderly and lawful manner is preferable to the 
alternative. As one observer recently said, ``The mission to Mars is 
probably easier than the attempt to control the border.''
    On the surface, the flow of Mexican immigration, in particular, may 
indeed seem inevitable; it is very large, rapidly growing, and 
spreading throughout the country. But a longer view shows that this 
flow has been created in large part by government policies, both in the 
United States and Mexico. And, government policy having created the 
migration flows, government policy can interrupt the flows, though a 
social phenomenon like this is naturally more difficult to stop than to 
start.
    Migration is often discussed in terms of pushes and pulls--poverty, 
corruption, oppression, and general societal dysfunction impel people 
to leave their homelands, while liberty, high wages, and expanded 
economic and social opportunities attract people to this country. While 
true, this analysis is incomplete because it overlooks the connection 
between the sending country and the receiving country.
    No one wakes up in Timbuktu and says, ``Today I will move to 
Buffalo!''--migration takes place by way of networks of relatives, 
friends, acquaintances, and fellow countrymen, and few people immigrate 
to a place where these connections are absent. Consider two countries 
on the other side of the planet--the Philippines and Indonesia. Both 
have large, poor populations, they are neighbors and share many 
cultural similarities, yet there are more than one million Filipino 
immigrants in the United States and only a handful of Indonesians, and 
annual immigration from the Philippines is routinely 40-50 times 
greater than immigration from Indonesia. Why? Because the ties between 
the United States and the Philippines are numerous and deep, our having 
colonized the country for 50 years and maintained an extensive military 
presence there for another 50 years. On the other hand, the United 
States has very few ties to Indonesia, whose people tend to migrate to 
the Netherlands, its former colonial ruler.
    At the end of the Mexican War in 1848, there were only a small 
number of Mexican colonists living in the Southwest, many of whom soon 
returned to Mexico with the Mexican government's assistance. The 
migration of Mexican workers began in a small way with the construction 
of the railroads beginning in the 1870s and later with the expansion of 
other industries. But the process of mass migration northward to the 
United States, and the development of the networks which made further 
immigration possible, began in earnest during the Mexican Revolution of 
1910-1920. The Cristero rebellion of the late 1920s was the last major 
armed conflict in Mexico and was centered in the states of west-central 
Mexico; partly to prevent further trouble, the newly consolidated 
Mexican regime adopted a policy of encouraging emigration from these 
very states. The power of government-fostered migration networks is 
clear from the fact that even today these same states account for a 
disproportionate share of Mexican immigrants to the United States.
    On the U.S. side, federal policies that established migration 
networks between the United States and Mexico arguably began in the 
1920s, when Congress specifically excluded the Western Hemisphere from 
the newly enacted immigration caps so as not to limit the flow of 
Mexican immigrants. Then in 1942, the Bracero Program to import Mexican 
farmworkers was started under the cover of World War II, and it 
continued until 1964. About 4.6 million contracts were issued to 
Mexican workers (many were repeat contracts for workers who returned 
several times, so that an estimated one to two million individuals 
participated). By creating vast new networks connecting the United 
States and Mexico, the Bracero Program launched the mass illegal 
immigration we are still experiencing today. Illegal immigration 
networks were reinforced by the IRCA amnesty of 1986, which granted 
legal status to nearly three million illegal aliens, at least two-
thirds of whom were Mexican. This new legal status conferred by the 
federal government generated even more immigration, legal and illegal, 
as confirmed by a 2000 INS report. And the federal government's 
effective abandonment of the ban on hiring illegal aliens has served to 
further promote immigration from Mexico.
    As a result of this series of government decisions, the flow of 
Mexican immigration to the United States is quite large. The totlal 
Mexican immigrant population (legal and illegal) ballooned from less 
than 800,000 in 1970 to nearly eight million in 2000, and is around 10 
million today, most having arrived since 1990. This rapid growth has 
created a snowball effect through the reinforcement of old networks and 
the establishment of new ones. If present trends continue, within a few 
years Mexico will have sent more immigrants to the United States in 100 
years than Germany (currently the leading historical source of 
immigrants) has in more than 200 years.
    So, far from being an inevitable process with deep historical 
roots, mass immigration from Mexico is a relatively recent phenomenon 
created by government policies. This is even more true for other 
sources of immigration to the United States, such as Cuba, India, 
Central America, Russia, Vietnam, and elsewhere.
    Even though the federal government is responsible for creating the 
illegal immigration wave, perhaps the toothpaste is out of the tube, 
perhaps it is too late to do anything about it now. There is no 
question that interrupting migration networks is harder than creating 
them. It is not, however, impossible--after all, the trans-Atlantic 
immigration networks from the turn of the last century were 
successfully interrupted, and atrophied completely. And, to move beyond 
theory, the few times we actually tried to enforce the immigration law, 
it has worked--until we gave up for political reasons.
    During the first several years after the passage of the IRCA, 
illegal crossings from Mexico fell precipitously, as prospective 
illegals waited to see if we were serious. Apprehensions of aliens by 
the Border Patrol--an imperfect measure but the only one available--
fell from more than 1.7 million in FY 1986 to under a million in 1989. 
But then the flow began to increase again as the deterrent effect of 
the hiring ban dissipated, when word got back that we were not serious 
about enforcement and that the system could be easily evaded through 
the use of inexpensive phony documents.
    After 9/11, the immigration authorities conducted a ``Special 
Registration'' program for visitors from Islamic countries. The 
affected nation with the largest illegal-alien population was Pakistan, 
with an estimated 26,000 illegals here in 2000. Once it became clear 
that the government was actually serious about enforcing the 
immigration law--at least with regard to Middle Easterners--Pakistani 
illegals started leaving in droves on their own. The Pakistani embassy 
estimated that more than 15,000 of its illegal aliens left the U.S., 
and the Washington Post reported last year the ``disquieting'' fact 
that in Brooklyn's Little Pakistan the mosque is one-third empty, 
business is down, there are fewer want ads in the local Urdu-language 
paper, and ``For Rent'' signs are sprouting everywhere.
    And in an inadvertent enforcement initiative, the Social Security 
Administration in 2002 sent out almost a million ``no-match'' letters 
to employers who filed W-2s with information that was inconsistent with 
SSA's records. The intention was to clear up misspellings, name 
changes, and other mistakes that had caused a large amount of money 
paid into the system to go uncredited. But, of course, most of the 
problem was caused by illegal aliens lying to their employers, and 
thousands of illegals quit or were fired when their lies were exposed. 
The effort was so successful at denying work to illegals that business 
and immigrant-rights groups organized to stop it and won a 90 percent 
reduction in the number of letters to be sent out.
    Immigration control is not a pipe dream, or achievable only with 
machine guns and land mines on the border. We need only the political 
will to uphold the law using ordinary law-enforcement tools, and to 
resist measures that make things worse, such as new guest-worker 
programs. Once the message gets out that it's no longer business as 
usual, the illegal population will shrink through attrition, reducing 
the problem over several years to a manageable nuisance rather than a 
crisis.

                        JOBS AMERICANS WON'T DO?

    A second premise of a guestworker program is that there are 
essential jobs Americans simply won't do, and foreigners, either as 
illegal aliens or as guestworkers, must be imported to do them.
    It is indeed likely that middle-class Americans would not be 
interested in most of the jobs held by Mexican immigrants, because they 
are generally low-paying jobs done by unskilled workers. However, it is 
also clear that there are millions of Americans who are already doing 
precisely these kinds of jobs. In March 2003, there were 8.8 million 
native-born adults without a high-school education who were employed, 
1.3 million native-born dropouts unemployed, and a further 6.8 million 
not even in the work force. There is a good deal of evidence that these 
Americans--nearly 17 million people--are in direct competition with 
Mexican immigrants--i.e., these are jobs that Americans will do and are 
doing already.
    With the exception of agricultural labor, Mexican-born workers and 
unskilled native-born workers have a similar distribution across 
occupations. Thus, natives who lack a high school education and Mexican 
immigrants appear to be doing the same kind of jobs and are therefore 
in competition with one another. Another way to think about whether 
Mexican immigrants compete with unskilled native-born workers is to 
look at their median wages. If Mexican immigrants were employed in jobs 
that offered a very different level of pay than native-born dropouts, 
then it would imply that the two groups do very different kinds of 
work. But, in fact, the median wage of Mexican immigrants and native-
born high school dropouts is very similar; the median weekly wage for 
native-born high school dropouts who work full time is $350, while the 
median weekly wage for full-time Mexican immigrants is $326. Like their 
distribution across occupations, the wages of the two groups seem to 
indicate that they hold similar jobs. Indeed, a 1995 report by the 
Bureau of Labor Statistics concluded that native-born and immigrant 
high school dropouts are almost perfect substitutes for one another in 
the labor market.
    The idea, then, that there are ``jobs Americans won't do'' is 
simply false. But what would be the result of reducing illegal 
immigration without replacing it with a guestworker program? In other 
words, what would happen if there were fewer of the people industry 
lobbyists have labeled ``essential workers''?
    Elementary economics gives us the answer. Employers would respond 
in two ways to a tighter labor market; first, they would raise wages, 
increase non-cash benefits, and change working conditions in order to 
recruit and retain a sufficient workforce. And second, they would look 
for ways of making their available workers more productive so as to 
make up for some of the jobs previously done by foreign labor. The 
result would be a smaller number of unskilled workers, each earning 
higher wages.
    As to the first part of the employer response: The employment 
prospects of the 17 million working-age native-born high-school 
dropouts mentioned above would improve dramatically. In fact, employers 
would begin to look more favorably upon any potential worker not 
currently in the mainstream of the economy--former welfare recipients, 
teenagers, young mothers looking for part-time work, the handicapped, 
ex-convicts, the elderly, et al. Adam Smith expressed it with an 18th-
century candor unlikely to be heard today: ``The scarcity of hands 
occasions a competition among masters, who bid against one another, in 
order to get workmen, and thus voluntarily break through the natural 
combination of masters not to raise wages.''
    There would clearly appear to be a need for this first part of the 
employer response. The inflation-adjusted wages of full-time workers 
with less than a high school education actually declined more than 7 
percent during the booming 1990s. The drop in wages was even more 
pronounced among the subset of the low-skilled workforce which would be 
most immediately affected by a guestworker program--farmworkers. 
According to a March 2000 report from the Department of Labor, the real 
wages of farmworkers fell from $6.89 per hour in 1989 to $6.18 per hour 
in 1998--a drop of more than 10 percent.
    Nor would higher wages for the unskilled fuel inflation to any 
significant degree. Since all unskilled labor--from Americans and 
foreigners, in all industries--accounts for such a small part of our 
economy, perhaps four percent of GDP, we can tighten the labor market 
without any fear of sparking meaningful inflation. Agricultural 
economist Philip Martin has pointed out that labor accounts for only 
about ten percent of the retail price of a head of lettuce, for 
instance, so even doubling the wages of pickers would have little 
noticeable effect on consumers.
    So the first part of the employer response to a tighter labor 
market would be that the poor would see their wages increase due to the 
natural workings of the free market. The second part of the employer 
response would be to find ways of doing the same work as before with 
fewer workers, thus making each worker more productive. Again, this is 
elementary economics. In a sense, a reduction in illegal immigration 
(absent a guestworker program) would serve as the free-market 
equivalent of increasing the minimum wage through legislative fiat. 
And, as the Cato Institute has written, ``higher minimum wages go hand-
in-hand with substantial declines in the employment of low-productivity 
workers.'' Unlike minimum wage laws, however, which may price low-
productivity American workers out of the market, tighter immigration 
laws would simply eliminate the unnecessary jobs that we are now 
importing foreign workers to fill.
    Conversely, instituting a guestworker program would lower wages, 
increase the employment of low-productivity workers (whom we would 
import), and thus slow the process of technological innovation and 
increased productivity. A 2001 report by the Federal Reserve Bank of 
Boston highlights this problem by warning that a new wave of low-
skilled immigrants over the course of this century may slow growth in 
U.S. productivity.
    That this is so should not be a surprise. Julian Simon, in his 1981 
classic, The Ultimate Resource, wrote about how scarcity leads to 
innovation:

        It is all-important to recognize that discoveries of improved 
        methods and of substitute products are not just luck. They 
        happen in response to scarcity--a rise in cost. Even after a 
        discovery is made, there is a good chance that it will not be 
        put into operation until there is need for it due to rising 
        cost. This point is important: Scarcity and technological 
        advance are not two unrelated competitors in a Malthusian race; 
        rather, each influences the other.

    This is true not only for copper or oil, but also for labor; as 
wages have risen over time, innovators have devised ways of 
substituting capital for labor, increasing productivity to the benefit 
of all.
    For instance, the period from 1960 to 1975 (roughly from the end of 
the Bracero Program to the beginning of today's mass illegal 
immigration) saw considerable mechanization in agriculture. Despite 
claims by California farmers that ``the use of braceros is absolutely 
essential to the survival of the tomato industry,'' the end of the 
program created the incentives that caused a quintupling of production 
for tomatoes grown for processing, an 89 percent drop in demand for 
harvest labor, and a fall in real prices.
    But a continuing increase in the acreage and number of crops 
harvested mechanically did not materialize as expected, in large part 
because the supply of workers was artificially large (and thus wages 
artificially low) due to growing illegal immigration--the functional 
equivalent of a guestworker program.
    An example of a productivity improvement that ``will not be put 
into operation until there is need for it due to rising cost,'' as 
Simon said, is in raisin harvesting. The production of raisins in 
California's Central Valley is one of the most labor-intensive 
activities in North America. Conventional methods require bunches of 
grapes to be cut by hand, manually placed in a tray for drying, 
manually turned, manually collected.
    But starting in the 1950s in Australia (where there was no large 
supply of foreign farm labor), farmers were compelled by circumstances 
to develop a laborsaving method called ``dried-on-the-vine'' 
production. This involves growing the grapevines on trellises, then, 
when the grapes are ready, cutting the base of the vine instead of 
cutting each bunch of grapes individually. This new method radically 
reduces labor demand at harvest time and increases yield per acre by up 
to 200 percent. But this high-productivity, innovative method of 
production has spread very slowly in the United States because the mass 
availability of foreign workers has served as a disincentive to farmers 
to make the necessary capital investment.
    And, despite the protestations of employers, a tight low-skilled 
labor market can spur modernization even in the service sector: 
automated switches have replaced most telephone operators, continuous-
batch washing machines reduce labor demand for hotels, and ``fast-
casual'' restaurants need much less staff than full-service ones. 
Unlikely as it might seem, many veterans' hospitals are now using 
mobile robots to ferry medicines from their pharmacies to various 
nurse's stations, eliminating the need for a worker to perform that 
task. And devices like automatic vacuum cleaners, lawn mowers, and pool 
cleaners are increasingly available to consumers. Keeping down low-
skilled labor costs through a guestworker program would stifle this 
ongoing modernization process.

                       ADMINISTRATIVE FEASIBILITY

    In any large government program, plans on paper must translate into 
policies on the ground. Any guestworker program would require extensive 
background checks of prospective workers as well as simple management 
of the program--checking arrivals, tracking whether a worker is still 
employed, enforcing the departure of those who are supposed to leave. 
Supporters of guestworker programs seldom address this question but 
assume implicitly that the government has the administrative capacity 
to carry out whatever plans they can devise.
    But it is not explained how the immigration bureaus within the 
Department of Homeland Security are supposed to be able to accomplish 
these goals. The service and enforcement bureaus are already groaning 
under enormous workloads. The General Accounting Office reported 
recently that the backlog of pending immigration applications of 
various kinds was at 6.2 million at the end of FY 2003, up 59 percent 
from the beginning of FY 2001.
    What's more, the immigration bureaus are implementing vast new 
tracking systems for foreign students and visitors. The crush of work 
has been so severe, that many important deadlines established by 
Congress have already been missed.
    And the context for all this is a newly created Department of 
Homeland Security, which incorporates pieces of the old Immigration and 
Naturalization Service and many other agencies in various combinations. 
The reorganization process is still very new (the department having 
coalesced only in March 2003), and it is extremely unlikely that any 
new guestworker program could be effectively managed in the midst of a 
thoroughgoing institutional overhaul.
    Another aspect of inadequate administrative capacity is in the 
Labor Department. Any guestworker plan that would actually be passed by 
Congress would inevitably contain some kind of nominal protections for 
American workers, though none exist in the current proposals. But such 
protections would mirror the current labor certification process, 
whereby certain categories of permanent and temporary visas have 
prevailing-wage and labor-market tests. The problem is that the Labor 
Department can't carry out these duties adequately now, let alone when 
millions of additional assignments a year are added to the heap. What's 
more, the very idea carries a whiff of the command economy about it; I 
mean no disrespect toward federal employees, but if it were possible 
for bureaucrats to determine prevailing wages and labor-market 
conditions in an accurate and timely fashion, then the Soviet Union 
would never have collapsed.
    The result of overloading administrative agencies with the vast and 
varied new responsibilities of a guestworker program would be massive 
fraud, as overworked bureaucrats start hurrying people through the 
system, usually with political encouragement. A January 2002 GAO report 
addressed the consequences of such administrative overload. It found 
that the crush of work has created an organizational culture in the 
immigration services bureau where ``staff are rewarded for the timely 
handling of petitions rather than for careful scrutiny of their 
merits.'' The pressure to move things through the system has led to 
``rampant'' and ``pervasive'' fraud, with one official estimating that 
20 to 30 percent of all applications involve fraud. The GAO concluded 
that ``the goal of providing immigration benefits in a timely manner to 
those who are legally entitled to them may conflict with the goal of 
preserving the integrity of the legal immigration system.''
    Although we are not discussing amnesty programs, the amnesty 
included in the Immigration Reform and Control Act (IRCA) of 1986 is a 
case study of how administrative overload leads to massive fraud. The 
part of the amnesty called the Special Agricultural Worker (SAW) 
program was especially outrageous in this regard. There were nearly 1.3 
million applications for the SAW amnesty--double the total number of 
foreign farm workers usually employed in the United States in any given 
year, and up to six times as many applicants as congressional sponsors 
of the scheme assured skeptics would apply. INS officials told The New 
York Times that the majority of applicants in certain offices were 
clearly fraudulent, but that they were approved anyway, since the INS 
didn't have the administrative wherewithal to prove the fraud. Some 
women came to interviews with long, painted nails, while others claimed 
to have picked strawberries off trees. One woman in New Jersey who 
owned a five-acre garden plot certified that more than 1,000 illegal 
aliens had worked on her land.
    Such fraud is a problem not just because it offends our 
sensibilities but because any large guestworker program would enable 
ineligible people to get legal status--people like Mahmud ``the Red'' 
Abouhalima, an Egyptian illegal-alien cabbie in New York, who got 
amnesty as a farmworker under the 1986 law and went on to help lead the 
first World Trade Center attack. Having an illegal-alien terrorist in 
your country is bad; having one with legal status, even as a temporary 
worker, is far worse, since he can work and travel freely, as 
Abouhalima did, going to Afghanistan to receive terrorist training only 
after he got amnesty.
    Nor can we assume that guestworkers from Mexico would necessarily 
be harmless, and therefore not need to be scrutinized closely. Iraqi-
born alien smuggler George Tajirian, for instance, pled guilty in 2001 
to forging an alliance with a Mexican immigration officer to smuggle 
Middle Eastern illegals into the United States via Mexico. And late 
last year the former Mexican consul in Beirut was arrested for her 
involvement in a similar enterprise. It is, therefore, certain--
certain--that terrorists would successfully sneak operatives into the 
United States by way of a guestworker program managed by our 
overwhelmed bureaucracy.
    To sum up: None of the commonly held assumptions underlying support 
for a guestworker program is valid. There may well be other reasons to 
support such a program--a desire by employers to force down the wages 
of their employees and prevent unionization, for instance, or a desire 
by immigrant-rights groups to increase the size of their ostensible 
constituencies. But none of the reasons usually presented by proponents 
is grounded in fact.

    Mr. Hostettler. Thank you very much.
    The chair now recognizes Dr. Morris for 5 minutes.

  STATEMENT OF FRANK MORRIS, CHAIRMAN OF THE BOARD, DIVERSITY 
               ALLIANCE FOR A SUSTAINABLE AMERICA

    Mr. Morris. Thank you, Mr. Chairman and Members of the 
Committee.
    The focus of my remarks are twofold. The first focus is the 
real plight of working Americans. I didn't mention it in my 
written testimony, but I would like to refer to David K. 
Shipler's Pulitzer Prize-winning book on The Working Poor. This 
and other books have really pointed out the tremendous factors 
that are impacting working poor already under current 
conditions, much less additional conditions.
    One of the assumptions which I make, and I think it's 
almost inevitable without debate, is that a guest worker 
program will bring additional low-wage, low-income, less-
educated workers--and as Congressman Smith and as others have 
noted, higher-educated workers into the United States. But I 
want to focus on the low income workers. I hope we will have 
another opportunity to talk about the impact on high-wage 
workers. But it is the low-wage workers that particularly I'm 
concerned about, because many African-Americans are 
disproportionately reflected in that.
    And it is these other kinds of factors which are working on 
the working poor that we should be concerned about including 
the increase in the supply of additional workers that will 
bring additional competition. One, of course, is the fact of 
our decline in our manufacturing jobs. We are well aware that 
our proportion of the work force employed in manufacturing has 
dropped from 30 percent in the sixties down to 11 percent now. 
But there are other workers, too, that I would hope we would be 
concerned about the working poor.
    One impact of welfare reform is that many single women have 
once again been moved into the work force. Current studies show 
that of the nearly 3 million women who left the welfare rolls, 
at any given time, only about 1.8 million of them or about 60 
percent have jobs on any given day. The rest are out there 
looking for jobs and in competition, increasingly difficult 
competition with other low-wage workers, and they don't need 
any more competition.
    One of the other kinds of workers that I would be concerned 
about is the fact of that we have released from prisons each 
year almost 600,000 people. A high proportion of these are 
African-Americans. These folks often get the opportunities for 
employment only when other sources are not available. And to 
increase the supply has tremendously difficult social costs 
that don't get factored into many kinds of considerations about 
increase in supply that will inevitably happen with guest 
workers.
    One of the things that also, I think we need to talk about; 
we don't often talk about it, is that one of the reasons why 
low-wage workers, and I associate my comments with Congressman 
King, too, low-wage workers, and particularly the working poor, 
are in difficulty is for the increasing preference of employers 
and not just--of all races, including immigrant employers, for 
workers other than, for instance, African-Americans.
    I have pointed to this as the last-hired, first-fired 
effect. I have mentioned it before, but now, we even have 
scholars such as William Julius Wilson of Harvard who has noted 
it. He noted in his analysis that when the black unemployment 
rate in Boston dropped to 7 percent during the boom, and when 
it went up, now, after the boom, it has been pretty clear, he 
says, that one of the reasons is the preference of employers 
for immigrants over African-American workers.
    In my statement, and you will see the evidence which I 
point out that shows that the high-immigrant categories of the 
work force have had tremendously negative effects and 
displacement effects for African-Americans, in janitorial work, 
in construction, in hospitality. These are serious displacement 
effects that economists are finally beginning to recognize. 
Although there is macro evidence of the preference for 
immigrants; one of the things that we see is the labor force 
participation data showing that for the first time, the rate of 
foreign-born participation tops local participation by 79, 
almost 80 percent to 73.4 percent.
    One of the other things we see is that during the last 
recession, we see that from 2000 on, when we had a net increase 
in foreign born adults holding jobs, they grew by 1.7 million, 
while we saw the number of native workers, American workers, 
dropping by 800,000. This is tangible kinds of evidence that we 
shouldn't ignore. One of the things that I have also pointed 
out is an interesting study that's by the Community Service 
Society in New York about the plight of African-American 
workers in New York City.
    It looks not just at the unemployment figures but the ratio 
of those working to the total population and found devastating 
results. I found that about half the black men ages 16 to 64 in 
New York City held jobs, compared to 75 percent for white 
Americans, 65 percent for Hispanics. These are devastating 
kinds of figures that cries out that the situation not be made 
any worse.
    One of the other areas of contemporary issues for 
consideration, of course, is the public health issues. In the 
guest worker programs, who will be responsible for the public 
health costs of the guest workers? Our county hospitals in 
Dallas--Congressman Lee has left; same problem in Houston, 
L.A., many places are under tremendous strains from the costs 
of care that's not currently addressed. This can only make the 
situation worse.
    I can go on to point out, as I have in my paper, that in 
times when we're faced with tremendously high both current 
accounts and fiscal deficits, does it really make sense for 
guest workers who will be sending money home for remittances 
instead of spending that money in the United States to generate 
additional economic activity here, does it make sense? I think 
it doesn't.
    And so, without dealing with a specific proposal, at this 
particular time, anything that will additionally increase the 
competition and the supply of already vulnerable workers should 
be carefully considered and I hope not enacted at this time. 
The working poor in America do not need an additional supply or 
anything that will increase the supply of those who will bring 
in further competition.
    [The prepared statement of Mr. Morris follows:]

               Prepared Statement of Frank L. Morris, Sr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Thank you, Dr. Morris.
    The Chair now recognizes Mr. Beck for 5 minutes for his 
statement.

STATEMENT OF ROY BECK, EXECUTIVE DIRECTOR, NUMBERSUSA EDUCATION 
                    AND RESEARCH FOUNDATION

    Mr. Beck. We thank the Chairman for this hearing and for 
placing such focus on the American worker.
    As we heard from the opening statements, it makes a lot of 
difference what paradigm you're looking at this issue in. But I 
think this is the most important paradigm. There are three 
large groups of Americans and noncitizen immigrants who deserve 
your top priority attention when dealing with all immigration 
proposals and all current immigration policies.
    The first group: Nearly 15 million American workers who 
would like full-time jobs cannot find one. The second group: 
Millions more Americans who once were part of the work force 
have given up and dropped out entirely. As is often the case, 
the worst damage can be seen among African-American men. The 
Washington Post recently released, really, a shocking statistic 
that 40 percent of all African-American men throughout the 
United States do not have a job. Forty percent do not have a 
job. There is a huge untapped work force among Americans of all 
races and ethnicities who no longer look for jobs but who need 
jobs. The third group: Still more millions of Americans who 
have full time jobs live in or near poverty, the working poor. 
Most of them are in occupations that once paid at least lower 
middle class incomes with benefits, but these are what I call 
collapsed occupations.
    My written testimony refers to several case studies of 
occupational collapse over the last few decades and the role of 
foreign workers in those collapses. And it reports the work of 
distinguished economic historians who find that the effect of 
flooding occupations with foreign workers recently has been 
similar to every time we ran high immigration in the past.
    Over the last 30 years of massive increases in legal and 
illegal foreign workers, the occupations where those workers 
have settled have seen wages plummet, benefits disappear and 
working conditions deteriorate. Many of the pressing social 
problems that Congress is tackling right now are directly 
related to the collapse of whole occupations into subsistence 
or poverty-level jobs. Americans are not nearly so much in need 
of more Federal programs and assistance as they are in need of 
higher wages that would allow them to raise families in 
dignity.
    The economic laws of supply and demand as well as our 
economic history indicate that adopting a program for hundreds 
of thousands of more guest workers a year would almost 
guarantee falling wages, even with stringent safeguards 
attached. Most guest worker proposals would open up every 
occupation up and down the economic ladder. Nearly every 
American would have to compete with every worker in the world.
    Now, this is a world that has 4.6 billion people who are in 
countries with incomes that are below those in Mexico. Most of 
the proposals only require that jobs be advertised at a minimum 
wage. A group of businesses and others fighting for more lower-
educated foreign workers calls itself the Essential Workers 
Coalition. And they note that the work performed by lower-
educated workers is essential to the U.S. economy and to the 
comfort of most Americans. I agree. These are essential 
workers, essential jobs.
    But why fill these jobs with foreign workers? Alan 
Greenspan said last month America has an oversupply of low-
skilled, lower-educated workers. Official unemployment rates 
for Americans without a high school diploma are nearly twice 
that as for other Americans, and that doesn't include all of 
the Americans who have dropped out of the work force. 
Unfortunately, a new study has found that our school systems 
are pouring more and more high school dropouts into the work 
force. About half of all Hispanic, Black and Native American 
high school freshmen do not finish high school, do not 
graduate, do not get a diploma.
    They are the Americans who must compete the most directly 
with the next imported foreign work force. The country is awash 
in lower-educated American workers who have no jobs. While we 
may lament that so many American workers are so poorly 
educated, it hardly seems fitting for Congress to punish those 
American workers by giving away their jobs or by depressing 
their wages. The dirty little secret of our society over the 
last decades is that many of these jobs have deteriorated so 
far in wages, benefits and standards that many jobless 
Americans will not take them any more.
    As long as the Federal Government allows the importation 
and the illegal migration of almost 2 million foreign workers a 
year from countries that pay less than 10 percent of our wages, 
essential jobs that do not require much education will be 
priced at levels below lives of dignity. Adding more foreign 
workers by greatly expanding our present guest worker programs 
will ensure that those essential jobs never pay an American 
wage or offer American working conditions.
    In a free market without massive foreign labor flows, 
essential jobs that are really tough to do and hard to fill 
would pay fairly high wages. I was pleased to hear about the 
wages in the dairies in Utah, but that is an anomaly for low-
educated workers.
    But in our economy, the harder the work, the less you get 
paid, in general. In our economy, the more essential your low-
skilled job may be, the less likely you will be paid wages that 
allow you to raise your family in dignity. It doesn't have to 
be that way. And I'll finish by just noting that the economist 
Harry T. Oshima has described a virtuous circle. We know in 
economics there's the vicious cycle. He's talking about the 
economic--a virtuous circle that has driven our middle class 
economy.
    And he notes that when immigration was drastically reduced 
during World War I and then later after 1924, this virtuous 
circle went to work. It caused employers, with a tighter labor 
market, to increase the wages. And because they had to increase 
the wages, they had to make major advances in mechanization. In 
that situation, the resulting technological applications of 
gasoline and electric machines made it possible to mechanize 
enough unskilled operations and handwork to release many 
workers into skilled jobs. Parents realized that they needed to 
educate their kids for those skilled jobs that were paying 
better.
    Because of the demand for skilled workers, in the end, 
productivity was increased; wages went up, and what happened in 
this cycle of productivity and wage gains, each feeding on the 
other, the United States became a middle-class nation. That was 
the nation that I happened to be born in as a baby boomer in 
the forties, fifties, sixties. We were a fully--almost a 
fully--middle class society. We have been moving backwards ever 
since we began flooding the labor markets with foreign workers.
    We could do the virtuous circle again. We have stopped--the 
importation of foreign workers has stopped the economic 
virtuous circle. We could do it again if we would trust the 
free market and trust our own workers.
    Thank you.
    [The prepared statement of Mr. Beck follows:]

                     Prepared Statement of Roy Beck

    Perhaps the first and most important question to ask about any 
proposed large-scale foreign guestworker program is what will be its 
effect on the nearly 15 million American workers who would like a full-
time job but cannot find one. \1\
---------------------------------------------------------------------------
    \1\ David Streitfeld, ``Jobless Counts Skip Millions,'' Los Angeles 
Times, 29 December 2003, A1.
---------------------------------------------------------------------------
    Just how much of a worker shortage can there be when so many 
Americans cannot find a full-time job?
    And the available pool of American workers is actually much larger 
than that 15 million figure which includes people who are actively 
looking or just recently gave up reporting to the unemployment office. 
Millions of other Americans who once were part of the workforce and who 
once were interested in remaining in it have dropped out of the labor 
force entirely.
    As is often the case, the worst damage can be seen among African-
American men. The Washington Post recently reported the astounding 
statistic that 40 percent of black men throughout America do not have a 
job. \2\ In New York City where the importation of foreign workers is 
at one of the highest rates in the nation, 50 percent of black men are 
no longer employed. \3\
---------------------------------------------------------------------------
    \2\ David Finkel, ``The Hard Road to A Paycheck,'' Washington Post, 
4 November 2003, A01.
    \3\ Michael Powell, ``In New York City, Fewer Find They Can Make 
It,'' Washington Post, 14 March 2004, A01.
---------------------------------------------------------------------------
    The competition from the expanded guestworker force would be 
fiercest with the lower-skilled and lower-educated jobless American 
workers. But let it be noted that most of the expanded guestworker 
proposals now before Congress would open every American occupation up 
and down the economic ladder to competition from the global labor 
force.
    Americans too qualified to do ``essential'' jobs?
    One of the arguments for importing more foreign workers even with 
such high numbers of Americans out of the job market is that the labor 
shortages are in very low-skilled and low-paid occupations and that 
most of the jobless Americans are simply overqualified for those jobs.
    But Alan Greenspan last month said America has an oversupply of 
low-skilled, low-educated workers. \4\ In fact the Bureau of Labor 
Statistics reports that the rolls of millions of unemployed Americans 
include a disproportionate number of workers who do not have a high 
school diploma. \5\ Official unemployment rates for Americans without a 
diploma are nearly twice as high as for other Americans.
---------------------------------------------------------------------------
    \4\ Nell Henderson, ``Greenspan Calls for Better-Educated 
Workforce,'' Washington Post, 21 February 2004, E01.
    \5\ Ibid.
---------------------------------------------------------------------------
    In other words, this country is awash in lower-educated American 
workers and no jobs. Yet, the primary purpose of these expanded 
guestworker proposals is to import low-educated, low-skilled foreign 
workers for jobs that require no more than low education and low 
skills.
    Now, those jobs are not unimportant. These are jobs essential to 
Americans' every day life. A group of businesses and others fighting 
for more foreign workers calls itself the ``Essential Workers 
Coalition.'' These ARE essential jobs. And it makes no sense to move 
our own essential American workers to the sideline while giving the 
jobs to foreign workers.
    While we may lament that so many American workers are poorly 
educated, it hardly seems fitting for Congress to punish those workers 
by giving away their jobs.
    Who would be most hurt by expanded guestworker programs for 
``essential'' jobs? We got a stark view late last month from a new 
report by the Urban Institute and the Civil Rights Project at Harvard 
University. Entitled ``Losing Our Future: How Minority Youth Are Being 
Left Behind by the Graduation Rate Crisis,'' the study concludes that 
barely half of the black, Hispanic and Native American youth who enter 
high school in this country earn a diploma. \6\ The rates for the three 
groups are nearly identical.
---------------------------------------------------------------------------
    \6\ Linda Perlstein, ``Report Disputes U.S. High School Graduation 
Rates,'' Washington Post, 26 February 2004, A03.
---------------------------------------------------------------------------
    That report lets us know of the colossal failure throughout our 
society in engaging and properly educating these youth. Much needs to 
be done. Much has been attempted. But while the education establishment 
tries to figure out how to deal with these incredible drop-out rates, 
millions of young adults who did drop out of high school in the past 
need an opportunity to earn a living. Unfortunately, jobs for which a 
high-school drop-out are suited are being earmarked by leaders of both 
political parties for foreign guestworkers eager to underbid the price 
of labor.
    Adding further to the incongruity of all this talk about the need 
for lower-educated guestworkers is the President's State of the Union 
call for assuring better job possibilities for inmates as they finish 
their prison sentences. The President said that some 600,000 inmates a 
year leave prison desperately needing a job to start a new kind of 
life. Most of them are qualified for the same kinds of ``essential'' 
jobs that all these pieces of guestworker legislation are designed to 
fill with foreign laborers.
   but will americans do jobs that are this hard and pay this little?
    For 13 years as an author on these issues, I have done scores of 
radio shows and have consistently been told by callers identifying 
themselves as business owners that these jobless, lower-educated 
American workers are too lazy, too soft and too demanding to take these 
``essential'' jobs. On NPR the other morning, I even heard a business 
owner say that his jobs were just too hard for Americans to do and paid 
too little.
    Of course, we all know that is the secret ingredient in why we have 
so many Americans unemployed and yet so much talk of job shortages. As 
long as the federal government allows the importation and the illegal 
migration of almost two million foreign workers a year from countries 
that pay less than a tenth of our wages, ``essential'' jobs that don't 
require much education will be priced at levels at which American 
workers cannot live in an American lifestyle and will be offered with 
benefits and working conditions also unacceptable to Americans.
    Greatly expanding our present guestworker programs will ensure that 
those ``essential'' jobs never pay an American wage or offer American 
working conditions. That's the way the free market operates.
    Alan Greenspan in his speech to the Greater Omaha Chamber of 
Commerce last month decried the inability of our lower-educated 
American workers to earn a dignified income. His solution was for great 
new investments to further educate them for better jobs. Members of 
this Congress responded in the news media by wondering where all that 
money was coming from. But a better question is this: If we supposedly 
have large numbers of ``essential'' jobs desperately needing workers to 
fill them and not requiring high education, why don't we fill those 
jobs with our own lower-educated workers?
    And if these jobs are so ``essential'' and so tough to do, 
shouldn't the market be forced to raise wages to a level that can 
attract American workers to fill them? Why shouldn't workers doing jobs 
that are ``essential'' to our economy and to our comfort be paid wages 
that allow them to raise their families in dignity? One answer is that 
many in this government do not want ``essential'' workers to earn 
middle-class wages. They are addicted to an economy that depends on 
poorly paid workers who must be subsidized by taxpayers.
    For 40 years, this government has systematically gutted lower-
middle-class occupations of their dignity, of their decent wages, of 
their safe working conditions and of their American benefits by 
flooding those occupations with foreign workers. We don't have to 
wonder what expanded guestworker programs would do to American workers; 
we have a lot of recent history to show us quite explicitly.
    Expanded foreign guestworkers programs would just add to the 
already long list of ``Occupation Collapses'' created by 40 years of 
radically increased mass immigration, illegal migration and guestworker 
programs.
 ``occupation collapse'' has long u.s. history tied to high immigration
    ``Occupation Collapse'' has been one of the gravest blows and 
continuing threats to America's working class households over the last 
couple of decades.
    By ``Occupation Collapse,'' I mean the process of wages plummeting, 
benefits disappearing and working conditions deteriorating in whole 
occupations.
    The evidence of recent history and of 150 years of U.S. economic 
history suggests that the initiation of a large-scale foreign 
guestworker program would expand Occupation Collapse into as yet 
untouched localities and occupations--both unskilled and skilled--in 
our country.
    Many of the pressing social problems Congress is tackling recently 
are directly related to the collapse of whole occupations from middle-
class and lower-middle-class incomes, benefits and working conditions 
into near-poverty and below-poverty wages.
    Look at some of the issues the federal government is trying to 
resolve for large numbers of Americans: lack of health insurance, 
inadequate health care, over-crowded and substandard housing, poor 
education, neighborhoods torn by crime, overloaded jails and prisons. 
In every one of those problems, you will find a disproportionate 
population of households who are connected to collapsed occupations. 
These Americans simply can't earn enough money to afford the goods and 
services that make for a life of dignity.
    Why have these occupations collapsed? There have been many reasons. 
In some cases, the collapse has happened only regionally; in others, 
nationally. But one of the most common ingredients is the large-scale 
entry of foreign workers into those occupations--through the million 
legal immigrants a year, through nearly that many illegal aliens 
settling each year and through a few hundred thousand guest workers 
each year. These add up to numbers that are six to eight times higher 
traditional levels in this country.
    Americans are not nearly so much in need of more federal programs 
and assistance as they are in need of higher wages. Current high levels 
of legal and illegal immigration are a serious barrier to those higher 
wages. Adopting a program for hundreds of thousands or more 
guestworkers a year would almost guarantee falling wages, even with 
stringent safeguards attached.
    To imagine what would happen to American jobs and workers under a 
new, greatly enlarged guestworker program, we can start by looking at 
what the great increase in foreign workers over the last couple of 
decades has already done. The primary effect of all forms of adding 
foreign workers to the domestic labor market has been to distort the 
way the free market sets the value of labor by legislatively increasing 
supply.

         EXAMPLES OF OCCUPATIONAL COLLAPSE UNDER THE WEIGHT OF 
                      HEAVY FOREIGN-WORKER INFLUX

    By the 1970s, menial jobs such as janitorial work had become 
middle-class occupations in many cities. The overwhelming majority of 
American workers of all kinds were able to live at least modest middle-
class lives. That was before the advent of our new governmental ethic 
that some jobs are just too low-class to deserve decent wages.
    Cleaning office buildings was an essential task in this economy, 
and the economy rewarded many of those who did the task with livable 
wages and dignified working conditions. But a GAO study found that as 
federal policies allowed tens of thousands of foreign workers to enter 
those cities, their presence in the janitorial occupations led to a 
collapse of wages, benefits and working conditions. \7\
---------------------------------------------------------------------------
    \7\ Government Accounting Office, Illegal Aliens: Influence of 
Illegal Workers on Wages and Working Conditions of Legal Workers 
(Washington, D.C.: U.S. Government Accounting Office, March 1988).
---------------------------------------------------------------------------
    An especially dramatic example can be found in Miami where 
occupations began to collapse earlier due to earlier mass flows of 
foreign workers into the job market. Sociologists Guillermo Grenier and 
Alex Stepick found that before the 1970s, construction workers earned 
middle-class wages with middle-class benefits and lived middle-class 
lives. But the influx of foreign workers led to a series of changes 
that collapsed a large number of the construction jobs into little more 
than minimum-wage labor with few employee protections that had 
previously existed. \8\
---------------------------------------------------------------------------
    \8\ Alex Stepick and Guillermo Grenier, ``Brothers in Wood,'' in 
Newcomers in the Workplace: Immigrants and the Restructuring of the 
U.S. Economy, Louise Lamphere, Alex Stepick, and Guillermo Grenier, 
eds. (Philadelphia: Temple University Press, 1994), pp. 148-9, 161.
---------------------------------------------------------------------------
    By now, we can find construction occupational collapse in parts of 
nearly every state as foreign labor has swelled in local job markets.
    Perhaps nowhere is the role of foreign labor importation in 
collapsing an occupation more vivid than the meatpacking industry. 
Numerous studies have detailed how jobs in this industry by the 1970s 
were high-middle-class industrial jobs with great safety protections 
and benefits that allowed the employees to raise families on one 
income, take vacations and send children to college (many of whom came 
back to work in the plants because of the high income). \9\
---------------------------------------------------------------------------
    \9\ Roy Beck, ``Jobs Americans Will Do'' in The Case Against 
Immigration (New York/London: W. W. Norton & Co., 1996) 100-135.
---------------------------------------------------------------------------
    Today, after 25 years of pouring foreign workers into the 
occupation, nearly every journalist and politician commenting on these 
jobs calls them ``jobs that Americans won't do'' because the pay is so 
low that taxpayers have to provide public assistance to many of them, 
and the accident rate is among the worst in the nation.
    And in occupations that always were fairly poorly paid--such as 
poultry processing, farm labor, hotel and restaurant work--the influx 
of large numbers of foreign workers has generally driven real wages 
downward even further.
    One does not have to focus entirely on lower-skilled jobs to find 
Occupational Collapse. Under the combination of the dot.com bubble 
burst, overseas outsourcing and the presence of hundreds of thousands 
of foreign workers, the information-technology occupation is indeed in 
the middle of a collapse. Besides having an extraordinarily high 
unemployment rate, America's information-technology workers have seen 
their wages plummet, with large portions now working at two-thirds, 
one-half and even one-third their incomes a few years ago. Although 
their wages surely would have fallen some even without the various 
existing foreign guestworker programs, adding around a million foreign 
workers over the last four years severely worsened the supply-demand 
ratio in the occupation.

       HISTORICAL PRECEDENCE FOR FOREIGN WORKERS COLLAPSING WAGES

    In his presidential address to the American Economic Association in 
1955, Simon Kuznets laid out a theory about rising and falling income 
inequality in capitalist societies. Many economists since then have 
sought to quantify the factors that, in different countries and 
different decades, have depressed earnings for the lower working class 
while increasing the wealth of the affluent and skilled.
    One renowned economist who has spent a career exploring these 
issues is Jeffrey Williamson of Harvard. Delivering the Kuznets 
Memorial Lecture at Harvard, Prof. Willison showed how economic 
inequality in America was greatest from 1820 to 1860 and from the 1890s 
until World War I. Those periods coincided with the two greatest waves 
of immigration prior to the present unprecedented wave.
    According to Williamson, the occurrence of high immigration and 
high levels of economic inequality at the same time was not 
happenstance: immigration fosters income inequality. Despite having 
democratic institutions, abundant land, and a reputation as a 
workingman's country, America during those periods of nineteenth-
century immigration surges was a land of jarring inequality.
    The economist Peter H. Lindert has noted in his writing that 
American inequality has lessened when immigration was curtailed. When 
World War I abruptly cut off most immigration to the United States, the 
huge gap between rich and poor closed incredibly fast: ``Within three 
years' time, pay gaps dropped from historic heights to their lowest 
level since before the Civil War.'' \10\ But just as quickly, 
inequality grew as soon as mass immigration resumed after World War I, 
so that later in the 1920s, ``income looked as unequal as ever,'' 
Lindert said.
---------------------------------------------------------------------------
    \10\ Peter H. Lindert, Fertility and Scarcity in America 
(Princeton, N.J.: Princeton University Press, 1977), p. 233.
---------------------------------------------------------------------------
    Once Congress curtailed immigration in 1924, the middle class grew 
again and inequities receded to historic low levels by the early 1950s. 
America finally had become a paradise for the common workingman and 
woman.
    Lindert found it peculiar that America would have such a robust 
march toward middle-class equality during a period that included widely 
varying external events, such as the nation's deepest depression, a 
sudden wartime recovery and moderate postwar growth: ``This timing 
suggests that the explanation of this drop in inequality must go beyond 
any simple models that try to relate inequality to either the upswing 
or the downswing of the business cycle.'' \11\
---------------------------------------------------------------------------
    \11\ Ibid., p. 234.
---------------------------------------------------------------------------
    In the egalitarianism of the era after the 1924 curtailment of mass 
immigration, the economic bottom of society gained on the middle, and 
the middle gained on the top. The closing of the gap in wages had as 
much of an effect in enlarging the middle class as did all the transfer 
taxes and programs of President Franklin D. Roosevelt's governmental 
activism combined, according to Lindert and Williamson.
    Several factors caused the fluctuations in inequality during U.S. 
history. But the ``central role'' has been played by the change in 
labor supply, claims Lindert. The rise of powerful unions during that 
period also played an important role in moving larger and larger 
numbers of laborers into the middle class. But Lindert concluded that 
the unions were able to gain their power because low immigration and 
low population growth kept the size of the labor force smaller while 
the demand for labor remained high. Not surprisingly, unions have 
withered in workforce participation during the wave of mass immigration 
since 1965.
    Contrary to superficial thinking, a tightened labor pool that 
forces employers to pay more for scarce labor does not necessarily hurt 
business nor the economy. It can be a great stimulator of a country's 
creativity. The economist Harry T. Oshima has helpfully described the 
``virtuous circle'' that occurs in an economy that is far different 
from our own very loose labor market with surpluses of workers. \12\ He 
has particularly studied the mid-1910s and the mid-1920s when 
immigration was seriously restricted. He notes that during that time, 
employers were forced to raise wages. That induced the employers to 
press for major advances in mechanization. The resulting new 
technological applications of gasoline and electric machines made it 
possible to mechanize enough unskilled operations and hand work to 
release many workers into more skilled jobs. Growth in output per 
worker hour was phenomenal. That made it possible to raise wages still 
further. Because of the increasing demand for skilled workers, American 
parents realized they would need to spend more money to help each child 
gain a better education. This contributed to lower birth rates, and 
thus to slower labor-force growth, and thus to tighter labor markets, 
and thus to higher wages, which pushed manufacturers to push the skill 
levels of their workers up even further. In this cycle of productivity 
and wage gains--each feeding on the other--the United States became a 
middle-class nation!
---------------------------------------------------------------------------
    \12\ Harry To. Oshima, ``The Growth of U.S. Factor Productivity: 
The Significance of New Technologies in the Early Decades of the 
Twentieth Century,'' Journal of Economic History, vol. 44 (March 1984).
---------------------------------------------------------------------------
    What we have had for three decades in this nation is the opposite 
of that economic ``virtuous circle;'' we have had the ``vicious 
cycle.'' The availability of larger and larger numbers of foreign 
workers has led employers to substitute labor for capital development 
and innovation. A key example is the atrophy in our agricultural 
industry which relies on incredibly low-wage labor instead of 
continuing its once global leadership in innovation and technology.
    And, of course, the rising incomes of American workers during a 
``virtuous circle'' economy drives consumer purchasing and business 
success.

FUNDAMENTALLY CHANGING THE ECONOMIC AND SOCIAL STRUCTURE OF OUR SOCIETY

    At stake is whether the United States manages to remain a middle-
class culture or becomes what I would call a ``servant culture'' more 
on the line of Europe or even third world nations--a path we are 
currently traversing.
    Europe is a continent that long has had a servant class. When it 
began to find it difficult to keep its nationals in those poorly paid 
servile roles, it imported foreign workers to ``do the dirty work.''
    In the United States, however, we long have been a culture in which 
most people live middle-class lives. People may have servants but they 
are expected to pay them wages that allow for at least lower middle-
class conditions. If there was dirty work to do that the genteel didn't 
care to do, the folks who did the dirty work tended to get paid a 
decent wage for their trouble. Witness the meatpacking industry jobs in 
all their disgusting sights, sounds, smells and squishiness before our 
immigration policy collapsed the occupation. The people who did that 
work got some of the best semi-skilled manufacturing wages in the 
country.
    But most of these expanded guestworker proposals would guarantee 
that whole occupations would be considered ``foreigner work,'' always 
paid below American standards with below American benefits and below 
American working conditions. Those Americans whose wages are not pulled 
below middle-class by the presence of the guestworkers would be able to 
revel in status found in so many countries in the world of having their 
own peasant class.
    These massive guestworker programs are about assigning a certain 
portion of our economy to a new foreign peasant class. And 
inadvertently, they are about creating a much larger permanent 
underclass of American natives largely dependent upon taxpayers and 
ever-increasing government programs.

    Mr. Hostettler. Thank you, Mr. Beck.
    The Chair now recognizes Mr. Chishti for 5 minutes.

   STATEMENT OF MUZAFFAR CHISHTI, DIRECTOR, MIGRATION POLICY 
          INSTITUTE, NEW YORK UNIVERSITY SCHOOL OF LAW

    Mr. Chishti. Thank you, Mr. Chairman and other 
distinguished Members of the Committee. Thanks for the 
invitation to testify this morning on this extremely important 
issue.
    The President himself has opened an extremely important 
political space for us to have a serious discussion about 
immigration. The President was honest in admitting that our 
present immigration system is broken. It is a system where it 
is not legality but illegality that has become the norm. It is 
a system that has turned integrated labor markets into black 
markets. It is a system that rewards smugglers and producers of 
fraudulent documents. It is a system that forces people to 
cross borders at huge risks to their lives. It is a system that 
encourages exploitation of workers and some of the most 
vulnerable workers in our country. It's a system, clearly, we 
cannot be proud of.
    To fix this broken system, we need a comprehensive 
approach. And I believe there are at least three fundamental 
elements of the comprehensive approach: first, it must squarely 
address the present dilemma of the existing undocumented 
population in the United States; two, we must introduce a 
reasonably-tailored, highly-regulated labor migration program 
for future flows of workers to meet the labor needs of the 
country; and third, we must immensely and significantly improve 
the protections of both U.S. workers and foreign workers.
    Let me just take these one at a time. The existing 
undocumented population: as I think we all know, whatever the 
numbers are, they range from 8 to 12 million. This is a group 
of people that is now embedded in our economy and our society. 
They have deep roots from their family connections, and they 
are performing some of the most essential jobs in important 
sectors of our economy. It is simply not possible for us to 
round up this group of people without hugely disrupting our 
economy and without exacting huge prices in civil liberties 
which I think none of us are prepared for.
    We have got to be honest about it. We do not have the moral 
will, we don't have the political will, and we certainly don't 
have the resources to deport this bunch of people. So both 
policy and pragmatism dictate that we should legalize this 
population. And if the goal is to clean the slate here and make 
these people fully integrated in our society, then, the 
emphasis should be on full and maximum compliance. The only way 
to guarantee full compliance is to give these people the best 
incentive, which is to give them permanent residence at the end 
of the road.
    We do not have to do this in one step, Mr. Chairman. We can 
devise a couple of steps for this process of legalization, and 
there are many bills that have now been introduced that offer 
models to go in this direction.
    For the future flows, I think for the first time, many 
people in this country are willing to look at temporary worker 
programs as a route to do that. We know that temporary worker 
programs in this country have a huge legacy of abuse and 
exploitation. But just because they have a history of abuse and 
exploitation in the past does not mean that there is not scope 
for a reformed temporary worker program. To me, the essential 
elements of a reformed temporary probably, number one is that 
workers should be able to move from one employer to the other. 
They cannot be tied to an employer. That is an extremely 
unequal relationship.
    Two, they must have access to our court system, and they 
must be able to bring private causes of action against 
employers who abuse them. Third, they must at some point have 
the access to turn their temporary residence to permanent 
residence. And for those who want to return to their countries 
of origin, we must provide them incentives to do that.
    A new approach to future flows through a temporary worker 
program must begin with one fundamental assumption: that U.S. 
workers come first. No temporary worker should be allowed to 
come to the U.S. at the expense of a U.S. worker's job or by 
undermining U.S. wages and working conditions. Therefore, some 
important protections for U.S. workers have to be included in a 
temporary worker program. For me, that's numerical limitations. 
I do not think we can have an unlimited program. Numbers are 
important.
    Second is that we should carve out occupations and regions 
of the country where we have demonstrated labor shortages, and 
those are the occupations and locations alone where guest 
workers should be allowed to come. We should have labor market 
tests. This is one of the most difficult public policy issues 
we have faced. The current labor market test does not work very 
well, but I think we can have better labor market tests in 
which employer groups, unions, independent analysts can help us 
gauge areas and pockets of economy where there is shortage.
    Foreign workers must have the same protections of our labor 
laws and remedies as U.S. workers have. And finally, they must 
be paid at least the prevailing wage, and employers who 
systematically abuse that system should not be allowed to get 
foreign temporary workers in the future. And last element on 
this, we must immensely increase the funding for enforcement 
agencies of our Government, because without that, we will not 
be able to have an effective program.
    Mr. Chairman, you have a huge opportunity to write the next 
chapter of immigration history in our country. Our President 
has provided us an outline. I suggest that as you fill in those 
outlines, you fill it with the strong acknowledgement that 
immigrants have been hugely important to our history, and they 
will be important to our future, and we will do it with a sense 
of optimism and not pessimism.
    Thank you.
    [The prepared statement of Mr. Chishti follows:]

               Prepared Statement of Muzaffar A. Chishti

    Mr. Chairman, Congresswoman Jackson Lee, and other distinguished 
members of the sub-committee.
    My name is Muzaffar Chishti, and I direct the Migrations Policy 
Institute's office at New York University School of Law.
    One must assume that the backdrop of today's oversight hearing is a 
proposal for a temporary worker (``guest worker'') program that 
President Bush announced on January 7th of this year. The President's 
high profile and well orchestrated announcement has generated 
considerable controversy. It has been attacked from both sides of the 
political spectrum for doing ``too much'' or ``too little''. The timing 
of the President's announcement may have had something to do with the 
electoral considerations of this year. But the reaction to his 
proposal, once again, establishes that immigration reform--complex in 
any season--is intensely contentious in an election year. The 
President, it seems, did not need any help from the members of his 
opposing party to abandon any attempts at legislation this year to 
pursue his proposal; influential voices within his own party have 
offered strong opposition.
    Whatever the President's motivations, credit must be given where it 
is due. The need for a fundamental revision and reform of our 
immigration policy has been evident for close to two decades. However, 
the prospect for such a reform has been elusive. Political events and 
calculations of the 1990s left little appetite for any immigration 
reform legislation. A slow momentum toward a fresh engagement of the 
debate was brought to a halt by the tragic events of September 11th. 
Immigration reform certainly became one of the casualties of the 
terrorist attacks.
    The President's announcement of January 7th, is ,thus, a bold move 
at creating a new political space for a serious deliberation of 
immigration reform. He has put the subject--complex, divisive, and 
emotionally charged as it is--at the center stage of our political 
discourse. For that he deserves due credit.
    Important as the President's proposal is, it is sketchy on details. 
Some would say that it is deliberately vague. It is incomplete, and 
many aspects of it are problematic. But simply opening the door for 
reform creates a big opportunity for Congress--and all of us interested 
in the future of our country--to craft the details of a legislative 
framework that does justice to the importance of the challenge of true 
immigration reform. Perhaps it is for the best that no legislation can 
be enacted in the heat of an election. That gives us time to be 
thoughtful and responsible.
    A thoughtful and responsible reform package must accomplish a few 
things: a) it must address the dilemma of the existing immigrant 
population in our country; b) it must regulate future flows of 
immigrants consistent with our labor market needs and economic 
interests in an increasingly inter-dependent world: and c) it must 
advance the protection of both U.S. and foreign workers. And it must 
ultimately reflect the deeply engrained American value of fairness.

                UNDOCUMENTED WORKERS CURRENTLY IN THE US

    The outline of a true reform package must begin with the honest 
admission of the facts regarding the current undocumented population. 
No one knows for sure, but estimates of the undocumented population 
range from eight to twelve million. Even if we make the removal of this 
population the exclusive priority of our law enforcement agencies, it 
would take us years to deport them. It would cause massive dislocation 
to our economy, and exact unacceptable price in the loss of civil 
liberties. Simple honesty compels us to conclude that we do not have 
the moral will, the political will, and certainly not the resources to 
round up this size of a population for deportation. If we acknowledge 
this central reality, the responsible course of action is to offer the 
undocumented an opportunity to regularize their status. Many of them 
have become important participants in our society and economy. Many 
have spent years in our country, are parents of U.S. citizen children, 
are performing jobs that are essential to our economic productivity and 
lifestyle, are paying taxes, and building stable communities. Many have 
been unable to regularize their status because unconscionable 
bureaucratic backlogs would not allow their applications for 
immigration benefits to be processed. (There are currently 6.2 million 
un-adjudicated applications for various immigration benefits in DHS 
pipelines). It is simply unfair and unrealistic to ask these people to 
uproot themselves and return to their countries of origin. They must 
have the opportunity to earn permanent resident status. The President's 
proposal especially falls short with respect to this population. His 
proposal would offer them opportunity to enroll only as temporary 
workers, with no real prospects of permanent residence. A program that 
only offers temporary residence is unlikely to generate full 
participation. Maximum compliance should be the goal of any successful 
regularization program--especially a program that has the stated 
additional objective of responding to the post September 11th security 
imperatives.
    In addition, simple pragmatism argues against temporary status. We 
cannot expect people who have lived for years in the U.S. to return to 
their countries of origin after an interim lawful temporary period of 
three (or six) years. The tendency to revert back to undocumented 
status would be strong.
    As we design a mechanism for regularizing the existing undocumented 
population, we should learn from the lessons of the past: especially 
lessons from our 1986 legalization program. By introducing cutoff dates 
for eligibility that are further away from the dates of enactment, we 
only invite fraud. Proving long periods of residence inevitably gives 
rise to a cottage industry in fraudulent documents. Similarly, 
immediate members of the family of legalized population should also be 
extended the benefits of legalization. When families are apart, the 
impulse to unite illegally is strong and natural.
    The status of permanent residence need not be granted in one step. 
It is perfectly rational to make it a two-step process. In the first 
instance, the current undocumented population, by coming forward, would 
receive a conditional lawful status. They would then ``earn'' permanent 
resident status by meeting a combination of criteria: work, payment of 
taxes, civic participation, gaining English proficiency, and a ``good 
citizen'' crime-free behavior. Such a two-step process would lend both 
integrity and a special meaning to the process of legalization.
    Future Flows
    While there is a much broader consensus on the treatment of the 
current undocumented population, the policy toward future flows of 
immigrants has generated far more controversy and anxiety. Many 
proposals, including the President's, would rely on a temporary worker 
program to respond to these future flows. Opponents of a temporary 
worker program see it simply as a way to legitimize a pool of cheep 
exploitable workers for the benefit of organized employer groups. It is 
a difficult issue, which merits serious debate.
    To be fair, the skepticism about temporary worker programs is well 
founded. They come with a troubling legacy of abuse and exploitation by 
employers. From the infamous ``bracero'' program that ended in the 
1960s to the current H-2A temporary agricultural worker program, these 
programs have been stacked against real protections for foreign 
workers.
    But, the legacy of these programs must not foreclose the 
possibility of their reform. Historical positions must be reviewed in 
the context of present reality. There are a few central elements of 
this reality:

        <bullet>  The 1986 legalization program taught us important 
        lessons. Though the program provided a remedy for the 
        undocumented who were already in the country, it ignored the 
        fact that undocumented workers would continue to come to the 
        U.S. to meet the demands for their labor in various segments in 
        the labor market. In the absence of legal channels, the 
        undocumented population mushroomed, confronting us with a 
        problem that we face today. We must learn from the lessons of 
        the past.

        <bullet>  The absence of legal avenues for labor migration 
        often forces people into desperate and dangerous acts. In last 
        year alone, more then 400 people died trying to cross the US-
        Mexico border; the death toll since 1994 is over 2600. The 
        human toll of illegal border crossings cannot be ignored.

        <bullet>  The views of the undocumented workers deserve to be 
        heard. As they have frequently told credible researchers, they 
        would rather have the status of temporary, or ``guest workers'' 
        with some basic rights, than be undocumented with no rights and 
        live with constant fear.

        <bullet>  We must recognize that, given a choice, many foreign 
        workers may prefer to work in the U.S. for a short period of 
        time and then return to their home countries. We must not 
        assume that permanent residence in the U.S. is the only goal of 
        foreign workers. This is much more true in today's inter-
        connected world where people--even low wage workers--are 
        comfortable in living in more than one place.

                    PROTECTIONS FOR FOREIGN WORKERS

    There are good arguments for revisiting the historical (and 
principled) positions against the idea of temporary worker programs. 
But, on the other hand, endorsing a temporary worker program in 
principle today does not mean accepting elements that have discredited 
past programs. Indeed, if we make the philosophical shift and 
acknowledge that these programs can be an appropriate vehicle to 
regulate and manage future flows of labor migrants, we may have a 
unique opportunity to fundamentally reform temporary worker programs as 
we know them. The following would be the elements of a reformed 
temporary worker program:

        <bullet>  The foremost is the ability of workers to change 
        employers. Under most temporary worker programs, a foreign 
        worker is tied to his/her sponsoring employer, establishing an 
        inherently unequal relationship. This can be remedied by 
        allowing the worker to move to a comparable job with a 
        different employer without jeopardizing his/her visa status.

        <bullet>  Foreign workers must have full access to and 
        protection of our court system. Workers must be allowed to 
        bring private causes of action against employers for violations 
        of their contractual or statutory rights, and be entitled to 
        lawyers' fees. Under existing temporary worker programs, 
        workers' exclusive remedies are complaints to regulatory bodies 
        that lack adequate resources and appropriate remedies.

        <bullet>  Temporary workers must have the option, over time, to 
        earn permanent resident status in the US. Prescribed periods of 
        employment in the US maybe a requirement for attaining such 
        status. The option of permanent residence is also to 
        acknowledge the social phenomenon of migration: that workers 
        may have US born children, or develop other close family ties 
        in the US. For this population, the temporary workers status 
        thus becomes a path--or a transitional status--toward permanent 
        residence.

        <bullet>  However, permanent residence may not be the preferred 
        option for all temporary residents. Those who wish to return to 
        their countries should not be adversely affected--either in 
        their ability to move between the US and their countries of 
        origin, or in their eligibility to participate in temporary 
        worker programs in the future. In this regard, bi-lateral 
        arrangements like transfer of social security payments to the 
        workers' home countries (suggested in the President's proposal) 
        are worth exploring. Such arrangements remove the disincentive 
        for those workers who may want to return to their home 
        countries.

                         PROTECTING US WORKERS

    Important as the protections of foreign workers are, a reformed 
temporary worker program must ultimately protect US workers. Temporary 
worker programs must not be used to displace US workers or undermine 
the wages and working conditions of US workers. This is, unfortunately, 
easier said than done. There is a strong need for some fresh, new 
thinking on a number of interconnected issues: on gauging the labor 
markets needs of employers, on testing the labor market to identify 
qualified US workers, in devising an enforcement mechanism that 
provides real incentives to hire such qualified workers, and in 
designing an efficient process that allows employers to hire foreign 
workers when no US workers are available. It is universally conceded 
that the present system of the labor market test, i.e. the labor 
certification process, is too cumbersome, is ineffective in protecting 
the US interests of US workers, and does not meet the legitimate needs 
of employers seeking to hire foreign workers. However, as we move 
toward new and expanded temporary worker programs, the following are 
some ideas to consider as we develop a framework for protecting US 
workers.

        <bullet>  There must be numerical limits on the number of 
        temporary workers who are admitted to the US each year. These 
        numbers could vary depending on the state of the economy, and 
        the conditions of the labor market.

        <bullet>  Admission of temporary workers should be confined to 
        certain occupations, industries or to geographic locations 
        where there is a demonstrated shortage of US workers.

        <bullet>  Temporary workers must be paid at least a prevailing 
        wage. Prevailing wage should be determined by local standards 
        and where appropriate, by national standards. Where 
        appropriate, standard employee benefits should also be made 
        available to foreign workers.

        <bullet>  Temporary workers must be entitled to the same 
        workplace rights and remedies as US workers, including the 
        right to collective bargaining.

        <bullet>  Simple attestations of an employer (as envisaged in 
        the President's proposal) cannot be accepted as the test of the 
        labor market. A labor market test that merely relies on the 
        word of an employer lacks credibility. The labor condition 
        attestation (LCA) system contemplated in the President's 
        proposal is close to the existing attestation system for H-1B 
        applications. The present H-1B attestation system--which is 
        done online--only ascertains the completeness of an 
        application. There is no scope even for determining the 
        accuracy of information provided by an employer. The present 
        LCA system is too loose a mechanism on which to build a new and 
        enlarged program of temporary workers.

        <bullet>  If the individual labor certification process cannot 
        be streamlined, it is worth exploring certification of specific 
        occupations, sectors of the labor market or geographical areas 
        as open to admission of temporary foreign workers. Unions, 
        employer groups or independent experts (perhaps even jointly) 
        may have a role to play in such certification process. State 
        and local governments may, similarly, seek greater role in 
        determining access to labor markets by temporary workers in 
        their states.

        <bullet>  Certain occupations may lend themselves only to local 
        labor market tests, while for others, it may be more 
        appropriate to extend recruitment efforts regionally or even 
        nationally.

        <bullet>  Employers found guilty of violating any of the 
        provisions designed to protect foreign workers or US workers 
        should be precluded from access to temporary foreign workers in 
        the future.

    While these elements of a comprehensive immigration reform are 
being designed, there already are some legislative initiatives pending 
in Congress that deserve special attention. The AgJobs bill is the most 
significant of these because it addresses the special plight of 
agricultural workers. Agricultural workers are in a class by 
themselves. The importance of the AgJobs bill cannot be overstated. A 
compromise on an agricultural worker bill has eluded us for a long 
time. Finally, an unusual coalition of major growers' organizations, 
labor unions, and agricultural worker advocates, supported by an 
equally unusual bi-partisan cast of legislators has agreed on a 
legislative compromise that goes a long way to improving the status quo 
regarding agricultural workers. It deserves passage by this Congress.
    Even beyond the AgJobs bill, various legislative initiatives have 
introduced concepts that contain some important elements of what should 
form the basis for a comprehensive immigration reform. These include 
bills introduced by Senators Daschle and Hagel, by Senator McCain, and 
by Congresswoman Jackson Lee. We have a number of exceptionally good 
ideas on the table.
    The President has opened the door for a tough but necessary debate 
on immigration reform. We may not have legislation enacted this year. 
But there is no going back. It is our combined obligation to improve on 
the President's proposal and fill in the important and necessary 
details in his outline. As we fill in those details, we must 
acknowledge the unique importance of immigrants in our history and for 
our future. And we must reflect the sense of optimism that defines the 
spirit of our country. This committee has an extraordinary opportunity 
to do that.

    Mr. Hostettler. Thank you, Mr. Chishti.
    And I wanted to ask you the first question with regard to 
maybe clarification of your testimony in light of the context 
of the hearing. You suggest a guest worker program must be 
incentivized by legal permanent resident status. That is no 
longer a guest worker or temporary worker program, would you 
not admit?
    Mr. Chishti. Well, I'm making a distinction between 
existing population, which I think the only way to deal with 
the existing population is to give them permanent residence. I 
do not advocate a guest worker program for the existing 
population. I'm suggesting that for future flows, we should 
allow a program which will be mostly a guest worker program but 
which will have some provision for those people who have 
employers who can sponsor them for permanent jobs to be able to 
stay in the United States.
    Mr. Hostettler. Thank you; thank you.
    Mr. Krikorian most temporary workers that I am familiar 
with require that alien workers be paid the prevailing wage or 
higher in order to reduce the possibility that programs will 
negatively impact native-born American workers. What do you 
think would be the result of a mass guest worker program where 
the floor would actually be the minimum wage, given that 90 
percent of workers in service occupations currently make above 
the minimum wage? How many of these do you think would be at 
risk from a mass guest worker program?
    Mr. Krikorian. Well if, in fact, the Congress passed and 
the President signed legislation as the President outlined it, 
where the minimum wage was the only wage or labor market 
protection, all employment, every job in the United States, 
would be open to competition, and quite frankly, the Mexican 
illegal immigrant working in agriculture ought to be the first 
person concerned about the program, because he may be picking 
tomatoes for $8 an hour, but there are 100 million people in 
China willing to do it for $7.
    So at the low end, it potentially creates new jobs that 
Americans, jobs perhaps that Mexicans won't do is what they'll 
turn into. And so, only Bangladeshis or Chinese, for instance, 
may be imported, depending on how the dynamics work. But then, 
at the higher end of the labor market, likewise, occupations 
would be exposed. And the two that I think would be, as the 
economists say, colonized first, in other words, the two 
occupations that would become jobs Americans won't do would be 
nursing and teaching.
    I would be willing to bet within 5, at most 10, years, 
there would be only a handful of Americans still working in the 
nursing and teaching professions, because why bother with 
better pay, better benefits, continuing education 
opportunities, and all of that, when there are enormous pools 
of people from overseas who have English language abilities, 
from the Philippines, India, et cetera, who can do that work 
cheap, for minimum wage, conceivably?
    So the potential effects of what the President outlined are 
devastating.
    Mr. Hostettler. Thank you.
    Dr. Morris, a recent article, as I mentioned earlier, in 
the Boston Globe stated that the percentage of 16- to 19-year-
olds holding jobs in the U.S. is the lowest it has been since 
the Government first started tracking these statistics in 1948. 
Do you think that immigration policy has been a cause of this 
phenomenon? And how does this lack of teen employment affect 
especially inner-city communities?
    Mr. Morris. It has a devastating impact on inner-city 
communities. This was--I quoted William Julius Wilson, who has 
pointed out that one of the impacts of that has been the 
preference of some employers for immigrant labor certainly over 
not only teen labor but older labor of African-Americans.
    The immigration policy as a guest worker policy has the 
fact of bringing additional people who will, in fact, be in 
competition. Now, you say what's wrong with that? Shouldn't 
that be the free market? Well, this is sort of a distortion of 
the free market. The free market should permit folks to be able 
to gain maximum kind of benefit under existing conditions. When 
you increase, when you change those conditions radically, or 
it's changed by lack of control, that increases greatly the 
supply and reduces the bargaining power. Not only do you have 
wage depression, but for African-Americans, we have 
displacement, because there are preferences. Others are 
preferred over our labor supply.
    This is, I think, the most difficult and devastating 
impact.
    Mr. Hostettler. Thank you.
    Mr. Beck, you say in your testimony that Chairman Alan 
Greenspan of the Federal Reserve said that America has an 
oversupply of low-skilled labor. Could you elaborate on that? 
Could you give the context of his statement? That is pretty 
incredible.
    Mr. Beck. Well, I'm not a personal acquaintance, but the 
Washington Post reported his speech to the Omaha Chamber of 
Commerce last month, and he was lamenting the fact that we have 
so many lower-educated American workers who just can't make 
enough money. And he was talking about the need to provide more 
education to these workers so they could get jobs that paid 
more. My disagreement with that is that those are just the 
facts as he was stating them. My disagreement with the 
Chairman's analysis, though, is that although it would be great 
for those 17 million--I believe someone said 17 million 
American workers without high school diplomas--for them to get 
more education, and there are a lot of efforts to try to make 
that happen, but they aren't happening, it also would be great 
for those workers who are needed to be paid a living wage right 
now.
    The Chairman was acknowledging that the low-skilled, low-
educated jobs don't pay a living wage. And that is really the 
question, I think, before us is what kind of a society or 
economy do we want? Do we want to have sort of a peasant 
economy in which some jobs are just known as, ``this is foreign 
work, this is peasant work?'' Or do we want to go back to the 
forties, fifties, sixties, whenever most jobs were known as 
American jobs, middle class jobs?
    Mr. Hostettler. Thank you.
    The Chair now recognizes----
    Mr. Gallegly. Mr. Chairman, could I ask unanimous consent 
to place my opening statement into the record? I have another 
meeting and----
    Mr. Hostettler. Without objection.
    The Chair now recognizes the gentlelady from Texas, the 
Ranking Member, Ms. Jackson Lee, for a 5-minute opening 
statement and questions.
    Ms. Jackson Lee. I thank the gentleman very much.
    Let me first of all, to the panel, thank you for your 
presentation and to the Chairman and thank my Members, the 
Members of the Committee from the Democratic caucus for their 
presence here and just to indicate to them that my inability to 
be at the beginning of this hearing is in no way diminishing 
the crucialness of this hearing. As we speak, the 9/11 
proceedings are going on, and I was engaged very much in 
discussions dealing with the cause of 9/11 as well as the Iraq 
war and terrorism as a Member of the Homeland Security 
Committee and had the responsibility of managing legislation on 
the floor and as we speak, there is a meeting going on about 
the Haitian crisis. So please accept my apologies.
    Mr. Chairman, I am going to articulate partly my opening 
statement, but I would ask your permission that I have the 
entire statement be submitted into the record; I ask unanimous 
consent.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Let me offer a policy or a promotion or a 
pronouncement that I would hope that we could rid immigration 
policy of all of its partisan politics and just deal with 
common sense. Let me cite an example for you: I joined with 
then-Chairman Lamar Smith to try to write a common sense H-1B 
initiative, Mr. Morris, because I concede the fact that we must 
be concerned about employment.
    And in that legislation, we had laid out a defined job 
recruitment, training to recruit American workers and to insist 
that American workers would be utilized before we managed to 
take those high-paying technology jobs outside of our country. 
We were insistent on that. Let me just say that for lack of a 
nicer word, the bill was kidnapped, and as it went to the floor 
of the House, a lot of that very good language was taken out.
    So, I join you in trying to find better ways to address 
this question. But let me offer to some of you my underlying 
premise as relates to minority workers and as relates to 
American workers. Infused in the difficulty of finding 
employment is still the issue of racism and discrimination. And 
so, we can't hang on the hats of immigrants. Many of us have 
come to this country, whether we be black or white or brown or 
Asian, to look for better opportunities. And they have heard me 
say that many of us, Mr. Morris, that come from our heritage 
came here in a slave boat.
    But the point is that racism is very intimately involved in 
this. The other point that I would like to make is that I don't 
deny that porous borders, wherever they are, Europe, South 
America or the United States, have the possibility to allow in 
in this new climate, terrorists. But let me make it very clear: 
when you begin to randomly and recklessly suggest that 
immigration equates to terrorism, I'm going to take you on, 
because it does not equate to terrorism at all.
    So we need to get partisan politics, hysterical politics, 
out of this question dealing with immigration. Now, I take 
issue with the President's guest worker program for this 
reason, because I think it is unrealistic to think if you open 
the door and say jobs available, after 3 years, anybody is 
going to leave. Likewise, I think it's unrealistic that 8 to 14 
million that are here, and I think that Mr. Chishti is going 
to, at least in our last opportunity to deal with his position, 
it will take eons, years into infinity, to actually bus out, 
fly out, send out the 8 to 14 million that are already here.
    So let me try to raise some questions, as it's part of my 
opening statement, Mr. Chairman, that I am doing. First of all, 
let me say that I proudly--my mother and my grandmother and 
parents used to always chide me to make sure that I bring home 
those As. And I think I stay pretty close to that challenge. 
But I am proud to have an F grade in the pronouncement of the 
NumbersUSA Education and Research Foundation. I am sorry that I 
got a B and a C. That means I am really going up. But I 
basically got an F.
    And that's because I believe in common sense, Mr. Beck, in 
dealing with immigration. I'm not sure what this means about 
reducing illegal immigration, reducing chain migration, but let 
me tell you the legislation that I am offering, and I would 
offer you to respond to this: do I have an F because I believe 
in reunification of families under 245(i)? Do I have an F for 
that reason? Do I have an F because I believe a guest worker 
program has no sense whatsoever and that we should put people 
on the pathway to legalization, not terrorists, but individuals 
who have been in the country for 5 years, have no criminal 
background, can be familiar with the culture and get them on a 
list so that we know who is a terrorist and who is not?
    Do I get an F because there are students who were not born 
here who want a better life and therefore should be allowed to 
access our institutions? Do I get an F to try and address the 
question of the Haitians' equality to Cubans? Do I get an F to 
deal with Liberians? Do I get an F because I want to protect 
those children who have been here and age out while they have 
been waiting in line to access benefits, do I get an F?
    To Mr. Krikorian, would he join me in an amendment that 
would help to reduce the line of those who are in line legally 
to access legalization? We are spending all of this money on 
enforcement. We have a backlog of 6 million people, and would 
Mr. Krikorian support me in providing those resources so we can 
get those people who are legally engaged?
    Do I get an F for the legislation that I have just offered 
that has in there recruitment of American workers first and 
retaining American workers and training American workers so 
that we are not opening the door and putting those who have 
come into this country first but realizing that they have come 
into this country for an opportunity?
    So, first of all, to Mr. Beck: you've talked about all of 
this illegal population, et cetera. My question to you is 
explain how you're going to work with a population of 
undocumented aliens, 14 million of them, how you're going to 
get them out of town, if you will, out of Dodge, without some 
common sense approach to dealing with these individuals.
    Mr. Chishti, would you likewise just repeat what you had 
said to me earlier, the enormity, if you will, of deporting 
people out of this country and the common sense way that we 
should be able to do that? And the question to Mr. Beck.
    Mr. Beck. Yes, thank you.
    I don't believe there probably is a common sense way to 
deport 14 million illegal aliens----
    Ms. Jackson Lee. We've got agreement, my friend.
    Mr. Beck. --out of the country this year. The answer is 
attrition; that is, the problem for our American workers is the 
presence of all of these people in their labor markets, and it 
is their labor markets. And what we do is first of all, we 
start doing some real enforcement; maybe double the 
deportation, which is not that much, and start to give people a 
sense that actually, if they do run into their police officers, 
they might get deported.
    Second, we do a force multiplier for our Government by 
mandating that the Federal Government always come to the aid of 
a local government that says we have this illegal worker 
population. Thirdly, we make the very wise decision that you 
all made last fall to expand the voluntary workplace 
verification system nationwide. We make that as soon as it is 
in place and shows that it works; that is, that it is not 
stopping people wrongly, we make that mandatory.
    Ms. Jackson Lee. Do you have a guesstimate of how long it 
will take to get to the 14 million and get them out by 
attrition?
    Mr. Beck. I think it might take as much as 10, 15 years.
    Ms. Jackson Lee. Mister----
    Mr. Beck. But the most important thing is not to keep 
adding more millions of illegal workers to the economy.
    Ms. Jackson Lee. We have a consensus on the guest worker 
program, which I think you are speaking to. We have a 
consensus. My bill speaks to earned access to legalization, 
which does not speak to a guest worker program. I am not 
supporting that, because I believe it is a flat earth theory. 
But could you give me, Mister--am I--is that----
    Mr. Chishti. Chishti.
    Ms. Jackson Lee. Mr. Chishti with a C-H? I am sorry; I just 
want to----
    Mr. Chishti. Yes.
    Ms. Jackson Lee. Thank you, sir. Would you give me a 
realistic idea of deporting 14 million, and is attrition 
realistic? And would you comment is race a factor, still, in 
hiring American workers in this country, if you have some----
    Mr. Chishti. On the numbers, I think it's a pipe dream for 
anyone to believe that we can deport this large a population. 
Even if we had the moral will to do this, we just simply do not 
have the resources to do this. We would have to turn our 
country into Fortress America, and no one is prepared to do 
that. We will have to put cops at every street corner to find 
undocumented workers, many of whom, by now, have U.S.-born 
kids; many of them have permanent resident spouses; many of 
them have other close members of the society, and most 
importantly, many of them are extremely important members of 
our economy. And I think it will cause a huge disruption for us 
to do that.
    And then we----
    Ms. Jackson Lee. You gave me a figure before; you 
calculated something that----
    Mr. Chishti. Well I think people--if you just look at, you 
know, even if we started deporting, like, rounding up 500 
people a month, I mean, this would take more than 20 years to 
do it, not to mention, then, how long it would take in the 
court process for people who decide to challenge those 
proceedings and sort of logjam our court system.
    So on a variety of fronts, it's just simply not possible 
for us to do it. That is why I think the cleanest way to deal 
with this is to acknowledge the reality of this population and 
say that let's give these people a one-time opportunity to 
adjust their status. And I think your bill, which actually 
does, I think, very rightly talk about family reunification in 
this context is extremely important, because if you do not let 
people rejoin with their families, it is only going to create 
an incentive for them to bring those people illegally, which is 
just going to increase undocumented immigration in the future.
    Ms. Jackson Lee. Mr. Chairman, could Mr. Krikorian just 
answer yes or no on the adding to help facilitate those who are 
legally here, Mr. Krikorian----
    Mr. Krikorian. Sure.
    Ms. Jackson Lee. Who are in line, who have been waiting, as 
you may know, for years to provide resources to get them moving 
on?
    Mr. Krikorian. Whatever our immigration policy is, it ought 
to be properly funded, professionally run, so that it works the 
way that it should. And Government does not have to work this 
badly. DMVs in various States have become increasingly 
professionalized and efficient. And that's why what you're 
describing is an indication of how we have an anti-immigrant 
policy of mass immigration, as opposed to the direction I try 
to make the case for, which is a pro-immigrant policy of low 
immigration.
    So, yes, I would agree that whatever our system is, it 
needs to function professionally and expeditiously, and we 
don't have that now.
    Ms. Jackson Lee. And with the right resources.
    Mr. Krikorian. Yes, with the right resources.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Flake, for 5 minutes.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Krikorian, I was interested in your analysis of the 
national security issue. You mentioned near the end of your 
testimony that surely, we're guaranteed to admit terrorists in 
the program. I don't disagree at all, whatever system you have, 
that's going to happen. I think the question is, is that more 
likely under a structured program of legal immigration or the 
current de facto amnesty that we have?
    Mr. Krikorian. Leaving things as they are, with illegal 
immigration explicitly permitted by the Federal Government once 
you pass the border, there's no question that's a security 
problem. My problem is that enforcing traditional immigration 
law, in other words, ordinary, across the board immigration law 
enforcement is a powerful tool for homeland security. The fact 
is we traced the 48 al-Qaeda-related operatives. From the 
hijackers a decade back, there were 48 of them; about half had 
violated immigration law at one point or another, and almost 
certainly, others had as well. We just weren't able to get the 
documentation on that.
    So the fact is that immigration law is not really not just 
a tool as it is used now, an additional tool to go after 
terrorists. Unfortunately, that's the main way it's been used. 
In other words, going after Al Capone for not paying his taxes, 
but ordinary immigration enforcement can, in fact, disrupt 
terrorist conspiracies and would have had we been doing it.
    Mr. Flake. Just yes or no, do you feel that we have a law 
that can reasonably, politically or otherwise, be enforced 
today?
    Mr. Krikorian. Sure, yes, absolutely.
    Mr. Flake. All right.
    Mr. Krikorian. I mean, that doesn't mean that we don't need 
legal changes, but yes, we can, in fact, enforce the law, and 
without machine guns and land mines; with normal law 
enforcement tools, yes.
    Mr. Flake. Mr. Morris, your Website mentions--says DASA 
supports replacement-level fertility, on average of two 
children per family, and replacement-level immigration. In what 
way do you support that two children per family? Is that like 
China's one child policy or----
    Mr. Morris. No, no, no, no; in fact, that is what America 
has really, actually, moving toward. But we have a 
disproportionate amount of our increased population comes from 
demographics--from immigration-driven demographics. In other 
words, most industrial societies, as the income goes up, as the 
society gets more advanced industrial, you find a natural 
dropping off of the replacement, and as education rises, et 
cetera, et cetera.
    Mr. Flake. So you're not advocating any----
    Mr. Morris. No, no, no.
    Mr. Flake. Good.
    Mr. Morris. What I am advocating is that we really move 
toward, as we had been, a middle class society and the--one of 
the benefits that comes from that is, you know, higher incomes, 
greater education, and, you know, less children by choice.
    Mr. Flake. Along those lines, you mentioned high 
immigration contributing to our Social Security problems. If 
you look in countries that don't have high immigration or 
don't--or are pursuing a two-child family, Japan, for example, 
or what Rumsfeld calls Old Europe, there are massive problems 
in the future with pension benefits, and we face those same 
struggles here.
    Mr. Morris. I don't think we do; not with the rate of 
immigration that we've had.
    Mr. Flake. Well, that's what I'm saying. But if we had a 
policy like you're advocating, then, we, in fact, would face 
substantial problems in that area. As it stands, there's 
between, I think, $28 billion and $30 billion over the last 
decade being paid into Social Security that isn't paid out in 
benefits because it's paid into fraudulent accounts. And I'm 
not saying that's a good thing, but I'm saying that's the 
reality of unless you have a good number of workers to follow, 
if you say simply we're just going to stop, no more immigrants, 
just very few, just replacement level, we're going to have a 
massive problem, I would suggest, in a number of years.
    Mr. Morris. You know, I think that was the goal, 
Congressman. I don't think that we urged this immediately 
happen. That's where we really want to go, not that there is 
any, there should be any steps to do that with any kinds of 
things right away. And I didn't mention Social Security in my 
discussions.
    Mr. Flake. There's a part of your Website that mentions it.
    Mr. Morris. Oh, okay.
    Mr. Flake. Mr. Beck, you mentioned the idyllic forties, 
fifties and sixties as if there was no imported labor for 
anything. You're familiar, I'm sure, with the Bracero Program 
that happened prior to that; a number of decades before, the 
Transcontinental Railway. If I remember my history right, that 
wasn't exactly built with domestic workers. Do you have any 
comments?
    Mr. Beck. Well, that happened during the great wave of 
immigration that you're talking about. But during the thirties, 
forties, actually, from 1924 until the seventies, there was 
what the economists called the great compression. That was the 
time when the lower class gained a lot on the middle class, and 
the middle class gained on the upper class. Yes, there was the 
Bracero Program. It was one that just kind of sneaked in in the 
middle of World War II. There was no sign that the country 
needed those workers, but some of the lobbyists for some of the 
agribusinesses managed to sort of persuade them to do that.
    But for the most part, we had very low immigration. We had 
a very tight labor market in the fifties and sixties, and that 
propelled us toward a great middle class economy.
    Mr. Flake. And that does not exist today; no need for labor 
today?
    Mr. Beck. There's plenty of need for labor but no need for 
imported labor, yes.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Hostettler. The Chair now recognizes the gentlelady 
from California, Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    First, I want to ask unanimous consent that a letter from 
MALDEF be entered into the record as part of the written----
    Mr. Hostettler. Without objection.
    Ms. Sanchez. Thank you.
    Second, I just wanted to make a couple of points before I 
get down to some questions. We had a Subcommittee meeting, I 
believe it was either last week or week before last, where we 
had somebody estimate that if we were to deport 500 out of this 
8 to whatever million undocumented workers that are in this 
country--the number seems to rise with people's, you know, 
depending on who's using the number to meet their needs for 
argument, 500 people a day were to be deported and given 400 
days in a year, and we know that there are less than that, but 
just for simple mathematics sake, it would take 50 years to 
deport all of the workers that are currently in this country.
    So when we talk about immigration reform, we need to do 
something to address that in a comprehensive way, and I think 
that there can be a way that guest worker programs can be 
structured to alleviate some of that problem and to put people 
on the path to citizenship. These are workers that are integral 
parts of our economy that have been working here and living 
here, raising families here, contributing to taxes, 
contributing to our Social Security system, and I might suggest 
that the idyllic, you know, 1940's and fifties labor market, 
when we talk about a lack of jobs in this country, something 
that has glaringly been omitted from everybody's testimony is 
the fact that we continue to export jobs overseas and that our 
labor standards here, while they look wonderful on paper, the 
enforcement mechanism for them is very low as well.
    So there are a number of other factors that play very 
heavily into this lowered working conditions and lowered wages 
and lower standards for American workers, and I do believe that 
Ms. Jackson Lee was correct in saying that you cannot hang all 
of those problems in the necks of immigrant labor.
    Mr. Beck, in your testimony, you talk about occupation 
collapse, where wages plummet, benefits disappear, and working 
conditions deteriorate, which you claim threatens American 
lower middle class jobs. If a guest worker program included 
prevailing wage provisions to ensure that wages didn't plummet, 
that guaranteed secured benefits and demanded solid working 
conditions to a particular labor market, wouldn't those 
protections prevent that occupation from, in fact, collapsing?
    Mr. Beck. The kind of protections that you're talking about 
and Mr. Chishti talked about, none of them are in any of the 
proposals that are being talked about: not the President's 
proposals, not the Democratic leadership's proposals. It would 
be helpful, if someone were serious about guest worker 
programs, to actually put forth one that would try to meet Mr. 
Chishti's standards, that is, someone who actually supports 
guest worker programs, says they support them, to protect 
American workers.
    I do not believe, we do not believe the information is 
there--the studies are there--to show that we actually need 
these people. But I think that, yes, if you would put all of 
those truly enforceable provisions in place, you could probably 
prevent occupational collapse. What you would get is not a race 
to the bottom but a gradual decline. Remember prevailing wages 
don't stop wages from declining, but they do stop them from 
collapsing.
    Ms. Sanchez. I understand, so if those protections could be 
included in a guest worker program----
    Mr. Beck. Truly enforceable, we probably would not see 
collapse.
    Ms. Sanchez. And our Government was serious about enforcing 
them, then, we would not see that collapse in occupations.
    Mr. Chishti, do you believe that ensuring employers pay the 
prevailing wage and provide the adequate benefits is a way to 
ensure that both American workers and guest workers are 
protected?
    Mr. Chishti. It's absolutely essential, because otherwise, 
there will be huge incentives to continue to hire undocumented 
workers.
    Ms. Sanchez. And those of us who do advocate for meaningful 
immigration reform and immigrants' rights, we always talk about 
legalization, earned legalization through guest worker 
proposals as a part of our proposals. Would you give your 
thoughts, please, on why legalization is an important and 
integral part of protecting American workers and immigrant 
workers in this country?
    Mr. Chishti. Because right now, whatever, as you said, we 
don't know the numbers; whatever the numbers, 8 to 12 million 
people, these are people who are part of our labor market. In 
many places, they're working in the same factory as a U.S. 
worker. They certainly are working in comparable occupations. 
If you have a pool of people which is exploitable and 
constantly exploited on a daily basis in this country because 
of their status, that provides a huge downward pressure on 
wages and therefore affects U.S. workers.
    So the only way to improve the conditions of U.S. workers 
is to establish a parity between them and the foreign workers 
who are right now getting exploited, and frankly, the only sure 
way of doing that is to give them a legal status.
    Ms. Sanchez. Thank you very much; I appreciate your 
comments, and I yield back.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Texas, Mr. 
Smith, for 5 minutes.
    Mr. Smith. Mr. Chairman, looks like all we have is 5 
minutes. I am going to split my time, Mr. Chairman, with the 
gentleman from Iowa, Mr. King, who had a noon conflict and now 
has a vote conflict as well.
    I want to make a couple of points. First of all, I'd like 
to point out that there was a recent poll in Texas this last 
week that was absolutely amazing to me. This was a Scripps-
Howard Texas Poll. Eighty-six percent of those surveyed said 
illegal immigration is a very serious or somewhat serious 
problem, and 69 percent of Texans said the U.S. Government is 
not doing enough to stop unauthorized immigration.
    Mr. Chairman, there is no reason we can't enforce our 
immigration laws. Clearly, there is a public support for it. It 
is politically sustainable and supportable. It may not be 
politically correct, but it shows that the American people want 
their Government to do more than it is right now to reduce 
illegal immigration.
    Mr. Krikorian, I'm not going to ask you a question, but I 
just want to say I agree with what you said in your testimony. 
I also happen to agree with what Ms. Jackson Lee said awhile 
ago, but we come to different conclusions. And that is if you 
have a guest worker program as the Administration has proposed, 
which says to an individual we're going to give you a job, 
we're going to let you bring your family into the United 
States, we're going to let you stay here for six or more years 
and perhaps choose a citizenship track, that there is a very 
small likelihood that these individuals are going to return 
home.
    Now, that concerns me as opposed to makes me want to give 
everybody citizenship, which is how some feel. But anyway, I 
agree with your point there.
    Mr. Morris and Mr. Beck, a quick question for you: who gets 
hurt the most by a guest worker program?
    Mr. Morris. In my testimony, I think I generally--low-wage 
workers. And all of my academic life, it's been pretty clear, 
when we're talking low-wage, low-educated workers in America, 
we're talking about a disproportional number of those who are 
African-Americans, because as Congressman Jackson Lee, in 
addition to being low-income, low-educated, you have clear 
racism and clear nonpreferences as the last hired and first 
fired.
    Mr. Smith. Mr. Beck?
    Mr. Beck. Same answer except to emphasize that Hispanics 
are greatly affected. There are some studies that suggest that 
Hispanic Americans are more disproportionately impacted 
negatively.
    Mr. Smith. And, Mr. Beck, on the basis of your testimony, 
would you agree that if there were fewer guest workers, wages 
would rise, and if wages rose, more American workers would be 
likely to take those jobs?
    Mr. Beck. Yes, it's the virtuous circle.
    Mr. Smith. Thank you.
    Mr. Chairman, I'll yield to the gentleman from Iowa.
    Mr. King. Thank you, Mr. Smith, I appreciate your yielding.
    In the narrow time that we have here, I want to try to roll 
out one piece of philosophy and try to get a response to that, 
and it is that the statement has been made that we can't 
logistically deport 14 million illegals in this country, and 
there's some discussion on whether we could actually do that or 
not, and we couldn't do that in a year; we couldn't do it in 2 
years; we might be able to do it in 10 years.
    But I think there's another way to approach this, and 
certainly, with regard to the necessity to enforce our borders 
and the necessity to enforce internally, but it's to remove the 
jobs magnet. And that's really the attraction here. And we 
talked about the competition piece of this, we don't have the 
enforcement by the INS, and then, when they do come in, and 
they do raid a factory that has a lot of illegal workers, they 
tend to call ahead and let the word be leaked out, and those 
folks don't show up for work that day.
    So what I'm suggesting is this: that we look at this 
another way, and that is employers are, willingly and some 
unknowingly, hiring illegals for the reasons that we know: the 
economic incentives are there. Now, just suppose that the 
deductibility, Federal deductibility for wages and benefits 
paid to illegals were no longer deductible. Just suppose the 
IRS could come in and audit any company that had access to our 
computer database now where they can verify by Social Security 
number whether they in fact have a legal worker on their hands 
in their employment or not, and so, we can start within the 
next couple of years once we verify that system. And the IRS 
could come out, then, and do the auditing and make the 
verification and do the appropriate billing of removing that 
deductibility so that an employer, then, would be liable for 
wages and benefits and penalty on the deductions they've made 
to illegals?
    What effect do you believe that that would have on the 
numbers of illegal workers that we have in this country, and I 
would direct initially to Mr. Beck.
    Mr. Beck. Well, that's the first I've heard that idea, so I 
can't give a full thought on it. But on first thought, it 
sounds like a very useful tool. And I think in order to deal 
with illegal immigration, we need lots and lots of tools 
working all at once. We have parts of Government that pretend 
like they aren't noticing laws broken. So I think anything that 
further discourages businesses from hiring and makes life 
tougher for illegal aliens is helpful. Sounds good.
    Mr. King. Thank you, Mr. Beck.
    Could I ask unanimous consent for one more minute?
    Mr. Hostettler. The Chair recognizes the gentleman for one 
more moment, and we will be recessing after this minute of 
questions.
    Mr. Cannon. Mr. Chairman, may I make a suggestion? Not 
objecting, but if I am willing to miss this series of votes, if 
you are willing to let me take the chair so that everybody else 
can go over and vote and come back?
    Mr. Hostettler. Without objection.
    Mr. Cannon. That way, I'll defer my questions and withdraw 
any----
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Iowa.
    Mr. King. Thank you, Mr. Chairman.
    I'm directing it to Dr. Morris, and that would be there are 
quite a number of Members of this Congress who represent 
minority Congressional districts, and they seem to also be 
representing or at least speaking on behalf of illegal aliens 
in this country and their employability. Can you explain to me 
that phenomenon as to why representatives of the minority 
community might also be defenders of illegal immigration?
    Mr. Morris. Well, one of the things that happens is that in 
our African-American communities, especially from our churches, 
there is a tremendous often sympathy for the underdog. There is 
a realization that not only are African-Americans under duress 
and under strain; our history of our experience in this country 
leads us and leads many of us to identify with those others who 
may be under strain.
    Now, as to the representatives, I let them sort of speak 
for themselves. But I think that increasingly, the statistics 
show that there is concern among our African-American 
population, concerns that are not reflected in legislation, 
concerns about--because many of them about competition, not 
only low-wage competition; about the lack of seeing African-
Americans in the services. If you've gone around anywhere in 
African-American fraternities, sororities, when you go to 
service establishments, to know that African-Americans can do 
this and not see it.
    So there has been a great deal of discussion. The only 
other explanation I can say is that our African-American 
Representatives are not unlike the other Representatives here; 
that there are issues where they differ from their 
constituency. The Center for Immigration Studies published a 
study from the Council on Foreign Relations that shows that on 
immigration, there is this--the difference is greatest of all 
between the views of some of the constituents and some of the 
elites. With all due respects, you are all elite, and I think 
that this is a reflection of that, too.
    Mr. King. Thank you, Dr. Morris.
    Thank you, Mr. Chairman.
    Mr. Cannon. [presiding.] I sort of like this chair. 
[Laughter.]
    I actually thought this was going to be my chair at this 
point in time.
    Would you like to--the Chair yields to the gentlelady from 
Texas for 5 minutes or so much time as she may consume.
    Ms. Jackson Lee. I thank the distinguished gentleman very 
much. I will be yielding to the Chairman, because I will be 
going to the floor to vote, and I thank him for his 
graciousness and his respect for the time of the panelists here 
to sacrifice and to remain in the chair, and maybe if he 
remains, he will continue to remain in the chair, but we 
certainly appreciate his leadership and the leadership of 
Chairman Hostettler as well.
    Let me, Mr. Morris, focus on questions or a point of Mr. 
King. Let me just say to you that I proudly joined with the 
nation's unions when they joined in in a collaborative effort 
to deal with what we call access to legalization. I happen to 
have a majority minority district, but I happen to have a very 
eclectic, diverse district, Hispanics, African-Americans, 
Asians, others and Native Americans, and in Texas, we say 
Anglos.
    I think it is--I think we should not be debating and 
discussing this issue when it relates to both Hispanics and 
African-Americans without keenly focusing on race. And why do I 
say that? I'll try to be as brief as I can. Before the wave of 
immigration came into this country, there was a decided society 
of black and white. We didn't do what we needed to do with the 
African-American community post-civil rights era, 1964 and 
1965, in infusing capital into inner cities and rural areas 
with job training, with educational opportunities, and 
therefore, in the pecking order just like the wave of 
immigrants that came in into the 1800's, Irish, Italians, early 
1900's, their boats rose, they left those jobs, and then, a new 
wave of immigrants came in.
    In actuality, because of the economics of this country, we 
built our economy on immigrant labor over the years. What 
happened with African-Americans is that, unfortunately, racism 
kept them in a divided community, and their boat did not lift 
exponentially the way it should have been lifted. The 
representation that minorities or minority Congresspersons or 
Representatives support illegal immigration is an outrage, 
because what is being supported is the existence of individuals 
in your community, putting them on a track to become citizens, 
and, as you have heard me say, I am not a fan of the guest 
worker program; do not believe it has any substance to it 
whatsoever.
    But what I would like to see any immigration bill have 
retainment of American workers, training of American workers, 
recruitment of American workers, promotion of American 
businesses to hire them but at the same time recognize the 
roles and opportunities for immigrant workers.
    Can you not deny that race is a deciding factor and that 
when we look at immigration, we should track alongside of it 
the whole job training and education aspect to it?
    Mr. Morris. Undoubtedly, it is, Congresswoman. But one of 
the things that also stands out is that education does not 
explain, I mean, that African-Americans who have better 
education, who are better educated, better English proficiency, 
are still not preferred in the low wage job market. So, you 
know, it's just--I just want to caution you that it's not 
education and training that are the reasons why there are these 
African-American deficits that run throughout the labor market.
    Ms. Jackson Lee. Then I would say to you that race still 
remains a factor, even at that level, and that is our 
responsibility in Congress not to mix apples and oranges, 
whether it's Hispanics who are being discriminated against on 
the basis of language or whether it is an African-American, 
there is the factor of race or distinction. And what I am 
saying is because this immigration issue is so sensitive, we 
must reinforce the civil rights responsibility of this 
Government, because I've heard that, and I am against low wage 
minority workers being discriminated against. It all goes down 
to a factor in some sense on this question of race, which we 
have not ridded ourselves of. When we talk about improving or 
clarifying immigration issues, we have got to go and penetrate 
the fact that race is a dividing factor in this country.
    Mr. Morris. No doubt about that, that that is a real 
concern. But I would also hope that when you are looking at 
ways of reforming immigration that you would also look for ways 
of reinforcing citizenship also, incentives, especially 
economic incentives that will generate citizenship and 
encourage American employers to hire Americans. The economic 
incentives are some of the greatest incentives.
    Ms. Jackson Lee. We may come at it a different way, and 
thank you, Mr. Chairman, but we may get to the same point.
    My concluding remark is immigration does not equate to 
terrorism, and this nation is a nation of immigration and a 
nation of laws, and I think we must find the balance and not 
run hysterically into the wind to do something, to try to do 
something that we just cannot do. And I thank the Chairman.
    Mr. Cannon. Would the gentlelady yield?
    Ms. Jackson Lee. Be happy to yield.
    Mr. Cannon. I'm just wondering if you will interpret Texan 
for me. Does Anglo mean Anglo-Saxon, or does that include the 
Celts as well? [Laughter.]
    Ms. Jackson Lee. The Celts have distinguished themselves, 
but we broadly use Anglo as Anglo-Saxon, but we also broadly 
use it in Texas since we are loose with our words as the 
caucasian population. But I would beg to say to you that our 
distinctive communities under the Anglo umbrella make it very 
clear that they are this and that and this. That's why we are a 
nation of immigrants, Mr. Chairman.
    Thank you very much, and I respect that diversity. Thank 
you.
    Mr. Cannon. I thank the gentlelady. In fact, we are a 
nation of immigrants. We are a nation of diverse cultures. I 
think we have done remarkably well together, and I think that 
we have a significant problem right now. Thank you. I thank the 
gentlelady.
    First of all, I'd like to thank Mr. Krikorian and Mr. Beck 
for being here again. You've been here in the past. I 
appreciate the forthcomingness of your answers in the past. Mr. 
Krikorian, we were talking a little earlier; I appreciate that, 
and Mr. Beck, I just read the transcript of the last hearing 
that we had, and you were very thoughtful and very forthcoming, 
and I appreciate that.
    Most of my questions are going to be for the two of you. We 
were talking at the break, Mr. Krikorian and I, about the Wall 
Street Journal article which he disputes and points out that 
that is guilt by association, but in fact, what I would like to 
explore is the association of groups, how they work together. 
This is what we talked about, I think, a little bit before, Mr. 
Beck; a lot of information, I think, that has become public 
since then, some of it in articles, and I don't suggest that 
journalists are all that reliable sometimes, so we're not going 
to hold anybody to a journalistic standard.
    But there are some things that I would like to understand, 
and let me just start off with the context that we're facing 
right now in America. One of the major national environmental 
associations is under, as Business Week and Time, and I think 
there was also an article in Newsweek that said, under assault 
by forces who want to limit immigration. And so, you have on 
the board of the Sierra Club currently Dr. John Tanton, and you 
have seeking membership on the board former Governor Dick Lamm 
along with two others, and all of these articles have been 
consistent that there would be a coalition which would include 
two other people who are People for the Ethical Treatment of 
Animals types and therefore would ultimately control the Sierra 
Club and an organization that has a budget of $95 million.
    Mr. Morris, you are obviously anxious about this. Would you 
like to say something?
    Mr. Morris. Thank you, Congressman, because I'm a candidate 
for the Sierra Club board who has been defamed by this kind of 
activity.
    Mr. Cannon. Are you one of those people that Dick Lamm 
would say is running?
    Mr. Morris. Yes, yes, yes.
    Mr. Cannon. Well, great, we'll have a discussion about it.
    Mr. Morris. Yes, I would be delighted to have a discussion. 
[Laughter.]
    Since it was claimed that I am----
    Mr. Cannon. Pardon me, Mr. Morris, let me just take a few 
more steps, and then, you can actually be responsive to some 
questions, because I think it is fair. Now, I have been quite 
careful to only give the characterization of this that Time and 
Newsweek--in fact,
    Business Week had a couple of articles, I think. So, in 
fact, I'm only saying what's said, and we'd like the response 
on that.
    But in particular, I'd like to pursue what these 
relationships are and associations are and funding relations 
are. So I am going to ask the questions of who is funding your 
organizations, and I hope that you'll be forthcoming with that.
    But that said, I think the question is, as one of the 
three, and I did not realize you were one, because they have 
only mentioned Dick Lamm.
    Mr. Morris. Yes.
    Mr. Cannon. You need to be governor of a State, I suppose, 
to get the kind of attention.
    Mr. Morris. I guess that's right, yes.
    Mr. Cannon. But is there not a view that the three of you 
who are running together with the PETA folks would dominate the 
policy of the Sierra Club?
    Mr. Morris. That is totally unfounded, sir.
    Mr. Cannon. It's founded, because it is published 
everywhere, but if you explain why that is not the case, I'd 
appreciate it.
    Mr. Morris. Well, I'd like to explain why. We've had almost 
unprecedented violation of Sierra Club rules, elections where 
you have the executive director, Mr. Pope, getting actively 
involved in a board election. You know, after Sarbanes-Oxley, 
you would really wonder about that. My own particular run for 
the board goes almost back to the days when I served with the 
Congressional Black Caucus Foundations, when I saw that there 
was Sierra Club activities from progressive Members of the 
Congressional Black Caucus and others, but I didn't see the 
reciprocal response of the Sierra Club to the kinds of health 
and environmental issues that disproportionately impacted low 
wage African-American and other kinds of communities.
    So my early involvement went with the Global Tomorrow 
Coalition and then my church, the United Church of Christ, we 
funded the initial studies that showed a disproportional 
location of toxic waste dumps in low wage communities and so 
forth. So it wasn't until later that the Sierra Club began to 
get involved.
    So the real issue here is the fact that there is a fear of 
loss of control. Some of us are running for the board because 
we feel the Sierra Club has not been as effective as it should 
be, a, that there is an issue of $100 million of anonymous 
donations that goes to the club that influences policies 
greatly, and those anonymous donors are not even known to 
members of the board.
    There are issues of outreach. The Sierra Club has not had 
effective outreach into minority communities. Some of us feel 
that we know how to do that. These are the reasons why we're 
running for the board. But to run for the board, then, to 
have--to be slandered by saying that, you know, that those 
supporters----
    Mr. Cannon. In fairness, there are two kinds of groups out 
there, if it is slander, of course. Slander is not true. But 
one of them is the current leadership of the Sierra Club. 
You're certainly threatening them, are you not?
    Mr. Morris. Yes, that is correct.
    Mr. Cannon. And they are the guys who are planning to----
    Mr. Morris. They don't want to lose control. That is 
exactly right.
    Mr. Cannon. But do you support Dick Lamm's views?
    Mr. Morris. Do I support--Dick Lamm has his own views, sir, 
and I have my own views.
    Mr. Cannon. But are you running together?
    Mr. Morris. No, sir; no, we are not, but we have similar 
views. We have similar views on a number of things. One of the 
things we share is a concern about sustainability.
    Mr. Cannon. You know, there are a lot of things that the 
Sierra Club does that I don't care very much about. I do care 
about population right now. It is at least said in the press, 
and maybe coming from the current leadership of the Sierra 
Club, is the allegation that many, many hate groups, white 
supremacist groups and racist groups are supporting Dick Lamm 
and his slate, which, according to the press, would include 
you. [Laughter.]
    The question is not do they support you. The question is 
are there--is it true that you have these hate groups that are 
coming in, joining the Sierra Club, and voting in this 
election?
    Mr. Morris. I don't believe that is true at all. We've 
asked them to give evidence of that, and they do not because 
they cannot. What that charge wants to do is to say that 
anybody who is really concerned about population stabilization 
and the impact of immigration on that must be identified with 
hate groups.
    One of the things that I've had the privilege of doing, and 
I am going, in a letter to the New York Times, it will come out 
clearly, that the position which I hold on immigration is the 
position that's been held by the most distinguished African-
American leaders of the past centuries, from Frederick Douglass 
to W.E.B. DuBois to Booker T. Washington to Marcus Garvey to A. 
Philip Randolph.
    To say that these positions, which are also held by the 
majority of African-Americans and on concerns about immigration 
by the majority of Americans are held by--are positions that 
are engendered by nationalism or racism is just absurd, and 
it's vicious, and it is just simply very much unfair.
    Mr. Cannon. Now, you've been around the community for a 
long time.
    Mr. Morris. Yes.
    Mr. Cannon. Are there not groups out there funding these 
various organizations that have a wide interest which, in fact, 
are tied to funding groups that fund racist groups?
    Mr. Morris. I think that's absolutely not correct. I'm 
intimately familiar with both DASA, which has sometimes been 
charged with that. I am very familiar with the Center and Mark 
here, who also has been charged with that charge, and that's 
just simply not true, sir.
    Mr. Cannon. It's not true that you have groups out there 
that are funding racist organizations and the group of 
associated organizations that are promoting immigration control 
and population control?
    Mr. Morris. All I can say----
    Mr. Cannon. Well, let me ask some specific questions.
    Mr. Morris. Sure, go ahead.
    Mr. Cannon. Because generalities don't help. Let me talk 
about, since Governor Lamm is now the issue, let me read two or 
three quotes from Governor Lamm and just get your personal, 
your organizational responses to those. In 1986, Governor Lamm 
said, ``I never did believe in that give me your tired, your 
poor,'' quoting from Emma Lazarus' poem on the Statue of 
Liberty. Do you and your organizations associate yourself with 
such remarks?
    Mr. Krikorian?
    Mr. Krikorian. What was the remark, now, again? What about 
Emma Lazarus?
    Mr. Cannon. ``I never did believe in that give me your 
tired, your poor stuff.''
    Mr. Krikorian. I'm not really sure what the poem means; I'm 
not sure what the Governor meant when he said it. So, do I 
endorse cliches? I don't know. I mean, give me a substantive 
statement, and I will tell you whether I am for it or not.
    Mr. Cannon. How about in 1984, Governor Lamm stated 
``terminally ill people have a duty to die and get out of the 
way.''
    Mr. Krikorian. That I can answer.
    Mr. Cannon. Yes, sir.
    Mr. Krikorian. CIS does not now nor has it ever supported a 
duty to die, because it is not an immigration issue, and 
therefore, we take no position on any nonimmigration issues.
    Mr. Cannon. You don't take a position on immigration or 
population control.
    Mr. Krikorian. CIS takes positions on immigration 
specifically. We have no--CIS is not now nor has it ever been 
in favor of abortion. CIS is not now nor has it ever been in 
favor of Government policies to control the population.
    Mr. Cannon. Have you taken money from organizations that 
propose those theories?
    Mr. Krikorian. CIS is not now nor has it ever been a 
recipient of funds from the Pioneer Fund, which is apparently 
the group that everybody is----
    Mr. Cannon. Well, there are actually a number of groups out 
there. Can you tell us who you have received funds from?
    Mr. Krikorian. We get funds from a variety of groups on the 
right, the left and the center. I can list some of them. The 
Scafe and Olan Foundations and Bradley on the right. Among 
liberal groups, the Weeden Foundation is a conservation-
oriented group, and then, in sort of the middle or nonpolitical 
groups, the Hewlett Foundation and the German Marshall Fund. 
These are all pretty mainstream outfits.
    Mr. Cannon. What percentage of your funding do those groups 
account for?
    Mr. Krikorian. Most of it; I mean, we don't have any direct 
mail stuff. So I don't know the numbers, but the majority, the 
overwhelming majority of it comes from foundations.
    Mr. Cannon. Let me--do you, Mr. Morris, do you agree with 
that statement about people having a duty to die?
    Mr. Morris. No, but that's, you know----
    Mr. Cannon. Do you find it offensive?
    Mr. Morris. I don't know the context, sir, I really don't 
know the context. You know, we all are going to die. I just 
would like to know the context.
    Mr. Cannon. The context was we need to reduce the 
population, I think. Does your group believe that we need to 
reduce the population?
    Mr. Morris. Of the United States?
    Mr. Cannon. Yes, of the United States.
    Mr. Morris. Yes, through natural means, through means of 
increased economic development. And the population was dropping 
by natural means. Immigration is really what stimulates--and it 
continues to stimulate our population growth much 
disproportionately. The United States, like other advanced 
industrial countries, had been, you know, stabilizing, had been 
moving toward stabilization.
    Mr. Cannon. And do you think that's a good thing?
    Mr. Morris. Yes, I do. Yes, I do. I think that one of the 
things that--when industrial countries move toward 
stabilization, it's often accompanied with increases in many of 
the kinds of benefits: increases in education, increases in 
wealth; you know, that's one of the things that differentiates 
industrial countries, advanced industrial countries, from those 
that are not. And I want us to be among the best.
    Mr. Cannon. I think that you need population to be the 
best, and we have the best tools. But we differ on that point.
    Mr. Beck, do you agree with that?
    Mr. Morris. Excuse me; can I just say--we are not arguing 
not having population. I think we are talking about the degree 
of magnitude of increase, aren't we?
    Mr. Cannon. Well, let me get through another couple of 
questions so we have some context.
    Mr. Beck, do you agree with that quote by Governor Lamm?
    Mr. Beck. Which quote?
    Mr. Cannon. That is that people have a duty to die and get 
out of the way?
    Mr. Beck. I can't really comment very well, because 
NumbersUSA does not deal with those issues. But I do remember 
as a newspaper reporter at the time when that quote was made, 
and as I recall, I believe if you will check, I believe it has 
nothing to do with population. I think it has everything to do 
with health care costs.
    Mr. Cannon. Well, he did talk about--let me just give you 
another quote here. The best thing that could happen--this is 
1985--``the best thing that could happen to this country is for 
a whole bunch of hospitals to go broke.'' And I think the 
context of that was if hospitals go broke, people die, and we 
have a smaller population.
    Mr. Beck. I don't believe that that was really the context. 
But as I say, NumbersUSA doesn't take positions on those kinds 
of things. We are not involved in health care.
    Mr. Cannon. Who funds NumbersUSA?
    Mr. Beck. Pretty much the same funders as when I answered 
your questions 3 years ago.
    Mr. Cannon. We never got to that. We never got the answer. 
Unfortunately, we lost my time, and I couldn't----
    Mr. Beck. There was a very long list, and I submitted them 
to you. But we have a number of foundations but primarily 
individuals. That is, the majority of our money comes from 
individuals. We have about--it's about 25,000 active members.
    Mr. Cannon. And how much do they pay per member? What is 
the cost of membership?
    Mr. Beck. There is no cost of membership. It's pass the 
collection plate.
    Mr. Cannon. What proportion of your funding comes from the 
``collection plate'' of many members or in small contributions, 
and what portion comes from larger contributors?
    Mr. Beck. To give you an accurate answer, I really should 
get back to you, but I believe it's about 60 percent comes from 
the collection plate.
    Mr. Cannon. Okay; and does, Mr. Krikorian, you mentioned 
the Pioneer Fund. Does the Pioneer Fund give money to your 
group?
    Mr. Beck. No, it does not. Never has.
    Mr. Cannon. Never has? Great. Mr. Krikorian what is your 
relationship with Dr. Tanton? What has it been historically?
    Mr. Krikorian. You mean personally or institutionally?
    Mr. Cannon. Both; let's go with institutional.
    Mr. Krikorian. In either case, none. Dr. Tanton has never 
been on the board of CIS. He wrote us a check, I think it was a 
year ago. It was the first check I have seen from him in 9 or 
10 years. It was $100. I didn't think to send him a 
questionnaire before I cashed his check, but that's about it. 
We have no institutional relationship with him one way or the 
other.
    Mr. Cannon. On January 11, 1986, he wrote--he had been the 
founder of FAIR, as you recall, and he wrote a memo stating, To 
expand our fundraising machine, we created the Center for 
Immigration Studies last year. We need to get CIS fully funded 
and entrenched as a major Washington think tank, one that can 
venture into issues which FAIR is not ready to raise.''
    Mr. Krikorian. We were indeed a spinoff of FAIR, a kind of 
spinoff. Not a spinoff like Mr. Chishti's group is a spinoff of 
the Carnegie Endowment, where it actually was sort of an 
incubator, grew there, and then became a separate organization. 
We were a spinoff in sort of the minimal sense in that we were 
under FAIR's nonprofit tax status. If you know how 501(c)(3)s 
work, we were under the umbrella of their nonprofit IRS ruling 
for a few months until our independent status came through. And 
since then, we have had no institutional or financial 
relationship. They do their thing, we do ours.
    Mr. Cannon. But they created--FAIR, led by Dr. Tanton at 
that point in time, created your organization as part of FAIR; 
had a theoretical concept of where CIS should go and what gap 
it would fill in an overall set of activities, and you don't--
I'm sorry; you don't see that as an important relationship?
    Mr. Krikorian. CIS was necessary because there was no think 
tank on the side, the sort of critics of immigration side, the 
low immigration side. There were merely political advocacy 
groups. And so it filled the role and continues to fill the 
role of a----
    Mr. Cannon. A role which he identified as very important.
    Mr. Krikorian. Sure; yes, he did seem to identify it. A lot 
of people identified it. There was one member of their board 
who joined our board. We have one of our board members who is 
no longer on our board but who was on our board for a number of 
years and chairman of our board that was the, you know, that 
was the extent, frankly, of the relationship.
    Mr. Cannon. But you are now a separate 501(c)(3) 
organization?
    Mr. Krikorian. Have been for 17 or 18 years, something like 
that, yes.
    Mr. Cannon. Mr. Beck, as I understand it, and we were just 
at this point where we didn't quite clarify it when we had our 
last hearing, NumbersUSA is what Mr. Krikorian characterized as 
a project under FAIR. You are currently a project, as I 
understand it, under US, Inc.?
    Mr. Beck. No.
    Mr. Cannon. Would you explain what your legal 
organizational status is?
    Mr. Beck. NumbersUSA is a separate 501(c)(3) with a 
separate board of directors.
    Mr. Cannon. How long has it been separate?
    Mr. Beck. It has been since, I guess, January of '02.
    Mr. Cannon. So recently. Prior to that, it was----
    Mr. Beck. We were not quite as quick to fly the nest as 
CIS. I did a book tour from my W.W. Norton book in 1996. As a 
result of that tour, I started an organization called 
NumbersUSA and looked for a place to hang the hat and worked 
inside US, Inc., which is basically an umbrella organization 
for about three dozen different nonprofits. It allows you to be 
able to share legal and accounting facilities. And so, we 
operated as a programmatically autonomous organization from 
1997 until January of 2001.
    Mr. Cannon. And now, you are actually an
    independent----
    Mr. Beck. Yes.
    Mr. Cannon. --legally organized separate organization?
    Mr. Beck. Yes.
    Mr. Cannon. But you have had a long and intimate 
relationship with Dr. Tanton, US, Inc. and the other allied 
groups, of which I think there are 20 or 30 out there that 
exist together to accomplish various objectives that he and 
others likeminded have.
    Mr. Beck. Well, I think I would like the definition of 
intimacy before saying yes on that. But I have known--as I 
explained last time--as a reporter, Dr. Tanton, when I was a 
reporter in Michigan and Dr. Tanton was a newsmaker. I covered 
him in the seventies; I covered him in the eighties, so yes, I 
have known Dr. Tanton a long time.
    Mr. Cannon. And you worked under his aegis for a very long 
time?
    Mr. Beck. Aegis being defined?
    Mr. Cannon. Cloak, the coverage of his views of the world.
    Mr. Beck. The umbrella.
    Mr. Cannon. The umbrella.
    Mr. Beck. The legal umbrella, yes, sir.
    Mr. Cannon. But beyond just an umbrella that keeps the IRS 
off your head, this is rather a close personal relationship 
where you guys share ideas, and you perform functions that he 
thinks are important.
    Mr. Beck. No, that would suggest that he would be my 
supervisor, no, he doesn't.
    Mr. Cannon. Prior to the time you split off 
organizationally, he signed your paychecks, didn't he? 
Essentially, did the organization that he headed, that he 
chaired, signed your paychecks?
    Mr. Beck. Because all of the financial things were done 
inside there. But I don't want to----
    Mr. Cannon. But he wouldn't have signed your paychecks if 
you didn't agree with him, if you were going contrary to him.
    Mr. Beck. Of course. I don't want to make--I'm just trying 
to answer your questions precisely. But I don't want to make it 
seem like, for some reason, that there is any defensiveness 
about knowing John Tanton or having been connected with John 
Tanton or with groups that he is associated with. I am just 
explaining what the organic relationship----
    Mr. Cannon. No, I understand the nature of the organic 
relationship.
    Mr. Beck. As I explained 3 years ago both orally and with 
the written answers to your questions, I have known Dr. Tanton 
for three decades, and I would not be able to tell you how many 
times I have talked to him.
    Mr. Cannon. And Dr. Tanton has a vision of what ought to 
happen in America related to immigration and other associated 
ideas like the environment?
    Mr. Beck. He does but I have a vision also.
    Mr. Cannon. And there are many groups that perform discrete 
functions within the context of what his ideas of what ought to 
be done are, is that not true?
    Mr. Beck. No, that would not be true.
    Mr. Cannon. Why not? He certainly calls himself the founder 
of many, many groups. You are aware of the various groups, 
because you've reported on him, that he's founded.
    Mr. Beck. I once as a newspaperman began an article saying 
that Dr. John Tanton of Petoskey is a Petoskey--no, excuse me, 
is a Petoskey ophthalmologist who is an obstetrician of 
national, local and State nonprofit organizations. So yes, he 
is a prolific father of many organizations.
    Mr. Cannon. And you hold views that he thinks are important 
in the area where NumbersUSA is operating and you are 
operating?
    Mr. Beck. I would assume so.
    Mr. Cannon. And he paid your salary for many, many years?
    Mr. Beck. No, I raised my salary.
    Mr. Cannon. US, Inc. paid your salary.
    Mr. Beck. No, I raised my salary. US, Inc., cut the checks.
    Mr. Cannon. When people made checks to pay your salary, did 
they write US, Inc. or did they write Project USA?
    Mr. Beck. We're NumbersUSA.
    Mr. Cannon. I'm sorry; NumbersUSA. Project USA is the group 
that's put--the 501(c)(3) that's put billboards up in my 
district, you know, odd coincidence, funded by many of the 
people who fund your organizations, by the way.
    But at any rate, when they made out checks, did they make 
them out to Project USA or to--I'm sorry; here, we go again. 
I'm obsessed with these people. They say that I am for amnesty. 
I'm not for amnesty. Let me just be very clear for the record. 
But for NumbersUSA, how did they make those checks?
    Mr. Beck. Yes, they made out.
    Mr. Cannon. To?
    Mr. Beck. To--actually, they did not make out checks at all 
to NumbersUSA. They paid our bills.
    Mr. Cannon. I'm sorry; who paid your bills?
    Mr. Beck. US.
    Mr. Cannon. Okay; right, but you raised money----
    Mr. Beck. Yes.
    Mr. Cannon. For your project.
    Mr. Beck. And put the money----
    Mr. Cannon. When the donors made out checks, did they make 
out the checks to NumbersUSA?
    Mr. Beck. Yes, to NumbersUSA.
    Mr. Cannon. And so, NumbersUSA had a bank account.
    Mr. Beck. Yes.
    Mr. Cannon. And that bank account was controlled by whom?
    Mr. Beck. By me.
    Mr. Cannon. In the context of an organization that was a 
501(c)(3), US, Inc.
    Mr. Beck. Yes. And then the accountants for the umbrella 
group cut the checks, made the decisions on cutting the checks.
    Mr. Cannon. Exactly; in other words, you brought the money 
in; they said NumbersUSA, but they went into a bank account 
controlled by the accountants who worked for US, Inc.
    Mr. Beck. Okay.
    Mr. Cannon. Meaning that when you raised money, you were 
raising money in the context of US, Inc. and its allied groups, 
of which you performed a narrow part; is that not correct?
    Mr. Beck. I don't think that's precise.
    Mr. Cannon. You have to be precise in this room, and I'm 
not trying to catch you. I want to know what the relationships 
are, and I'd like you to state them precisely.
    Mr. Beck. NumbersUSA was a project which I attached to US, 
Inc., which is an umbrella organization. There's a number of 
recycling groups, foreign language study groups, book groups.
    Mr. Cannon. All the groups that Dr. Tanton was the 
obstetrician for.
    Mr. Beck. No, no, actually, quite a number of them were 
ones that were started by other people and, like I, attached 
themselves under that umbrella. This is a very common practice 
in 501(c)(3)s.
    Mr. Cannon. Right, sure.
    Mr. Beck. I raised the money for covering NumbersUSA. The 
accountants and the auditors who were hired by US, Inc. were 
the ones that took charge of that bank account, in terms of 
that I did not have personal access to that bank account. That 
would not have been good fiduciary responsibility. I think 
maybe you're trying to get at the question if, does Dr. Tanton 
agree with what we've done? I'd say yes, for the most part, he 
does.
    But it was a situation which we were a programmatically 
autonomous group within that organization. He and his board 
would not have allowed us in that organization, under that 
umbrella, if they didn't substantially agree with what we were 
doing. And we were very thankful for----
    Mr. Cannon. Did you meet with other autonomous programmatic 
groups under that umbrella occasionally?
    Mr. Beck. No, I attended, once a year, I attended a board 
meeting in Michigan.
    Mr. Cannon. Did you go to lunch with the other folks that 
were associated with that umbrella organization?
    Mr. Beck. Oh, my.
    Mr. Cannon. What we're talking about here is what is the 
relationship? You are asking like it is--you are talking as if 
it was somehow sterile. This is not sterile. This is not 
ophthalmologic surgery. We are talking about ideology and 
communicating ideological ideas and donors who would come in 
and support those.
    Mr. Beck. I would request the opportunity to revise and 
extend this response, but I don't believe I ever had lunch with 
anybody who was associated with any of the US, Inc. 
organizations.
    Mr. Cannon. You had lunch with John Tanton, I'm sure, did 
you not at some point?
    Mr. Beck. No, I think I've had dinner a couple of times.
    Mr. Cannon. Lunch, dinner; dinner, is that what you've 
had--is dinner what you do in New York--in the evening?
    Mr. Beck. That's right.
    Mr. Morris. Sir, do you want any questions of me? I never 
met Mr. Tanton; don't know him. I think when I was--I remember 
getting a note when I was on the Jesse Jackson Show of a 
commendation but that's the extent. And no funding from DASA or 
anything like that.
    Mr. Cannon. We appreciate your contribution to that fact. 
[Laughter.]
    Do you know, a guy named Donald Mann? He is the founder of 
Negative Population Growth, who had his offices at a time in 
FAIR's D.C. Washington office, and, of course, FAIR is: you 
have US, Inc., and you have FAIR, the Federation for American 
Immigration Reform, and therefore both are very tightly tied to 
Dr. Tanton. He said we should give incentives to low-income 
people who agree to sterilization. We should make available 
free abortion to low income people on demand, and companies 
should cut back or deny maternity leave to women who have more 
than two children. Tanton and Dan Stein, FAIR's executive 
director, lavished praise on Mann's group. Stein said ``NPG is 
one of the few serious, courageous, meaningful population 
control groups that's seriously dealt with immigration.''
    I take it, Mr. Krikorian, from your earlier statement, you 
don't agree with that personally, and your organization 
doesn't.
    Mr. Krikorian. Let me repeat, the Center for Immigration 
Studies does not now nor has it ever supported sterilization, 
abortion. And in fact, the use of immigration policy for 
purposes of social engineering, either to increase or decrease 
population is something that we reject altogether. We think 
that Americans should decide how many kids they have, not 
Congress, not anybody else.
    Mr. Cannon. Mr. Beck, do you agree with that statement, Dan 
Stein's praise of NPG?
    Mr. Beck. NumbersUSA has never had a comment about that 
organization or really, I think, most others. We don't take a 
stand on those issues. We just don't deal with them.
    Mr. Cannon. But the organization that you were part of for 
a very long time with a series of other related organizations 
all moved forward with John Tanton behind the curtain guiding 
and directing where you're going in your independent 
activities. Is that an unfair thing to say?
    Mr. Beck. Yes, I think it is.
    Mr. Cannon. Why?
    Mr. Beck. Because you're ascribing a management pattern 
that just didn't exist and doesn't exist.
    Mr. Cannon. I'm not talking about management. I'm talking 
about relationships, about friends, people who talk to each 
other, people who know what they're doing and coordinating what 
they're doing with other folks.
    Mr. Beck. You're talking about what effect that John Tanton 
as an individual has on all of these organizations, and that 
would suggest that he was, you know, actually in control of 
these organizations. The only organization he is in control of 
is US, Inc.
    Mr. Cannon. John Tanton is in control of US, Inc.
    Mr. Beck. Yes.
    Mr. Cannon. How does he control that corporation?
    Mr. Beck. He's the executive director, and he's the 
chairman of the board.
    Mr. Cannon. And does he have the right to name people to 
the board based upon the by-laws of that organization?
    Mr. Beck. I don't think so. I believe it's board-elected.
    Mr. Cannon. How would you describe his relationship with 
FAIR?
    Mr. Beck. He's a member of the board. But FAIR is not a 
part of US, Inc.
    Mr. Cannon. I understand that.
    Mr. Beck. Yes.
    Mr. Cannon. But it is a part of the family of Tanton 
groups.
    Mr. Beck. That's right.
    Mr. Cannon. And while he's a member of that board, you're 
aware of it obviously, do you think that he asserts significant 
control or direction of FAIR?
    Mr. Beck. It's really not appropriate for me as part of 
another organization to talk about--I mean, you really need to 
have people in from FAIR if you want to talk about how FAIR's 
organization works.
    Mr. Cannon. Do you know people at FAIR?
    Mr. Beck. Yes, I know people at FAIR.
    Mr. Cannon. Do you talk to them about what their 
organization is doing? I'm not asking you for what's in their 
brains. I'm asking you for what they've said to you.
    Mr. Beck. Yes, I talk to people at FAIR.
    Mr. Cannon. And have they indicated to you that Dr. Tanton 
controls FAIR?
    Mr. Beck. No, I never heard that.
    Mr. Cannon. Have they indicated that he's highly persuasive 
in the direction of FAIR?
    Mr. Beck. I've never heard that.
    Mr. Cannon. Have you ever heard any of them talk about the 
American Patrol?
    Mr. Beck. No.
    Mr. Cannon. It is a racist group that tries to capture 
people sneaking across the border. Are you familiar with them 
at all?
    Mr. Beck. I am very familiar. Read the papers.
    Mr. Cannon. That's another group that has been--Mr. Tanton 
sits on the advisory board of that group.
    Mr. Beck. Who's on the advisory board?
    Mr. Cannon. Dr. Tanton, so just another one of his little--
one of the babies to which he gave birth as an obstetrician, 
apparently. Not as a mother, apparently.
    Mr. Beck. No, I do have to say, I do know that the American 
Patrol, you should check with them, but they began on their 
own. That's a California organization.
    Mr. Cannon. Associated with the California Coalition for 
Immigration Reform.
    Mr. Beck. Not organically, I don't think.
    Mr. Cannon. Associated, yes. But they have been classified 
as a racist hate group by the Southern Poverty Law Center.
    Mr. Beck. I imagine you have been, too. I mean, I'm 
serious. They spread it pretty thick.
    Mr. Cannon. No, I am actually the object of the American 
Patrol's love. I think they call me Jabba the Hut or something 
like that. I took that, as a mesomorph, pretty personally, 
frankly.
    I assume you're aware of the numerous articles and links on 
your NumbersUSA Website that reference polls prepared for NPG 
and that are paid for and prepared for by the Negative 
Population Growth group.
    Mr. Beck. We have a page that has probably 60 polls on 
there, and I think there are a couple of Roper polls that were 
sponsored by NPG.
    Mr. Cannon. Let's see. Dr. Tanton and his Social Contract 
published your video, Immigration by the Numbers; is that true?
    Mr. Beck. No, actually, NumbersUSA published it.
    Mr. Cannon. And distributed it? Was there any relationship 
with the Social Contract Press on that?
    Mr. Beck. Yes, I mean, the Social Contract Press is one of 
the groups under the US umbrella and operates the warehouse. 
And so, our videotapes were housed in that warehouse.
    Mr. Cannon. Okay; but they didn't do anything other--they 
didn't promote them, send them out, do anything else, pay for 
the postage?
    Mr. Beck. The tapes were listed in their brochure about all 
of the products that they sold. We sold them. We sold them to 
US, Inc., and US, Inc. sold them on consignment.
    Mr. Cannon. Did you independently sell them to direct 
purchasers----
    Mr. Beck. Yes.
    Mr. Cannon. --or groups that took them?
    Did the Social Contract Press fulfill those orders when you 
sent them?
    Mr. Beck. Yes, I mean, we would have been happy if they had 
done more, but they, yes, they were helpful.
    Mr. Cannon. Are you familiar, Mr. Beck, with the word 
eugenics; for those who aren't, eugenics is the study of 
hereditary improvement of the human race by controlling 
selective breeding.
    Mr. Beck. I am.
    Mr. Cannon. And are you aware that the Pioneer Fund, which 
has been roundly distanced from your various organizations 
today, has given money to FAIR? Are you aware of that?
    Mr. Beck. I've read that in the newspapers.
    Mr. Cannon. Any reason to think it's untrue?
    Mr. Beck. What I've read in the newspapers is that FAIR 
said they did.
    Mr. Hostettler. Mr. Cannon, we have returned. Thank you 
very much.
    Mr. Cannon. The gentleman reclaims his chair. I think I 
have 5 minutes remaining, don't I? [Laughter.]
    Mr. Hostettler. [presiding.] You don't have 5 minutes in 
about eight more hearings. [Laughter.]
    Mr. Cannon. As I grab my papers together here, let me just 
thank you for your participation today. Gentlemen, it has been 
interesting.
    Mr. Hostettler. I thank the panel for your indulgence. I 
apologize for my absence. I just have one more question myself.
    And Mr. Krikorian, I probably ask you this question if you 
could respond, and that is we've heard a lot of discussion 
about sealing the borders and the cost of deportation and this 
sort of thing, and if you could answer this question, I would 
be most appreciative. How would the cost to seal the borders 
and enforce our immigration laws to end the rise in illegal 
immigration after a guest worker program has been put in place, 
because that's what we're told by everyone that supports such a 
program, that after we put this in place, we will enforce 
immigration laws? How would that compare to the cost today 
without a guest worker program?
    Mr. Krikorian. Well, if a guest worker program were to be 
combined with an effort to actually make it work properly by 
enforcing the borders, enforcing the time limits, enforcing the 
whole myriad labor protections and everything that would be 
included in such a program, the infrastructure, the immigration 
infrastructure required would have to be hugely increased; I 
mean, massively increased, because without an enormous increase 
in resources, a guest worker program would be nothing other 
than a way to supercharge illegal immigration.
    So if we want an immigration system that works, one way or 
the other, we're going to have to spend more money. The 
question is do we spend more money to control the immigration 
flow both internally by enforcing the laws inside the country 
and at the border without a guest worker program, or do we have 
a guest worker program with that? I would have to say the 
second alternative would likely be much, much more expensive 
than anything I could ever propose to control the immigration 
system without a guest worker program.
    In other words, a guest worker program would make the whole 
thing cost vastly more than it would cost otherwise.
    Mr. Hostettler. To put it in the context of previous 
comments, would we have the moral will, the political will, the 
budgetary will to----
    Mr. Krikorian. Spend that kind of money.
    Mr. Hostettler. Spend that kind of money then as opposed to 
now?
    Mr. Krikorian. If we're not doing it now, I don't see where 
the commitment to enforcement would come then, and so, what the 
result would be is that a guest worker program would do nothing 
but grease the skids for hugely increased illegal immigration.
    Mr. Hostettler. As some might argue the 1986 amnesty did.
    Mr. Krikorian. But this probably be even worse than that, 
almost certainly.
    Mr. Hostettler. Well, thank you. I want to once again thank 
the members of the panel. I appreciate your appearance here, 
your indulgence and remind the Subcommittee that all members 
shall have seven legislative days to revise and extend and 
enter extraneous material into the record.
    The Committee business being completed, we are adjourned.
    [Whereupon, at 12:59 p.m., the Subcommittee adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Material submitted by the Honorable Chris Cannon, a Representative in 
                    Congress From the State of Utah

              Letter of Support for S. 1645 and H.R. 3142

February 12, 2004

Dear Member of Congress:

    The undersigned organizations representing a broad cross-section of 
America join together to support enactment of S. 1645 and H.R. 3142, 
the Agricultural Job, Opportunity, Benefits and Security Act (AgJOBS). 
This landmark bipartisan legislation would achieve historic reforms to 
our nation's labor and immigration laws as they pertain to agriculture. 
The legislation reflects years of negotiations on complex and 
contentious issues among employer and worker representatives, and 
leaders in Congress.
    A growing number of our leaders in Congress, as well as the 
President, recognize that our nation's immigration policy is flawed and 
that, from virtually every perspective, the status quo is untenable. 
Nowhere is the status quo more untenable than in agriculture. America 
needs reforms that are compassionate, realistic and economically 
sensible--reforms that also enhance the rule of law and contribute to 
national security. AgJOBS represents the coming together of historic 
adversaries in a rare opportunity to achieve reforms supportive of 
these goals, as well as our nation's agricultural productivity and food 
security.
    AgJOBS represents a balanced solution for American agriculture, a 
critical element of a comprehensive solution, and one that can be 
enacted now with broad bipartisan support. For these reasons, we join 
together to encourage the Congress to enact S. 1645 and H.R. 3142, the 
Agricultural Job, Opportunity, Benefits, and Security Act of 2003, 
before the 2004 Congressional April Recess.

Sincerely,

AGRICULTURE COALITION FOR IMMIGRATION REFORM

AMERICAN FARM BUREAU FEDERATION

NATIONAL COUNCIL OF AGRICULTURAL EMPLOYERS

AFL-CIO

U.S. CHAMBER OF COMMERCE

U.S. HISPANIC CHAMBER OF COMMERCE

NATIONAL COUNCIL OF LA RAZA (NCLR)

MEXICAN AMERICAN LEGAL DEFENSE AND EDUCATION FUND (MALDEF)

LEAGUE OF UNITED LATIN AMERICAN CITIZENS (LULAC)

WILLIAM C.VELASQUEZ INSTITUTE

UNITED FARM WORKERS (UFW)

NATIONAL CATTLEMEN'S BEEF ASSOCIATION

NATIONAL ASSOCIATION OF STATE DEPARTMENTS OF AGRICULTURE

CATHOLIC CHARITIES USA

THE EPISCOPAL CHURCH, USA

FARMWORKER JUSTICE FUND (FJF)

AMERICAN NURSERY & LANDSCAPE ASSOCIATION

AMERICANS FOR TAX REFORM (ATR)

ASSOCIATION OF FARMWORKER OPPORTUNITY PROGRAMS (AFOP)

BIRDS EYE FOODS

DEERE & COMPANY

TYSON FOODS INC.

UNION OF NEEDLETRADES, INDUSTRIAL AND TEXTILE EMPLOYEES
  (UNITE)

UNITED EGG PRODUCERS

NATIONAL CHRISTMAS TREE ASSOCIATION

UNITED FOOD AND COMMERCIAL WORKERS UNION (UFCW)

UNITED FRESH FRUIT & VEGETABLE ASSOCIATION

U.S. APPLE ASSOCIATION

U.S. CUSTOM HARVESTERS, INC.

WESTERN GROWERS ASSOCIATION

WESTERN RANGE ASSOCIATION

WESTERN UNITED DAIRYMEN

ESSENTIAL WORKER IMMIGRATION COALITION

SERVICES EMPLOYEES INTERNATIONAL UNION (SEIU)

A. DUDA & SONS

EVANGELICAL LUTHERAN CHURCH IN AMERICA

AMERICAN HORSE COUNCIL

GENERAL BOARD OF CHURCH AND SOCIETY, THE UNITED METHODIST
  CHURCH

AGRICULTURAL AFFILIATES

AGRI-PLACEMENTS INTERNATIONAL

AL FRENCH, FORMER USDA DIRECTOR OF AG LABOR RELATIONS

NATIONAL IMMIGRATION FORUM

NATIONAL POTATO COUNCIL

NEW ENGLAND APPLE COUNCIL

COBANK

FIRST PIONEER FARM CREDIT

FARM LABOR ORGANIZING COMMITTEE, AFL-CIO (FLOC)

NATIONAL ASSOCIATION OF ELECTED AND APPOINTED LATINO
  OFFICIALS (NALEO)

AMERICAN IMMIGRATION LAWYERS ASSOCIATION (AILA)

NATIONAL CHICKEN COUNCIL

NATIONAL COUNCIL OF CHURCHES

NATIONAL MILK PRODUCERS FEDERATION

SOUTH EAST DAIRY FARMERS ASSOCIATION

NORTH EAST DAIRY PRODUCERS ASSOCIATION

NORTHWEST HORTICULTURAL COUNCIL

WINEAMERICA, THE NATIONAL ASSOCIATION OF AMERICAN WINERIES

WINEGRAPE GROWERS OF AMERICA

AMERICAN JEWISH COMMITTEE (AJA)

AMERICAN MUSHROOM INSTITUTE

CAMPAIGN FOR LABOR RIGHTS

COOPERATIVE PRODUCERS, INC.

COOPERATIVE THREE, INC.

COUNCIL OF NORTHEAST FARMER COOPERATIVES

DAIRYLEA COOPERATIVE

AMERICAN FROZEN FOOD INSTITUTE

NATIONAL MIGRANT AND SEASONAL HEAD START ASSOCIATION

FOR OUR GRANDCHILDREN

GULF CITRUS GROWERS ASSOCIATION

GULF HARVESTING, INC.

LABOR COUNCIL FOR LATIN AMERICAN ADVANCEMENT (LCLAA)

NATIONAL LEGAL AID & DEFENDER ASSOCIATION (NLADA)

LEADERSHIP CONFERENCE ON CIVIL RIGHTS (LCCR)

MOARK LLC

TURFGRASS PRODUCERS INTERNATIONAL

SOCIETY OF AMERICAN FLORISTS

MAFO

MONROVIA GROWERS (CA, OR, GA, NC)

NATIONAL ASIAN PACIFIC AMERICAN LEGAL CONSORTIUM (NAPALC)

NATIONAL EMPLOYMENT LAW PROJECT

ARAB AMERICAN INSTITUTE (AAI)

NATIONAL FARM WORKER MINISTRY

NATIONAL KOREAN AMERICAN SERVICE & EDUCATION CONSORTIUM
  (NAKASEC)

NORTHEAST FARM CREDIT REGIONAL COUNCIL

OFA--AN ASSOCIATION OF FLORICULTURE PROFESSIONALS

PAN AMERICAN RECRUITING

NORTHWOODS AGRI WOMEN

SALVADORAN AMERICAN NATIONAL NETWORK

PEOPLE FOR THE AMERICAN WAY

PERENNIAL PLANT ASSOCIATION

POLISH AMERICAN CONGRESS

PACIFIC EGG AND POULTRY ASSOCIATION

SOUTHERN NURSERY ASSOCIATION

TOGETHER IN AMERICA

WESTERN CAROLINAS HORTICULTURAL ALLIANCE

YANKEE FARM CREDIT

TELAMON CORPORATION

SOUTHERN POVERTY LAW CENTER

CATHOLIC MIGRANT FARMWORKER NETWORK

HOUSING ASSISTANCE COUNCIL


          * * * * * * *


ALABAMA NURSERY & LANDSCAPE ASSOCIATION

AMANECER (AZ)

ARIZONA NURSERY ASSOCIATION

AGRICULTURAL COUNCIL OF ARKANSAS

ARKANSAS GREEN INDUSTRY ASSOCIATION

ALLIED GRAPE GROWERS (CA)

ALMOND HULLERS AND PROCESSORS (CA)

CALIFORNIA ASSOCIATION OF NURSERIES AND GARDEN CENTERS

CALIFORNIA ASSOCIATION OF WINEGRAPE GROWERS

CATHOLIC CHARITIES OF THE DIOCESE OF SANTA ROSA (CA)

CALIFORNIA APPLE COMMISSION

CALIFORNIA ASSOCIATION OF WINEGRAPE GROWERS

CALIFORNIA FLORAL COUNCIL

CALIFORNIA FARM BUREAU FEDERATION

CALIFORNIA GRAIN AND FEED ASSOCIATION

CALIFORNIA GRAPE & TREE FRUIT LEAGUE

CALIFORNIA INSTITUTE FOR RURAL STUDIES

CALIFORNIA LANDSCAPE CONTRACTORS ASSOCIATION, INC

CALIFORNIA RURAL LEGAL ASSISTANCE FOUNDATION (CRLAF)

CALIFORNIA SEED ASSOCIATION

CALIFORNIA STRAWBERRY COMMISSION

CALIFORNIA WOMEN FOR AGRICULTURE

CATHOLIC CHARITIES, SAN DIEGO

CENTRAL AMERICAN RESOURCE CENTER (CA)

LA CLINICA DE LA RAZA (CA)

COALITION FOR HUMANE IMMIGRANT RIGHTS OF LOS ANGELES (CHIRLA)

FRANCISCAN FRIARS OF ST. BARBARA PROVINCE (CA)

HARRY SINGH & SONS (CA)

IMPERIAL VALLEY VEGETABLE GROWERS ASSOCIATION

JOHN HARRIS FARMS INC (CA)

KOREAN RESOURCE CENTER, LOS ANGELES

LASSEN CANYON NURSERY, INC. (CA)

LOS ANGELES COALITION TO END HUNGER & HOMELESSNESS

MARIN INTERFAITH TASK FORCE FOR THE AMERICAS

NISEI FARMERS LEAGUE (CA)

NORTHERN CALIFORNIA GROWERS ASSOCIATION

NURSERY GROWERS OF SOUTHERN CALIFORNIA

OUR LADY OF VICTORY MISSIONARY SISTERS (CA)

RAISIN BARGAINING ASSOCIATION (CA)

VENTURA COUNTY (CA) AGRICULTURAL ASSOCIATION

VENTURA COUNTY (CA) FARM BUREAU

SOUTHERN CALIFORNIA ECUMENICAL COUNCIL

UNITED FOOD AND COMMERCIAL WORKERS UNION (UFCW)
  LOCAL 1442 (CA)

UNIVERSAL IMMIGRATION SERVICE (CA)

COLORADO NURSERY ASSOCIATION

COLORADO SUGAR BEET GROWERS ASSOCIATION

ESTES VALLEY MULTICULTURAL CONNECTIONS (CO)

NORTHERN COLORADO ONION ASSOCIATION

SISTERS OF LORETTO (CO)

CONNECTICUT FARM BUREAU

CONNECTICUT NURSERY & LANDSCAPE ASSOCIATION

CONNLEAF, INC (CT)

H.F. BROWN INC. (CT)

THE LYMAN FARM, INC. (CT)

DELAWARE NURSERY & LANDSCAPE ASSOCIATION

LATIN AMERICAN COMMUNITY CENTER (DE)

LATIN AMERICAN YOUTH CENTER (DC)

MIGRANT LEGAL ACTION PROGRAM (DC)

BIG CYPRESS HOUSING CORPORATION (FL)

CENTRO CAMPESINO (FL)

CARLOS ROSARIO INT'L CAREER CENTER AND PUBLIC CHARTER SCHOOL

CARIBBEAN IMMIGRANT SERVICES INC. (FL)

CATHOLIC CHARITIES OF ORLANDO, INC.

COALITION OF FLORIDA FARMWORKER ORGANIZATIONS

EVERGLADES COMMUNITY ASSOCIATION, INC.

EVERGLADES HAMMOCK, INCORPORATED

FAIR FOOD AMERICA (FL)

FARMWORKER ASSOCIATION OF FLORIDA, INC

FARMWORKERS SELF-HELP (FL)

THE FELLSMERE COMMUNITY ENRICHMENT PROGRAM (FL)

FLORIDA CATHOLIC CONFERENCE

FLORIDA CITRUS MUTUAL

FLORIDA CITRUS PACKERS, INC.

FLORIDA FARM BUREAU FEDERATION

FLORIDA IMMIGRANT ADVOCACY CENTER

FLORIDA IMPACT

FLORIDA FRUIT AND VEGETABLE ASSOCIATION

FLORIDA NURSERYMEN & GROWERS ASSOCIATION

FLORIDA STRAWBERRY GROWERS ASSOCIATION

FUNDACION SALVADORENA DE LA FLORIDA

GUATEMALAN UNITY INFORMATION CENTER (FL)

IMMOKALEE MULTICULTURAL MULTIPURPOSE COMMUNITY ACTION
  AGENCY, INC. (FL)

INDIAN RIVER CITRUS LEAGUE (FL)

LEGAL AID SERVICE OF BROWARD COUNTY, INC. (FL)

LIVE OAK VILLAS, LLC (FL)

LITTLE MANATEE HOUSING CORPORATION (FL)

MIGRANT FARMWORKER JUSTICE PROJECT, FLORIDA LEGAL SERVICES,
  INC.

MUJER (FL)

PINELLAS SUPPORT COMMITTEE (FL)

RANCH ONE COOPERATIVE, INC. (FL)

REDLANDS CHRISTIAN MIGRANT ASSOCIATION (FL)

RETAIL SYSTEMS CONSULTING (FL)

SARASOTA/MANATEE FARMWORKER SUPPORTERS

SISTERS OF THE HUMILITY OF MARY--INDIAN RIVER (FL)

SKINNER NURSERIES (FL)

SUGAR CANE GROWERS CO-OP OF FLORIDA

UNITE FOR DIGNITY, INC. (FL)

CENTER FOR PAN ASIAN COMMUNITY SERVICES (GA)

GEORGIA GREEN INDUSTRY ASSOCIATION

GEORGIA RURAL URBAN SUMMIT

IDAHO COMMISSION ON HISPANIC AFFAIRS

IDAHO COMMUNITY ACTION NETWORK

IDAHO FARM BUREAU

IDAHO FOOD PRODUCERS

IDAHO GRAIN PRODUCERS ASSOCIATION

IDAHO GROWER SHIPPERS ASSOCIATION

IDAHO MIGRANT COUNCIL

IDAHO NURSERY & LANDSCAPE ASSOCIATION

POTATO GROWERS OF IDAHO

SNAKE RIVER FARMERS ASSOCIATION (ID/MT)

CENTRO ROMERO (IL)

CHICAGO JOBS WITH JUSTICE

CONGUATE (IL)

DISCIPLES JUSTICE ACTION NETWORK (DISCIPLES OF CHRIST) (IL)

HEARTLAND ALLIANCE FOR HUMAN NEEDS & HUMAN RIGHTS (IL)

HISPANIC LAWYER'S ASSOCIATION OF ILLINOIS

ILLINOIS COALITION FOR IMMIGRANT AND REFUGEE RIGHTS

ILLINOIS LANDSCAPE CONTRACTORS ASSOCIATION

ILLINOIS MIGRANT COUNCIL

ILLINOIS NURSERYMENS' ASSOCIATION

IMMIGRATION PROJECT (IL)

INSTITUTO DEL PROGRESO LATINO (IL)

KOREAN AMERICAN RESOURCE & CULTURAL CENTER (KRCC), CHICAGO

LAW OFFICE OF SHIRLEY SADJADI (IL)

LAW OFFICE OF DOUGLAS W. WORRELL, CHTD. (IL)

THE MIDWEST IMMIGRANT & HUMAN RIGHTS CENTER (IL)

PROJECT IRENE (IL)

THE RESURRECTION PROJECT IN CHICAGO

CENTRAL INDIANA JOBS WITH JUSTICE

INDIANA NURSERY & LANDSCAPE ASSOCIATION

IMMIGRATION OUTREACH OFFICE, CATHOLIC CHARITIES/ARCHDIOCESE
  OF DUBUQUE

IMMIGRANT RIGHTS NETWORK OF IOWA AND NEBRASKA

IOWA NURSERY & LANDSCAPE ASSOCIATION

IOWA PROJECT

SISTERS OF CHARITY (IA)

EL CENTRO, INC.--KANSAS

KANSAS FARM BUREAU

KANSAS NURSERY & LANDSCAPE ASSOCIATION

KENTUCKY NURSERY & LANDSCAPE ASSOCIATION

CATHOLIC CHARITIES ARCHDIOCESE OF NEW ORLEANS

FARM CREDIT OF MAINE

MAINE NURSERY & LANDSCAPE ASSOCIATION

ANGELICA NURSERIES (MD)

BELL NURSERY (MD)

CASA OF MARYLAND

CENTRO DE LA COMUNIDAD, INC (MD)

JOHN SHORB LANDSCAPING, INC. (MD)

MARYLAND AQUATIC NURSERIES, INC.

MARYLAND NURSERY& LANDSCAPE ASSOCIATION

MIGRANT AND REFUGEE CULTURAL SUPPORT, INC. (MIRECS) (MD)

QUINN'S KINGSVILLE FARMS (MD)

ROBIN HILL FARM NURSERY (MD)

SPEAKMAN NURSERIES, INC. (MD)

CENTRO PRESENTE (MA)

IRISH IMMIGRATION CENTER (MA)

MASSACHUSETTS FARM BUREAU

MASSACHUSETTS IMMIGRANT AND REFUGEE ADVOCACY COALITION

MASSACHUSETTS NURSERY & LANDSCAPE ASSOCIATION

EASTERN MICHIGAN UNIVERSITY'S BILINGUAL BICULTURAL EDUCATION
  TEACHER TRAINING PROGRAM

MICHIGAN FARM BUREAU

MICHIGAN MIGRANT LEGAL ASSISTANCE PROJECT

MICHIGAN NURSERY & LANDSCAPE ASSOCIATION

LEITZ FARMS LLC (MI)

ZELENKA NURSERY, LLC (MI)

JEWISH COMMUNITY ACTION (MN)

MINNESOTA NURSERY & LANDSCAPE ASSOCIATION

ST. JOSEPH THE WORKER CHURCH (MN)

CENTRO SAN MARTIN DEPORRES (MS)

MISSISSIPPI IMMIGRANT RIGHTS ALLIANCE (MIRA!)

OFFICE OF HISPANIC MINISTRY, CATHOLIC DIOCESE OF JACKSON (MS)

RICH SMITH, PASTOR OF ST. ANN CATHOLIC CHURCH, PAULDING, MS

THE SOCIAL CONCERNS COMMITTEE OF THE CATHOLIC COMMUNITY OF
  ST. FRANCIS OF ASSISI (MS)

DAUGHTERS OF CHARITY IN ST. LOUIS (MO)

HUMAN RIGHTS ACTION SERVICE. ST.LOUIS (MO)

LATIN AMERICAN ACTION TEAM, GIDDINGS-LOVEJOY PRESBYTERY (MO)

MISSION EFFECTIVENESS, SCHOOL SISTERS OF NOTRE DAME, ST. LOUIS

MISSOURI NURSERY & LANDSCAPE ASSOCIATION

MONTANA NURSERY & LANDSCAPE ASSOCIATION

NEBRASKA APPLESEED CENTER FOR LAW IN THE PUBLIC INTEREST

NEBRASKA NURSERY & LANDSCAPE ASSOCIATION

CULINARY WORKERS UNION, LOCAL 226--NEVADA

NEVADA LANDSCAPE ASSOCIATION

COMITE DE APOYO A LOS TRABAJADORES AGRICOLAS (NJ)

IRRIGATION ASSOCIATION OF NEW JERSEY

MEXICAN AMERICAN ASSOCIATION OF SOUTHERN NEW JERSEY

MIGRATION AND REFUGEE SERVICES DIOCESE OF TRENTON

NEW JERSEY FARM BUREAU FEDERATION

NEW JERSEY IMMIGRATION POLICY NETWORK, INC.

NEW JERSEY NURSERY & LANDSCAPE ASSOCIATION

RURAL HOUSING INCORPORTED (NM)

BRENNAN CENTER FOR JUSTICE AT NEW YORK UNIVERSITY SCHOOL OF
  LAW

CABRINI IMMIGRANT SERVICES (NY)

CAYUGA MARKETING, LLC (NY)

CENTRO HISPANO CUZCATLAN (NY)

CENTRO INDEPENDIENTE DE TRABAJADORES AGRICOLOS (CITA)--(NY)

CENTRO SALVADORENO, INC. (NY)

CHRISTIAN BROTHERS (NY)

COMMISSION ON PEACE AND JUSTICE OF THE ROMAN CATHOLIC
  DIOCESE OF ALBANY, NY

EMPIRE STATE COUNCIL OF AGRICULTURAL ORGANIZATIONS (NY)

FARM CREDIT OF WESTERN NEW YORK

FARMWORKER LEGAL SERVICES OF NEW YORK

LAKE PLACID GROVES LLC (NY)

NEW YORK ASSOCIATION FOR NEW AMERICANS

NEW YORK FARM BUREAU

NEW YORK STATE HORTICULTURAL SOCIETY

NEW YORK STATE APPLE GROWERS ASSOCIATION

NEW YORK STATE CHERRY GROWERS ASSOCIATION

NEW YORK STATE NURSERY & LANDSCAPE ASSOCIATION

NEW YORK STATE VEGETABLE GROWERS ASSOCIATION

PRO-FAC COOPERATIVE (NY)

PUBLIC POLICY COMMITTEE, ROMAN CATHOLIC DIOCESE OF ROCHESTER,
  NY

RURAL AND MIGRANT MINISTRY (NY)

TORREY FARMS (NY)

WILLET DAIRY(NY)

WORKPLACE PROJECT (NY)

YKASEC--EMPOWERING THE KOREAN AMERICAN COMMUNITY (NY)

EL PUEBLO, INC (NC)

EPISCOPAL FARMWORKER MINISTRY (NC)

HIGH COUNTY AMIGOS INC. (NC)

IMMACULATE CONCEPCION CHURCH (NC)

LATINO COMMUNITY CREDIT UNION (NC)

NASH PRODUCE COMPANY, INC. (NC)

NORTH CAROLINA ASSOCIATION OF NURSERYMEN

NORTH CAROLINA FARM BUREAU

NORTH CAROLINA JUSTICE AND COMMUNITY DEVELOPMENT CENTER

NORTH CAROLINA LANDSCAPE ASSOCIATION

STUDENT ACTION WITH FARMWORKERS (NC)

TRIANGLE FRIENDS OF THE UNITED FARMWORKERS (NC)

VITALINK (NC)

ZELENKA NURSERY, LLC (NC)

ADVOCATES FOR BASIC LEGAL EQUALITY (OH)

EN CAMINO, MIGRANT AND IMMIGRANT OUTREACH, DIOCESE OF TOLEDO

HIGH STAKES FARMS (OH)

IMMIGRANT WORKER PROJECT (OH)

NORTHERN OHIO GROWERS ASSOCIATION

OFFICE OF HISPANIC MINISTRY, CATHOLIC DIOCESE OF CLEVELAND

OHIO FARM BUREAU FEDERATION, INC.

OHIO FRUIT GROWERS SOCIETY

OHIO LANDSCAPERS ASSOCIATION

OHIO NURSERY & LANDSCAPE ASSOCIATION

OHIO VEGETABLE & POTATO GROWERS ASSOCIATION

UNITED CHURCH OF CHRIST JUSTICE AND WITNESS MINISTRIES (OH)

VLASIC PICKLE GROWERS (OH)

ASIAN AMERICAN COMMUNITY SERVICE ASSOCIATION, INC

OKLAHOMA NURSERY & LANDSCAPE ASSOCIATION

VENEZUELAN AMERICAN ASSOCIATION OF OKLAHOMA

CASA OF OREGON

FARMWORKER HOUSING DEVELOPMENT CORPORATION (OR)

HOOD RIVER GROWER-SHIPPER ASSOCIATION (OR)

NORTHWEST WORKERS' JUSTICE PROJECT (OR)

OREGON ASSOCIATION OF NURSERIES

OREGON FARM BUREAU

OREGON FARM WORKER MINISTRY

OREGON LAW CENTER

PINEROS Y CAMPESINOS UNIDOS DEL NOROESTE (PCUN) (OR)

EL VISTA ORCHARDS (WEXFORD, PA)

FIVE FORKS FRUIT (WAYNESBORO, PA)

FRIENDS OF FARMWORKERS (PA)

HOLLABAUGH BROTHERS, INC. (BIGLERVILLE, PA)

PENNSYLVANIA FARM BUREAU

PENNSYLVANIA IMMIGRATION AND CITIZENSHIP COALITION

PENNSYLVANIA LANDSCAPE & NURSERY ASSOCIATION

PETER ORCHARDS (GARDNERS, PA)

SISTERS OF THE HUMILITY OF MARY--VILLA MARIA, PENNSYLVANIA--
  (SISTER RUTH MARY POWERS)

STATE HORTICULTURAL ASSOCIATION OF PENNSYLVANIA

FEINSTEIN CENTER FOR CITIZENSHIP & IMMIGRATION SERVICES (RI)

RHODE ISLAND NURSERY & LANDSCAPE ASSN, INC.

AMICK FARMS (SC)

SOUTH CAROLINA GREENHOUSE GROWERS ASSOCIATION

SOUTH CAROLINA NURSERY & LANDSCAPE ASSOCIATION

SOUTH CAROLINA UPSTATE TREE GROWERS ASSOCIATION

CATHOLIC HISPANIC MINISTRY, DIOCESE OF KNOXVILLE (TN)

MID-SOUTH INTERFAITH NETWORK FOR ECONOMIC JUSTICE (TN)

TENNESSEE IMMIGRANT AND REFUGEE RIGHTS COALITION

TENNESSEE NURSERY & LANDSCAPE ASSOCIATION

CENTRO DE SALUD FAMILIAR LA FE (TX)

ELLISON'S (TX)

EL PASO CENTRAL LABOR UNION

EQUAL JUSTICE CENTER (TX)

HOUSTON COMMUNITY SERVICES

JOVENES INMIGRANTES POR UN FUTURO MEJOR (TX)

MIDLAND COMMUNITY DEVELOPMENT CORP. (TX)

MIGRANT CLINICIANS NETWORK, INC (TX)

RIO GRANDE VALLEY SUGAR GROWERS, INC. (TX)

TEXAS AGRICULTURAL COOPERATIVE COUNCIL

TEXAS NURSERY & LANDSCAPE ASSOCIATION

TEXAS POULTRY FEDERATION

TEXAS EGG COUNCIL

TEXAS BROILER COUNCIL

TEXAS POULTRY IMPROVEMENT ASSOCIATION

TEXAS PRODUCE ASSOCIATION

TEXAS SEED TRADE ASSOCIATION

TEXAS STATE FLORIST'S ASSOCIATION

TEXAS TURKEY FEDERATION

TEXAS VEGETABLE ASSOCIATION

TURFGRASS PRODUCERS OF TEXAS

UTAH FARM BUREAU

UTAH NURSERY & LANDSCAPE ASSOCIATION

CATHOLIC DIOCESE OF RICHMOND, VIRGINIA

HAMPTON ROADS COALITION FOR WORKERS' JUSTICE

HISPANIC COMMITTEE OF VIRGINIA

REFUGEE AND IMMIGRATION SERVICES, CATHOLIC DIOCESE OF
  RICHMOND

SOUTHWEST VIRGINIA NURSERY AND LANDSCAPE ASSOCIATION

VIRGINIA GREEN INDUSTRY COUNCIL

VIRGINIA COUNCIL OF CHURCHES

VIRGINIA JUSTICE CENTER FOR FARM AND IMMIGRANT WORKERS

VIRGINIA NURSERY & LANDSCAPE ASSOCIATION

EL CENTRO DE LA RAZA (WA)

GRUPO MEXICO OF WASHINGTON STATE

LUTHERAN PUBLIC POLICY OFFICE OF WASHINGTON STATE

MARSING AGRICULTURAL LABOR SPONSOR COMMITTEE (WA)

UNDERWOOD FRUIT AND WAREHOUSE COMPANY (WA)

WASHINGTON ASSOCIATION OF CHURCHES (WA)

WASHINGTON GROWERS CLEARING HOUSE ASSOCIATION

WASHINGTON GROWERS LEAGUE

WASHINGTON POTATO & ONION ASSOCIATION

WASHINGTON STATE COMMISSION ON HISPANIC AFFAIRS

WASHINGTON STATE NURSERY & LANDSCAPE ASSOCIATION

WASHINGTON SUSTAINABLE FOOD & FARMING NETWORK

COMMERCIAL FLOWER GROWERS OF WISCONSIN

GARDENS BEAUTIFUL GARDEN CENTERS (WI)

GROUNDS MANAGEMENT ASSOCIATION OF WISCONSIN

NORTHERN CHRISTMAS TREE GROWERS & NURSERY (WI)

OFFICE OF INTL. STUDENT SERVICES, UNIV. OF WISCONSIN-PLATTEVILLE

SOUTH CENTRAL FEDERATION OF LABOR, AFL-CIO (WI)

UMOS (WI)

WISCONSIN COUNCIL OF CHURCHES

WISCONSIN LANDSCAPE CONTRACTORS ASSOCIATION

WISCONSIN LANDSCAPE FEDERATION

WISCONSIN NURSERY ASSOCIATION

WISCONSIN SOD PRODUCERS

IVAN KOHAR PARRA, EXECUTIVE DIRECTOR, LATINO COMMUNITY
  DEVELOPMENT CENTER (WI)

                   Prepared Statement of Bob Stallman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Americans for Tax Reform (ATR) Legislative Alert

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Letter from Robert Guenther

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Release from the U.S. Chamber of Commerce

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      The Weekly Standard Article

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Release from the Essential Worker Immigration Coalition (EWIC)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Prepared Statement of Dr. James S. Holt

    Mr. Chairman and members of the Subcommittee:
    I appreciate the opportunity to file this statement on behalf of 
the Agricultural Coalition for Immigration Reform and the National 
Council of Agricultural Employers describing the role of immigrant 
labor in the United States agricultural work force and the need to 
reform the H-2A alien agricultural worker program and adjust the 
current agricultural work force to legal status.
    The Agricultural Coalition for Immigration Reform (ACIR) is a 
national coalition of more than 100 national and regional agricultural 
organizations devoted to reforming the H-2A temporary worker program 
and providing legal status for the experienced agricultural work force 
on which our nation depends. The National Council of Agricultural 
Employers (NCAE) is a Washington, D.C. based national association 
representing growers and agricultural organizations on agricultural 
labor and employment issues and an organizer of the ACIR. The 
membership of the ACIR and the NCAE membership includes employers in 
agriculture and the ``green'' industries from all 50 states, and employ 
more than 75 percent of the nation's hired agricultural workforce. The 
membership of the ACIR and the NCAE were actively involved in the 
legislative processes that resulted in the enactment of the Immigration 
Reform and Control Act (IRCA) of 1986, and have been actively involved 
in immigration issues, and particularly H-2A reform, ever since. The 
ACIR and the NCAE have the background and experience to provide 
meaningful comments and insights into issues concerning immigration 
policy and how it affects the employment practices of its members' 
businesses and the availability of an adequate agricultural labor 
supply, and how these programs impact working Americans and Americans 
seeking employment, the subject of today's hearing.
    My name is James S. Holt. I am Senior Economist with the management 
labor law firm of McGuiness, Norris & Williams and the Employment 
Policy Foundation in Washington D.C. I serve as a consultant on labor 
and immigration matters to the ACIR and the NCAE. I am an agricultural 
economist, and have spent my entire professional career specializing in 
labor, human resource and immigration issues, primarily with respect to 
agriculture. I served 16 years on the agricultural economics faculty of 
The Pennsylvania State University, and for more than 20 years have been 
a consultant here in Washington D.C. I also serve as a technical 
consultant to most of the current users of the H-2A program and to 
employers and associations who are attempting to access the program.
    In summary, my testimony here today is that the agricultural 
industry faces an imminent labor catastrophe. The commercial sector of 
U.S. agriculture is absolutely dependent on hired labor. One of every 
$8 of farm production expenses goes to pay for hired and contract 
labor. In the labor intensive fruit, vegetable and horticultural 
sectors of agriculture, hired labor accounts for closer to $1 of every 
$3 to $4 of farm production expenses. Yet the agricultural industry is 
heavily dependent on aliens who are not legally authorized to work in 
the United States. Under current law there is nothing employers can do 
about this, and no alternative source of labor to turn to, even if 
employers could determine who was and who was not legal. Increased 
efforts to stem the flow of illegal immigration and secure the nation's 
borders, as well as initiatives to ensure accurate payroll accounting 
for Social Security purposes, make it impossible for the Congress and 
the Nation to continue to ignore this problem.
    The entire U.S. economy is facing a shortage of unskilled manual 
labor. But seasonal and migratory agricultural jobs are the last 
claimants for these workers. The current federal program which is 
supposed to address the problem of insufficient seasonal agricultural 
labor--the H-2A provisions of the Immigration and Nationality Act--is 
paralyzed and unworkable. The H-2A program must be reformed, and the 
current agricultural work force must be provided with a means for 
adjusting to legal status. The continued economic viability of U.S. 
agriculture, and the jobs of millions of Americans who provide goods 
and services to U.S. agricultural producers and who handle and process 
U.S. agricultural products, are dependent upon an adequate work force 
on U.S. farms. We urge this Committee to support efforts to address 
this problem in the current Congress.

       THE HIRED AGRICULTURAL LABOR PROBLEM IN THE UNITED STATES.

    While the United States agricultural industry is overwhelmingly an 
industry of family farms and small businesses, it is also heavily 
dependent on hired labor. Labor is an essential input in farming, and 
essentially all commercial farms rely to a greater or lesser degree on 
hiring labor to perform certain essential tasks. The most recent U.S. 
Census of Agriculture reports more than 650 thousand U.S. farms hired 
labor directly, and more than 3.4 million hires by farmers annually. 
More than 225 thousand farms also hire contract labor. Total 
expenditures for hired and contract labor are estimated at $22.5 
billion. This is about $1 of every $8 in farm production expenses. 
Farmers spend more in hired labor expenses than they spend for such 
essential agricultural inputs as seed, fertilizer, agricultural 
chemicals, petroleum products, and more than farmers spend for interest 
or property taxes. In fact, after purchases of livestock and feed, 
hired labor accounts for more farm production expenditures than any 
other category of expenses reported in the Census of Agriculture. In 
the labor intensive fruit, vegetable and horticultural sectors, hired 
labor costs average 25 to 40 percent or more of total production costs.
    In modern U.S. agriculture, most production processes are 
mechanized, even in the production of labor intensive commodities. 
Typically, the farm family and perhaps a few year 'round hired workers 
do the farm work most of the year. But seasonal hired workers are often 
needed for short periods to perform certain very labor intensive tasks 
such as harvesting, thinning or pruning. In many crops these labor 
intensive tasks, particularly harvesting, must be performed during very 
brief windows of opportunity, the timing of which can not be predicted 
with precision, and which are beyond growers' control. The availability 
of sufficient seasonal labor at the right time to perform these labor 
intensive functions can determine whether or not the farm produces a 
saleable product for that growing season.
    The United States has some of the best climatic and natural 
resources in the world for agricultural production, and especially for 
the production of labor intensive fruits, vegetables and horticultural 
crops. In a world economy where all resources, including labor, were 
mobile, and there were no trade barriers, and where all countries could 
specialize in those commodities in which they have a comparative 
advantage, the North American continent would be, as it in fact is, one 
of the major world producers of agricultural commodities, including 
fruits, vegetables and horticultural specialties.
    During the last several decades, markets for labor intensive 
commodities have expanded dramatically in the United States and 
throughout the world. This expansion has resulted from a number of 
factors, including technological developments in transportation and 
storage, increasing incomes both in the United States and worldwide, 
and changes in consumer tastes and preferences favoring more fruits and 
vegetables in the diet. National markets for labor intensive 
commodities, once protected by trade barriers and the perishability of 
the commodities themselves, have now become global markets, due to 
technological improvements and the strong drive for freer trade that 
has occurred over the past two decades.
    Although it has been little regarded in policy circles, U.S. 
farmers have participated fully in the dramatic growth in domestic and 
world markets for labor intensive agricultural commodities. U.S. farm 
receipts from fruit and horticultural specialties have more than 
doubled, and from vegetables more than tripled, since 1980. Labor 
intensive commodities are the fastest growing sector of U.S. 
agriculture. At the same time, agricultural labor productivity has also 
continued to improve. As a result, while production of labor intensive 
commodities has expanded dramatically over the past two decades, 
average hired arm employment has declined by about one quarter. But the 
expansion of labor intensive agriculture has created tens of thousands 
of new non-farm jobs for U.S. workers in the upstream and downstream 
occupations that support the production and handling of U.S. farm 
production for consumption and export.
    Aliens have always been a significant source of agricultural labor 
in the United States. In particular, labor from Mexico has supported 
the development of irrigated agriculture in the western states from the 
inception of the industry. As the U.S. economy has expanded, generating 
millions of new non-farm job opportunities, and as domestic farm 
workers have been freed from the necessity to migrate by the extension 
of unemployment insurance to agricultural workers in 1976, and the 
federal government has spent billions of dollars to settle domestic 
migratory farm workers out of the migrant stream and train them for 
permanent non-farm jobs in their home communities, U.S. workers have 
moved out of the hired agricultural work force, especially the migrant 
work force. These U.S. workers have been replaced by alien workers, 
largely from Mexico, Central America and the Caribbean.
    As a result, the U.S. agricultural work force has become 
increasingly alien and increasingly undocumented. The U.S. Department 
of Labor's National Agricultural Worker Survey (NAWS) reported in its 
1998-99 survey that 52 percent of seasonal agricultural workers working 
in the United States self-identified as not authorized to work in the 
United States. This was an increase from 37 percent in the previous 
survey only 3 years earlier, and from only about 12 percent a decade 
earlier. More than 80 percent of the new seasonal agricultural labor 
force entrants in the NAWS survey self identified as not authorized to 
work in the U.S. Most experts agree that the NAWS data on legal status 
based on self identification by survey respondents are likely a very 
conservative estimate of the illegal alien agricultural work force. 
Evidence based on government I-9 enforcement actions, and verification 
of Social Security information by the Social Security Administration, 
often results in 70 to 80 percent or more of workers' documents being 
determined to be invalid or not pertaining to the person who presented 
them.
    For more than 50 years there has also been a legal alien 
agricultural worker admission program in the U.S. This program was 
enacted as the ``H-2'' program in the Immigration and Nationality Act 
of 1952. In 1986, Congress attempted to streamline the program and 
redesignated it ``H-2A.'' In recent years, use of the H-2A program has 
declined to a low of approximately 15,000 workers annually, although in 
the past several years the number of admissions has increased 
substantially, to about 45,000 workers annually.
    The H-2A program has been used principally on the East coast in 
fruit, vegetables, tobacco, horticultural crops, and until recently, 
sugar cane. The program's structure and requirements evolved from 
government-to-government treaty programs which preceded it. Over the 
years the program has become encrusted with regulations promulgated by 
the Department of Labor and adverse legal decisions generated by 
opponents of the program which have rendered it unworkable and 
uneconomic for many agricultural employers who face labor shortages. 
Now that government policy is eliminating the illegal alien work force, 
many growers are caught between an unworkable and uneconomical H-2A 
program and the prospect of insufficient labor to operate their 
businesses.
    The illegal alien seasonal agricultural work force in the United 
States consists of two groups. Some are aliens who have permanently 
immigrated to the United States and found employment in agriculture. 
Typically, these illegal immigrants start out in seasonal agricultural 
work, and move into more permanent agricultural or non-agricultural 
jobs as they become settled in the United States. The other component 
of the U.S. illegal alien seasonal agricultural work force are 
nonimmigrant migrant farm workers who have homes and families in 
Mexico. Many of them are small peasant farmers. The adult workers from 
these families, usually males, migrate seasonally to the United States 
to do agricultural work. The most recent Department of Labor statistics 
show that 42 percent of U.S. seasonal agricultural workers have their 
home base abroad, while 58 percent have their home base in the U.S. 
Recent anecdotal evidence suggests that as a result of intensified 
border enforcement, some would-be non-immigrant alien farm workers are 
finding it necessary to remain in the United States during the off 
season rather than returning home, for fear that they will not be able 
to get back in or because of the high cost of doing so.
    Congressional efforts to control illegal immigration began with the 
landmark Immigration Control and Reform Act (IRCA) of 1986. The theory 
of IRCA was to eliminate the economic ``magnet'' to illegal immigration 
by requiring employers to examine documents evidencing authorization to 
work in the United States prior to hiring workers. It did not work for 
at least three reasons. One was that one of the motives for illegal 
immigration to the U.S. was not simply to better one's welfare, but to 
survive, literally and figuratively. This survival drive overwhelmed 
any fear of employer sanctions. The second was that Congressional 
concern about invasion of privacy and big brotherism resulted in an 
employment documentation process that was so compromised that it was 
easily evaded by document counterfeiting. The third was that a serious 
effort to enforce IRCA, including the provisions against document 
counterfeiting, was never mounted. The result was that IRCA had little 
impact on the volume of illegal immigration, and a perverse impact on 
the hiring process. Whereas previously an employer who suspected a 
prospective worker was illegal may have been willing to risk refusing 
to hire that worker, the discrimination provisions of IRCA discouraged 
employers from risking refusing to hire any worker who had genuine 
appearing documents, even if the employer suspected the worker was 
illegal.
    With the passage of the Illegal Immigration Reform and Immigrant 
Responsibility Act (IIRIRA) in 1996, Congress recognized the failure of 
IRCA. In IIRIRA, Congress decided to test the conventional wisdom that 
it was impossible to control illegal immigration at the border by 
vastly augmenting the resources and personnel of the INS for border 
enforcement. The result has been to make the process of illegal border 
crossing more expensive and dangerous. Anecdotal evidence from farm 
labor contractors and agricultural employers across the United States 
is that many prospective border crossers, especially migrant farm 
workers and prospective migrant farm workers, have been unable to cross 
the border or have made the calculation that the cost of doing so is 
too high based on their prospective earnings in the U.S. Reports from 
all regions of the United States of reduced numbers of workers and 
short crews are becoming more common as Congress continues to augment 
resources and personnel for border enforcement.
    Increased border enforcement has also had a perverse effect. It 
apparently has induced some alien farm workers, who in the past crossed 
the border illegally on a seasonal basis to work in the United States 
during the agricultural season, to remain in the United States during 
the off season for fear that they would unable to get back in the next 
year. Some of these workers eventually try to smuggle their families in 
to join them. Many of these workers would prefer to maintain their 
homes and families in Mexico and work seasonally in the United States, 
but current immigration policies make this an unattractive option.
    IIRIRA also set in motion the testing of a process which many 
believe is the only way to effectively control the employment of 
illegal aliens. IIRIRA established a program of pilot projects for 
verification of the authenticity of employment authorization documents 
at the time of hire. These projects appear to have demonstrated that 
pre-hire verification of documents is feasible. If and when Congress 
mandates such verification, it will precipitate a real crisis in U.S. 
agriculture.
    Recently, Congress approved funding for a substantial increase in 
enforcement of employer sanctions and audits of I-9 forms. The I-9 form 
is the document completed by an employer at the time of hire on which 
the employer records the employment verification documents the employee 
offers to verify authorization to work in the United States. Employers 
are required by law to accept documents offered by the worker which 
reasonably appear on their face to be genuine, a test which virtually 
all documents meet. However, Department of Homeland Security (DHS) 
audits of the authenticity of employment authorization documents often 
reveal that 70 percent or more of seasonal agricultural workers have 
provided fraudulent documents. The employer is then required to dismiss 
each employee on the list who cannot provide a valid employment 
authorization document, something few can do.
    Independent of the effort to improve immigration control, other 
forces are also affecting the agricultural work place. The Social 
Security Administration (SSA) is under a Congressional mandate to 
reduce the amount of wage reporting to non existent social security 
accounts. Through its Enumeration Verification System (EVS), the Social 
Security Administration checks employers' tax filings to match names 
and social security numbers reported by employers with those in the SSA 
data base. Employers receive lists of mismatches with instructions to 
``correct the mistakes in reporting''. Of course, in most cases the 
mismatch is not a mistake in reporting, but a fraudulent number. When 
the employer engages the employee to ``correct the mistake'', the 
employee disappears. It is not uncommon for employers to receive lists 
of mismatches from the SSA containing 50 percent or more of the names 
which the employer reported to the SSA. Confronting the employees on 
these lists can have devastating effects on an employer's work force.
    While the incidence of INS I-9 audits is relatively low, many 
agricultural employers are receiving lists of mismatched numbers from 
the SSA. Thus, many agricultural employers are being forced to confront 
for the first time the reality of the legal status of their work force. 
Both the I-9 audits and the SSA verification program are having a 
churning effect on the agricultural work force. Farm workers with 
fraudulent documents are rarely picked up and removed. Instead, the 
employer is simply required to dismiss them. In effect, the illegal 
aliens are being chased from farmer to farmer as their employers 
receive SSA reports or are audited by the INS.
    Some opponents of an alien agricultural worker program argue that a 
program is not needed because employer sanctions cannot be effectively 
enforced no matter what the government tries to do. The implication of 
this argument is that employers should endure the uncertainties and 
potential economic catastrophe of losing a workforce, and workers 
should continue to endure the uncertainties of being chased from job to 
job on a moment's notice. We find such reasoning unacceptable. It is an 
argument for the status quo, which all agree is unacceptable. 
Furthermore, it is unacceptable to refuse to address one public policy 
problem on the grounds that another accepted and enacted public policy 
will be ineffective. We must honestly face the issues revealed by our 
policy of immigration control and employer sanctions. We believe that a 
workable alien agricultural worker program is the most appropriate 
answer.

           ARE THERE VIABLE ALTERNATIVES TO A REFORMED H-2A 
                      AGRICULTURAL WORKER PROGRAM?

    Opponents of alien agricultural worker programs suggest there are 
other ways to address the problem than legal admission of alien 
agricultural guest workers.
    One suggestion is that agricultural employers should be ``left to 
compete in the labor market, just like other employers have to do''. 
Under this scenario, there would be no alien guest workers. To secure 
legal workers and remain in business, agricultural employers would have 
to attract sufficient workers away from competing non-agricultural 
employers and the ranks of the unemployed by raising wages and 
benefits. Those who could not afford to compete would go out of 
business or move their production outside the United States. Meanwhile, 
according to this scenario, those domestic persons remaining in farm 
work would enjoy higher wages and improved working conditions.
    This ``solution'' will not work for several reasons.
    No informed person seriously contends that wages, benefits and 
working conditions in seasonal agricultural jobs can be raised 
sufficiently to attract non-agricultural workers away from their 
permanent jobs in the numbers needed to replace the illegal alien 
agricultural work force and maintain the economic competitiveness of 
U.S. producers. Thus, this scenario predicates that U.S. agricultural 
production would decline. In fact, given that the U.S. hired 
agricultural work force is, by most estimates, more than 70 percent 
illegal, U.S. agricultural production would have to decline 
dramatically.
    Seasonal farm jobs have attributes which make them inherently 
uncompetitive with non-farm work. First and foremost is that they are 
seasonal. Many workers who could do seasonal farm work accept non-farm 
work at less than the average farm worker hourly wage of $9.08 in 2003 
because they prefer the stability of a permanent job. Secondly, many 
seasonal farm jobs are located in rural areas away from centers of 
population, so there is only a small pool of workers available locally. 
Further, to extend the period of employment, workers must work at 
several such jobs in different areas. That is, they must become 
migrants. It is highly unlikely that many U.S. workers would be willing 
to become migrant farm workers at any wage, or for that matter that, as 
a matter of public policy, the federal government would want to 
encourage them to do so. In fact, the federal government spends tens of 
millions of dollars annually attempting to settle U.S. workers out of 
U.S. migratory farm work. The success of these efforts is one of the 
factors that has led to the expansion in illegal alien employment. In 
addition to seasonality and migrancy, most farm jobs are subject to the 
viscissitudes of weather, both heat and cold, and require physical 
strength and stamina. Thus it is highly unlikely that a significant 
domestic worker response would result even from substantial increases 
in wages and benefits for seasonal farm work to replace the illegal 
work force.
    Over the past two decade, U.S. farm worker wages have increased at 
a more rapid rate than comparable non-farm worker's wages, even with 
the influx of illegal aliens. More rapid farm wage increases can not 
occur for economic reasons. U.S. growers are in competition in the 
markets for most agricultural commodities, including most labor 
intensive commodities, with actual and potential growers around the 
globe. Since hired labor constitutes approximately 35 percent of total 
production costs of labor intensive agricultural commodities, and 1 in 
8 dollars of production costs for agricultural commodities generally, 
substantial increases in wage and/or benefit costs will have a 
substantial impact on growers' over-all production costs. U.S. growers 
are in an economically competitive equilibrium with foreign producers 
at approximately current production costs. Growers with substantially 
higher costs can not compete. If U.S. producers' production costs are 
forced up by, for example, restricting the supply of labor, U.S. 
production will become uncompetitive in world markets (including 
domestic markets in which foreign producers compete). U.S. producers 
will begin to be forced out of business. In fact, U.S. producers will 
continue to be forced out of business until the competition for 
domestic farm workers has diminished to the point where the remaining 
U.S. producers' production costs are approximately at current global 
equilibrium levels. The end result of this process will be that 
domestic farm worker wages and working conditions (and the production 
costs of surviving producers) are at approximately current levels 
because the volume of domestic production has declined sufficiently 
that there is no longer upward pressure on domestic farm worker wages 
and production costs.
    These same global economic forces, of course, affect all 
businesses. But nonagricultural employers have options for responding 
to domestic labor shortages that agricultural employers do not have. 
Many nonagricultural employers can ``foreign source'' the labor 
intensive components of their product or service without necessarily 
exporting all of the good jobs in the process. Since agricultural 
production is tied to the land, the labor intensive functions of the 
agricultural production process cannot be foreign-sourced. We cannot, 
for example, send the harvesting process or the thinning process 
overseas. Either the entire product is grown, harvested, transported 
and in many cases initially processed in the United States, or all 
these functions are done somewhere else, even though only one or two 
steps in the production process may be highly labor intensive. When the 
product is grown, harvested, transported and processed somewhere else, 
all the jobs associated with these functions are exported, not just the 
seasonal field jobs. These are the so-called ``upstream'' and 
``downstream'' jobs that support, and are created by, the production of 
agricultural products in the U.S. U.S. Department of Agriculture 
studies indicate that there are about 3.1 such upstream and downstream 
jobs supported by every on-farm job. Most of these upstream and 
downstream jobs are ``good'' jobs, i.e. year' round or long term 
seasonal jobs paying good wages that are held by citizens and permanent 
residents. Thus a workable agricultural guest worker program that 
retains agricultural production in the U.S. creates or preserves more 
than three times as many jobs for U.S. citizens and permanent residents 
as the number of guest workers employed. The truth is that a workable 
agricultural guest worker program is good for American workers.
    It has also been suggested that employment of alien agricultural 
workers could be avoided by recruiting the unemployed and welfare 
recipients to do these jobs. Growers themselves, most notably the Neisi 
Farmers League in the San Joaquin Valley of California, have tried to 
augment their labor supply by recruiting unemployed workers and welfare 
recipients. While these efforts have resulted in some unemployed 
workers and former welfare recipients moving into farm jobs, the 
magnitude of this movement has been insignificant. In fact, welfare 
administrators suggest that the long term impact of welfare reform is 
likely to exacerbate rather than reduce the shortage of domestic farm 
labor. As limitations are set on recipients' lifetime welfare 
entitlement, seasonal farm workers who supplement their earnings with 
welfare will be forced into permanent nonagricultural jobs. Other 
attributes of seasonal farm work are also deterrents. The preponderance 
of those now remaining on the welfare rolls are single mothers with 
young children. Many are not physically capable of doing physically 
demanding farm work, do not have transportation into the rural areas, 
and are occupied with the care of young children.
    The unemployed also make, at best, a marginal contribution to the 
hired farm work force. Relatively high unemployment rates in some rural 
agricultural counties are often cited as evidence of an available labor 
supply or even of a farm worker surplus. First, it should be noted that 
labor markets with a heavy presence of seasonal agriculture will always 
have higher unemployment rates than labor markets with a higher 
proportion of year round employment. By the very nature of the fact 
that farm work is seasonal, many seasonal farm workers spend a portion 
of the year unemployed because there is little or no seasonal 
agricultural work available at that time of the year. Second, 
unemployed workers share the same values and aspirations as employed 
workers. They prefer permanent employment which is not physically 
demanding and takes place in a comfortable environment. They share an 
aversion to migrancy, and often have transportation and other 
limitations that restrict their access to rural jobs. The coexistence 
of unemployed workers and employers with labor shortages in the same 
labor markets means only that we have a system that enables workers to 
exercise choices.
    Many welfare recipients and unemployed workers can not or will not 
do agricultural work. It is reasonable to expect an alien worker 
program to have a credible mechanism to assure that domestic workers 
who are willing and able to do farm work have first access to 
agricultural jobs, and that aliens do not displace U.S. workers. It is 
not reasonable to expect or insist that welfare and unemployment rolls 
fall to zero as a condition for the admission of alien workers.
    Another alternative to alien workers often suggested is to replace 
labor with technology, including mechanization. This argument holds 
that if agricultural employers were denied access to alien labor they 
would have an incentive to develop mechanization to replace the alien 
labor. Alternatively, it is argued that the availability of alien labor 
retards mechanization and growth in worker productivity.
    The argument that availability of alien labor creates a 
disincentive for technological advancement is belied by the history of 
the past two decades. From 1980 to the present, U.S. output of labor 
intensive agricultural commodities has risen dramatically while U.S. 
hired agricultural employment has declined. The only way this could 
have happened is as a result of significant agricultural labor 
productivity increases. Yet this was also the period of perhaps the 
greatest influx of illegal alien farm workers into U.S. agriculture in 
our history.
    It does not appear that there has been a great deal of increase in 
agricultural mechanization in fruit and vegetable farming since a spasm 
of innovation and development in the 1960's and 1970's. Indeed, some of 
the mechanization developed during that period, such as mechanical 
apple harvesters, has proven to be uneconomical in the long term 
because of tree damage as well as fruit damage. Agricultural engineers 
claim the reason for this is the withdrawal of support for agricultural 
mechanization research by the U.S. Department of Agriculture following 
protests and litigation by farm workers in California that such 
research was taking away their jobs.
    But productivity increases can result from many different kinds of 
technological innovations, of which mechanization is only one. Smaller 
and lower fruit trees, which require less ladder climbing, trellised 
trees, and changes in the way trees or vines are pruned are also 
technological developments which improve labor productivity. The switch 
from boxes and small containers to bulk bins and pallets in the field 
has significantly improved labor productivity. Use of production 
techniques and crop varieties that increase yields improves field labor 
productivity by making harvesting and other operations more efficient. 
These are the techniques that farmers have used to achieve the large 
productivity increases obtained in the 1980's and 1990's. The fact that 
there appears to have been a slowing down in the pace of mechanization 
itself does not mean that growth in worker productivity has slowed.
    The argument that alien employment retards productivity increases 
is also belied by logic. The incentive for the adoption of 
mechanization, or any other productivity increasing innovation, is to 
reduce unit production costs. If an innovation results in a net savings 
in production costs it will be adopted. It doesn't matter whether the 
dollar saved is a dollar of domestic worker wages or a dollar of alien 
worker wages, or a dollar of some other production input. On the other 
hand, if the innovation results in a net increase in production costs, 
it will not be adopted. The only way one can argue that a reduction in 
alien labor will increase the incentive for technological innovation is 
to argue that the reduction in alien labor will first increase 
production costs. But if, as is argued elsewhere in this testimony, the 
tendency for domestic producers' costs to rise in response to a 
withdrawal of labor is offset by shifting domestic market share to 
foreign producers, the incentive for additional domestic mechanization 
will never occur. In a global market, the profitability of 
mechanization, just like the profitability of everything else, is 
determined by global production costs, not by domestic production 
costs.
    A fourth alternative to the importation of alien farm workers which 
has been suggested is the unionization of the farm work force. The 
implication of this scenario is that unionization would augment the 
supply of legal seasonal farm workers and make alien farm workers 
unnecessary. Alternatively, it is argued that an alien agricultural 
worker program will make it more difficult for domestic farm workers to 
unionize and improve their economic welfare.
    First it should be noted that use of the H-2A program as a strike 
breaking tool is expressly prohibited. H-2A workers may not be employed 
in any job opportunity which is vacant because the former occupant of 
the job is on strike or involved in a labor dispute. Secondly, there is 
no impediment to an H-2A worker becoming a union member. Indeed, the H-
2A program has been used for decades in unionized citrus operations in 
Arizona. If an employer seeking labor certification has a collective 
bargaining agreement and a union shop, the H-2A aliens, like all other 
employees, can be required to pay union dues and may become union 
members.
    There is no reason to believe that unionization will result in an 
increase in the availability of legal labor, nor, indeed, any reason to 
believe that the membership of farm worker unions is any more legal 
than the rest of the agricultural work force. Farm worker unions and 
farm employers are fishing out of the same labor force pool. The 
argument that increased farm worker unionization will increase the 
supply of legal labor is based on the supposition that farm worker 
unions will be successful in negotiating higher wages and more 
attractive working conditions than in nonunion settings, and that this 
will attract more domestic legal labor. Yet wages and working 
conditions in union and nonunion agricultural production settings are 
not (and in competitive global markets cannot be) significantly 
different in the competitive agricultural market place.
    The reality is that an alien agricultural worker program is 
probably union-neutral. Existence of such a guest worker program will 
probably not make it significantly more difficult or easier to organize 
farm workers.

             WHY DOES THE H-2A PROGRAM NEED TO BE REFORMED?

    There are two broad reasons why the existing H-2A program needs to 
be reformed.
    First, the program is administratively cumbersome and costly. Even 
at its present level of admission of fewer than 50,000 workers 
annually, the program is nearly paralyzed. Secondly, the program sets 
minimum wage and benefit standards that many employers cannot afford. 
As a result, the program's ``worker protections'' are cosmetic. They 
``protect'' fewer than 50,000 job opportunities in an agricultural work 
force estimated at more than 2 million. The vast majority of 
agricultural workers, legal and illegal, get little or no benefit from 
the H-2A ``protections''.
    The current H-2A program must be reformed because it is 
administratively cumbersome and costly. The regulations governing the 
program cover 33 pages of the Code of Federal Regulations. ETA Handbook 
No. 398, the compendium of guidance on program operation, is more than 
300 pages. Employers must apply for workers a minimum of 45 days in 
advance of the date workers are needed. Applications, which often run 
more than a dozen pages, are wordsmithed by employers and their 
consultants, by the Labor Department and by legal services attorneys. 
Endless discussions and arguments occur over sentences, phrases and 
words. After all this fine tuning, workers see, at best, an abbreviated 
summary of the application if they see anything at all.
    Each employer applicant goes through prescribed recruiting and 
advertising procedures, regardless of whether the same procedures have 
been undertaken for the same occupation by another employer only days 
earlier. The required advertising is strictly controlled by the 
regulations and looks more like a legal notice than a help wanted ad. 
Increasingly, the Labor Department is requiring that advertising be 
placed in major metropolitan dailies, in addition to local advertising 
that farm job seekers are most likely to see or hear. The 
advertisements rarely result in responses, yet they are repeated over 
and over again, year in and year out.
    Even after all this, the employer has no assurance that if 
``domestic'' workers are referred, they are, in fact, legal. Most state 
workforce agencies refuse even to request employment verification 
documents, much less verify that they are valid. It is the experience 
of H-2A employers that a substantial and increasing proportion of 
``domestic'' workers referred by state workforce agencies, on the basis 
of which certifications to employ legal alien workers are denied, are 
not work authorized. State workforce agency officials have even been 
known to suggest to H-2A growers that they go back to employing illegal 
aliens and save themselves and the employment service all the hassle of 
the H-2A program.
    Finally, a high proportion of the workers referred to H-2A 
employers and on the basis of which the employer is denied labor 
certification for a job opportunity, either fail to report for work or 
quit within a few hours or days. This then forces the employer to file 
with the Labor Department for a ``redetermination of need''. Even 
though redeterminations are usually processed within a few days, the 
petition and admission process after redetermination means that aliens 
will, at best, arrive 2 to 3 weeks late.
    The second reason why reform is needed is that the current H-2A 
program requires wage and benefit standards that are unreasonably rigid 
or not economically feasible in many agricultural jobs, effectively 
excluding those jobs from the H-2A program.
    The so-called Adverse Effect Wage Rate (AEWR) is one such standard. 
The Adverse Effect Wage Rate is a minimum wage set on a state-by-state 
basis by regulation, and is applicable to workers employed in job 
opportunities for which an employer has received a labor certification. 
The Adverse Effect Wage Rate standard is unique to the H-2A program and 
does not exist in any other immigration or labor certification program. 
Each state's AEWR is set at the average hourly earnings of field and 
livestock workers for the previous year in the state or a small region 
of contiguous states. For the 2004 season, AEWRs range from $7.38 per 
hour in Arkansas, Louisiana and Mississippi to $9.28 per hour in Iowa 
and Missouri. The AEWR sets a minimum wage standard that makes it 
uneconomical to use the H-2A program in many agricultural occupations.
    Another example of an unreasonably rigid standard is the 
requirement to provide housing, regardless of whether there is already 
adequate housing in the community for seasonal agricultural workers. 
The current H-2A program requires an employer to provide housing for 
all the job opportunities for which an employer applies for labor 
certification except those job opportunities from which local workers 
will commute daily from their permanent residences. The only 
agricultural employers who are required to provide housing to workers 
are those who participate in the H-2A program or use the Department of 
Labor's interstate clearance system to recruit workers. Only about 15 
percent of agricultural employment includes employer-provided housing, 
either free or at a charge. In other words, the vast majority of 
seasonal agricultural workers currently arrange their own housing. 
Employer-provided housing tends to be provided to seasonal workers only 
in those areas dependent on migrant workers that are so remote that 
community-based housing is unavailable. In many communities, sufficient 
housing is available for seasonal agricultural workers, yet employers 
are not permitted to provide a housing allowance to workers and have 
them live in the local community in lieu of building housing.
h.r. 3142--the agricultural job opportunities and benefits act (agjobs)
    On September 23, 2003 Rep. Chris Cannon (R-UT) and Rep. Howard 
Berman (D-CA) introduced H.R. 3142, the ``Agricultural Job Opportunity, 
Benefits, and Security Act of 2003'', popularly known as ``AgJOBSs.'' 
On the same day, Senator Larry Craig (R-ID) and Sen. Ted Kennedy (D-MA) 
and 18 co-sponsors introduced identical legislation, S. 1645. AgJOBS 
will substantially restructure and reform the H-2A temporary 
agricultural worker program, and provide a means for agricultural 
workers currently living and working in the United States without 
documentation who have made a substantial commitment to farm work in 
the United States to earn adjustment to legal permanent resident 
status.
    While H-2A reform and/or farm worker adjustment of status bills 
have been introduced in every Congress for the last eight years, this 
is the first time that such legislation has received strong bipartisan 
endorsement. H.R. 3142 has 95 co-sponsors and S. 1645 has 55 co-
sponsors, in both cases almost equally divided by party. AgJOBS is also 
supported by organized labor, farm worker advocates, Hispanic and 
church organizations, immigrant advocates, agricultural employer 
groups, including the ACIR and the NCAE, the American Farm Bureau 
Federation, associations of H-2A employers, and individual H-2A program 
users. The legislation has received the endorsement of the general 
business community, including the U.S. Chamber of Commerce.
    AgJOBS is the product of several years of arduous negotiations 
between agricultural employers, farm labor organizations and a 
bipartisan group of Congressional leaders. Unlike previous reform 
bills, AgJOBS is legislation that can be enacted. It represents the 
first and best chance for statutory reform of the H-2A program and the 
U.S. agricultural labor system in more than a decade. It is the only 
chance for such reform in the near future.
    Title I of AgJOBS establishes a program whereby aliens who can 
demonstrate that they have worked 100 or more days in a 12 consecutive 
month period during the 18 months prior to enactment of AgJOBS may 
apply for lawful temporary resident alien status. If the a temporary 
resident alien performs at least 360 work days of agricultural 
employment during the six years following the enactment of AgJOBS, 
including at least 240 work days during the first 3 years following 
enactment, and at least 75 days of agricultural work during each of 
three 12-month periods in the six years following enactment, the alien 
may apply for permanent resident status.
    During the period of temporary resident status the alien is 
employment authorized, and can travel abroad and reenter the United 
States. During the period of temporary resident status the spouse and 
minor children of the alien who are residing in the United States may 
remain in the U.S., but are not employment authorized. The spouse and 
minor children may adjust to permanent resident status with the alien. 
Unauthorized aliens who do not apply or are not qualified for 
adjustment to temporary resident status are subject to removal. 
Temporary resident aliens who do not fulfill the agricultural work 
requirement or are inadmissible under the INA or commit a felony or 3 
or more misdemeanors as temporary resident aliens are denied adjustment 
to permanent resident alien status and are subject to removal. The 
adjustment program is funded through application fees.
    Title II of AgJOBS replaces the existing H-2A temporary 
agricultural worker program with a reformed program. Employers desiring 
to employ H-2A aliens in temporary or seasonal agricultural jobs (10 
months or less) may file an application with the Secretary of Labor and 
a job offer for domestic workers. If the application and job offer 
meets the requirements of the program and there are no obvious 
deficiencies, the Secretary must approve the application.
    All workers in job opportunities covered by an H-2A application 
must be provided with workers compensation insurance, and no job may be 
filled by an H-2A alien which is vacant because the previous occupant 
is on strike or involved in a labor dispute. If the job is covered by a 
collective bargaining agreement, the employer must also notify the 
bargaining agent of the filing of the application. If the job is not 
covered by a collective bargaining agreement, the employer must provide 
housing at no cost to workers whose place of residence is beyond normal 
commuting distance, or a monetary housing allowance if the Governor of 
the state has determined that there is sufficient migrant housing 
available in the area of intended employment. The employer must 
reimburse inbound and return transportation and subsistence costs to 
workers who meet employment requirements and who travel more than 100 
miles to come to work for the employer. The employer must also 
guarantee employment for at least three quarters of the period of 
employment, and assure at least the highest of the applicable statutory 
minimum wage, the prevailing wage in the occupation and area of 
intended employment, or a reformed Adverse Effect Wage Rate. The 
Adverse Effect Wage Rate is reformed by freezing the rate in effect on 
January 1, 2003 for 3 years, and thereafter indexing the Adverse Effect 
Wage Rate by the annual percentage change in the Consumer Price Index 
for all Urban Consumers, unless Congress acts to set a new H-2A wage 
standard. Employers must also meet specific motor vehicle safety and 
insurance standards, and comply with all applicable federal, state and 
local labor laws and regulations.
    H-2A aliens are admitted for the duration of the initial job, not 
to exceed 10 months, and may extend their stay if recruited for 
additional seasonal jobs, to a maximum continuous stay of 3 years, 
after which the alien must depart the United States. H-2A aliens are 
authorized to be employed only in the job opportunity and by the 
employer for which they were admitted. An alien is not permitted to 
return as an H-2A worker until the alien has remained outside the U.S. 
for at least 1/5th the length of time the alien was in the U.S. in H-2A 
status. Aliens who abandon their employment or are terminated for cause 
must be reported by the employer, and are subject to removal. H-2A 
aliens are provided with a counterfeit resistant identity and 
employment authorization document.
    The Secretary of Labor is required to provide a process for filing, 
investigating and disposing of complaints, and may order back wages and 
civil money penalties for program violators. The Secretary of Homeland 
Security may order debarment of violators for up to 2 years. Workers 
are provided with a limited federal private right of action to enforce 
the housing, transportation, wages, and other requirements of the 
program, and written promises contained in job orders. A mediation 
process is available to any party involved in such an action to attempt 
to resolve the problem prior to litigation.
    The administration of the H-2A program is funded through a user fee 
paid by agricultural employers.
why is a workable alien agricultural worker program good public policy?
    In the absence of effective control of illegal immigration and 
enforcement of employer sanctions, the status quo will continue--
illegal alien migration, little use of the legal alien worker program, 
few protections for domestic and alien farm workers, crop losses due to 
shortages of workers, and vulnerability to random enforcement action 
for employers. This will be true whether or not the legal guestworker 
program is reformed, because without effective immigration control and 
document verification, agricultural employers as well as all other 
employers will continue to be confronted by a workforce with valid 
appearing documents and no practical way to know who is legal and who 
is not. No one can defend or advocate for continuation of the status 
quo. The current system of illegal immigration and an agricultural 
industry dependent on a fraudulently documented workforce is bad for 
employers, workers and the nation.
    But if the nation achieves reasonably effective control of illegal 
immigration and enforcement of employer sanctions--which is the 
objective of current public policy--then agricultural production in the 
United States, particularly of the labor intensive fruit, vegetables 
and horticultural commodities, will be drastically reduced, with 
attendant displacement of domestic workers in upstream and downstream 
jobs, unless a workable agricultural guestworker program exists.
    In conducting the public policy debate about a workable alien 
agricultural worker program, it is important to be realistic about what 
the public policy options are and are not. The public policy options 
are not between greater and lesser economic benefits for domestic farm 
workers. The level of wages and benefits that U.S. agriculture can 
sustain for all farm workers, domestic and alien, are largely 
determined in the global market place. The public policy options we 
face are between a larger domestic agricultural industry employing 
domestic and legal alien farm workers and providing greater employment 
opportunities for domestic off-farm workers, and a drastically smaller 
domestic agricultural industry and drastically fewer employment 
opportunities for domestic non-farm workers with a wholly domestic farm 
work force. In either case, the level of economic returns to farm 
workers will be approximately the same, namely those economic returns 
that are sustainable in the competitive global marketplace. But in the 
later scenario, the Nation will be vastly more dependent on foreign 
sources for its food supply, and more vulnerable to economic, political 
and security threats from abroad.
    The ACIR and the NCAE believe the national interest is best served 
by effective immigration control and a workable alien agricultural 
worker program that enables the United States to realize its full 
potential for the production of labor intensive and other agricultural 
commodities in a competitive global marketplace, and which supports a 
high level of employment for domestic workers in upstream and 
downstream jobs while assuring reasonable protections for domestic and 
alien farm workers. The ACIR and the NCAE believe an alien agricultural 
worker program that is workable and competitive for employers and that 
protects access to jobs and the wages and working conditions of 
domestic farm workers, and that provides legal status, dignity and 
protections to alien farm workers working in the United States, is 
important to accomplish now. Congress should not wait any longer to fix 
an indefensible status quo. The economic and social costs to our 
economy, to American workers and to alien farm workers are too high to 
delay. Congress should enact AgJOBS now.

                      Wall Street Journal Article

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             National Foundation for American Policy Report

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Wall Street Journal Article

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Release from the U.S. Chamber of Commerce

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Letter from J.R. Gonzales

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Material submitted by the Honorable Linda T. Sanchez, a Representative 
                in Congress From the State of California

                      Letter from Vibiana Andrade

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Letter from Manuel Mirabal

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress From the State of California

    Thank you for holding this hearing, Mr. Chairman. Illegal 
immigration and the impacts of a guestworker program are issues that 
greatly concern me.
    We have 8.2 million people unemployed in the United States, and an 
estimated 10 to 15 million illegal immigrants, most of whom come here 
to work. The economy has lost 2.2 million jobs in three years. Between 
March 2001 and February 2004, 7.1 million more people entered the 
working age population than there were jobs for them to take. Something 
has to give.
    Not only do illegal workers take jobs that Americans need, but they 
also depress the wages of working Americans. The Labor Department 
recently attributed 50 percent drop in real wages to the influx of 
cheap immigrant workers. To illustrate, the Los Angeles Times Magazine 
reported that jobs that African-American workers were paid $25 an hour 
for in the 1970s now pay only $8 to $10 an hour and are mostly held by 
illegal immigrants. That's reverse inflation of the worst kind. Any 
guestworker program must attempt to rectify this problem by setting 
reasonable wage levels, removing illegal immigrants currently in the 
country, and by deterring future illegal immigration.
    Most of the proposals for guestworker programs do nothing to 
protect American workers. Though they are all couched as 
``guestworker'' proposals, many are actually amnesties that will only 
worsen the fate of the American worker. The 11 million or more people 
who would be legalized in an amnesty will immediately affect the job 
prospects and wages of workers. Such proposals reward illegal behavior 
by legalizing a population of illegal workers that are already in the 
US. Therefore, they will only encourage further illegal immigration, 
which can only lead to more Americans out of work and wages that are 
further depressed.
    Sensible guestworker policy is mindful of the burden that American 
workers bear when immigrant workers are brought into the country. It 
would protect American workers from depressed wages caused by a large 
influx of immigrant workers by setting minimum wage levels. It also 
would require all workers to leave the country to be eligible. It would 
require the worker to spend a significant amount of time each year in 
their country of origin so the worker maintains roots at home. It would 
limit the guestworkers solely to industries that can demonstrate an 
acute need. It would solve the problems created by illegality, such as 
provision of housing and health care. It would provide interior 
enforcement to police the parameters of the program and ensure that 
workers are not staying in the US longer than they are permitted to. It 
would be enforced with an entry and exit system at each port of entry. 
And it would not reward lawbreakers by providing them with a path to 
citizenship.
    I look forward to hearing the testimony of today's witnesses. Thank 
you again, Mr. Chairman, for holding this hearing to examine the issues 
surrounding a guestworker program.

                               __________
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

    Guest worker programs were established initially to address worker 
shortages during times of war. During World War I, tens of thousands of 
Mexican workers performed agricultural labor as part of a temporary 
worker program. During World War II, the Bracero program was initiated. 
It was continued until 1964, and brought several million Mexican 
agricultural workers into the United States.
    The Bracero program has come to epitomize a history of abuse and 
mistreatment of farm workers. The Bracero program had worker 
protections in the law and in the workers' employment contracts, but 
the Bracero guest workers lacked the economic and political power to 
enforce their rights or to compel the United States government to do 
so. We must do better with any new program that we establish, 
particularly one that would provide temporary lawful status for 
millions of guest workers.
    I expect some of the witnesses today to talk about the fact that a 
large supply of foreign workers would lower wages for the American 
workforce. This is true to some extent and is a legitimate concern, but 
it is not the mere presence of foreign workers that leads to low wages. 
The problem is the lack of bargaining power that these workers have 
against their employers. No worker chooses to pay himself low wages or 
to work under poor conditions. The wage depression is attributable to 
the ability of employers to exploit this foreign workforce.
    Workers who participate in guest worker programs must be covered 
fully by U.S. labor laws, including strong protections for wages, 
working conditions, and the right to unionize. Similarly, it is 
essential that such laws be vigorously enforced by strengthening the 
wage and hour division at the U.S. Department of Labor as well as by 
ensuring that these workers have access to legal services. A good guest 
worker program must have ``portability.'' It is important that workers 
who participate in temporary labor programs have the freedom to change 
employers. They have to be able to avoid conditions that resemble 
indentured servitude.
    We need more than temporary legal status for the millions of 
hardworking, undocumented workers who presently are living in this 
country. The provision of guest worker status to these undocumented 
aliens should not just be a means of providing a steady stream of 
vulnerable workers for American companies. It should provide access to 
legalization for people who deserve this privilege.
    My Comprehensive Immigration Fairness Act of 2004, H.R. 3918, would 
provide access to legalization for the undocumented aliens in our 
country who have demonstrated that they deserve an opportunity to earn 
permanent resident status. It would make legalization available to 
undocumented aliens who have been physically present in the United 
States for a continuous period of not less than 5 years; are persons of 
good moral character; and have no criminal record. Moreover, if they 
are older than 18, they would have to successfully complete a course on 
reading, writing, and speaking words in ordinary usage in the English 
language; show that they have accepted the values and cultural life of 
the United States; and they would have to perform 40 hours of community 
service.
    For a new, large scale guest worker program to be successful, we 
also would have to eliminate the backlog in benefits applications. The 
Department of Homeland Security has a backlog of more than 6 million 
benefits applications. A large guest worker program easily could double 
that number. How can a large scale temporary worker program be 
implemented if the applications cannot be processed?
    Finally, we need to consider whether a large scale guest worker 
program would be limited to nationals of certain countries. The Bush 
Administration began discussions of a guest worker program with Mexico 
in 2001, and there may be reasons for crafting a special immigration 
relationship with Mexico. A guest worker program for millions of 
people, however, should not be limited to nationals of a single 
country.
    Thank you.

                               __________
Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
                  Congress From the State of Virginia

    Thank you, Mr. Chairman, for holding this important hearing on 
guest workers.
    As Chairman of the House Committee on Agriculture, I have had the 
opportunity to travel to many regions across the nation and seen first-
hand that the H-2A temporary agricultural visa process is not working. 
I have talked face to face with producers who have to deal with 
participating in a costly, time-consuming and flawed program. Employers 
have to comply with a lengthy labor certification process that is slow, 
bureaucratic and frustrating. In addition, they are forced to pay an 
artificially inflated wage rate. Many producers simply cannot afford 
the time and cost of complying with the H-2A program. However, in order 
to find and retain the legal workers these employers depend on for the 
viability of their operations, they have no alternatives.
    In addition, as a long-time Member of the Judiciary Committee, I am 
aware of the illegal immigration crisis our country currently faces. It 
is estimated that there are between 8 and 11 million illegal aliens 
currently living in the United States. This population grows by over 
350,000 each year. Clearly, this situation has reached crisis 
proportions and cannot be allowed to continue.
    That is why, as Chairman of the House Agriculture Committee and a 
Member of the Judiciary Committee, I introduced H.R. 3604, the 
Temporary Agricultural Labor Reform Act, a bi-partisan bill that will 
reform the H-2A guest worker program and create a more streamlined and 
fair process for everyone involved in the agriculture industry.
    I do not believe in rewarding those who have broken our nation's 
immigration laws by granting them blanket amnesty, and H.R. 3604 would 
do no such thing. Instead, my bill would encourage the large population 
of illegal farm workers to come out of hiding and participate legally 
in the guest worker program. Potential workers would be required to 
return to their home countries and apply for the program legally from 
there. This would both provide a legal, temporary workforce that 
employers can call on when insufficient American labor can be found, 
and help ensure that those temporary workers entering the country are 
not threats to our national security.
    Proponents of including traditional amnesty as a part of a guest 
worker reform bill believe that by aligning themselves with immigration 
advocates who favor amnesty, they will have a better chance of getting 
guest worker reform through the legislative process. I do not believe 
this is the case. Not only will providing amnesty create the wrong 
incentives for everyone involved in the H-2A process, but it will also 
exacerbate our nation's illegal immigration problems. Since 9/11, 
Congress has made securing our borders a priority in order to ensure 
the safety and well-being of our citizens. Instead of encouraging more 
illegal immigration, any successful guest worker reform should deter 
illegal immigration and help secure our borders. It is possible to 
simultaneously streamline the guest worker program, reduce illegal 
immigration, and protect our borders.
    In addition, this legislation would address the troublesome wage 
issue. Employers are currently required to pay an inflated wage called 
the Adverse Effect Wage Rate or AEWR. The AEWR was originally designed 
to protect similarly situated domestic workers from being adversely 
affected by guest workers coming into the country on a seasonal basis 
and being paid lower wages. However, the shortage of domestic workers 
in the farm workforce forces employers to hire foreign workers, and 
thus, is also forcing them to pay artificially inflated wages. My bill 
abolishes this unfair wage rate and creates a prevailing wage standard, 
under which, all workers are paid the same wage as workers doing 
similar work in that region.
    Furthermore, H-2A users are currently required to go through a 
time-consuming process in order to receive a ``labor certification,'' 
which is essentially an additional layer of red tape that requires the 
Department of Labor to verify the shortage of domestic workers in the 
area and permit employers to bring workers into the country. H.R. 3604 
would shorten the labor certification process by replacing it with a 
simple attestation process. Similar to the H-1B visa, employers would 
be required to sign an attestation to prove that they are filling all 
the domestic recruitment requirements necessary to attract and hire 
domestic workers. This helps to ensure that domestic jobs are protected 
while at the same time streamlining the process considerably.
    Recently, President Bush announced his proposal for reforming the 
immigration laws in this country. The plan he outlined describes a 
temporary worker program but also includes some more far-reaching 
reforms to the entire U.S. immigration system. I was pleased to see 
that the President's proposal does not provide a direct path for 
temporary workers to obtain Legal Permanent Resident or citizenship 
status. However, I do have some serious concerns about many other 
aspects of the President's proposal and will need further explanation 
as the details are developed.
    Thank you again, Mr. Chairman, for holding this important hearing. 
I look forward to working with you to examine our nation's laws 
regarding guest workers.

                                 <all>

</pre></body></html>
